No.

In the Supreme Court of the United States
___________________

AMERICAN ATHLETIC CONFERENCE, THE ATLANTIC
COAST CONFERENCE, THE BIG TEN CONFERENCE,
INC., THE BIG 12 CONFERENCE, INC., CONFERENCE
USA, MID-AMERICAN CONFERENCE, MOUNTAIN WEST
CONFERENCE, PAC-12 CONFERENCE, SOUTHEASTERN
CONFERENCE, SUNBELT CONFERENCE, AND WESTERN
ATHLETIC CONFERENCE,
Petitioners,
v.
SHAWNE ALSTON, ET AL.,
Respondents.
___________________

On Petition for a Writ of Certiorari to
the United States Court of Appeals for the
Ninth Circuit
___________________

PETITION APPENDIX
___________________

BRITT M. MILLER
ANDREW J. PINCUS
ANDREW S. ROSENMAN
Counsel of Record
JED W. GLICKSTEIN
CHARLES A. ROTHFELD
Mayer Brown LLP
Mayer Brown LLP
71 South Wacker Dr.
1999 K Street, NW
Chicago, IL 60606
Washington, DC 20006
(312) 782-0600
(202) 263-3000
apincus@mayerbrown.com
Counsel for Petitioner The Big Ten Conference, Inc.
[Additional counsel on inside cover]

ROBERT W. FULLER, III
LAWRENCE C. MOORE, III
PEARLYNN G. HOUCK
ERIK R. ZIMMERMAN
Robinson, Bradshaw &
Hinson, P.A.
101 North Tryon St.,
Suite 1900
Charlotte, N.C. 28246
MARK SEIFERT
Seifert Law Firm
50 California St.,
Suite 1500
San Francisco, CA
94111

LEANE K. CAPPS
CAITLIN J. MORGAN
Polsinelli PC
2950 North Harwood
St., Suite 2100
Dallas, TX 75201
AMY D. FITTS
Polsinelli PC
900 West 48th Pl.,
Suite 900
Kansas City, MO 64112
Counsel for The Big 12
Conference, Inc. &
Conference USA

BART H. WILLIAMS
SCOTT P. COOPER
KYLE A. CASAZZA
JENNIFER L. JONES
BENJAMIN C. BLOCK
SHAWN S. LEDINGHAM, JR.
Covington & Burling
Proskauer Rose LLP
LLP
2029
Century Park East,
One CityCenter
Suite 2400
850 Tenth St. N.W.
Washington, D.C. 20001 Los Angeles, CA 90067
Counsel for the American Counsel for Pac-12
Conference
Athletic Conference
Counsel for Southeastern
Conference

R. TODD HUNT
BENJAMIN G. CHOJNACKI
Walter Haverfield LLP
The Tower at Erieview
1301 East 9th St.,
Suite 3500
Cleveland, OH 44114
Counsel for MidAmerican Conference
MERYL MACKLIN
Bryan Cave Leighton
Paisner LLP
Three Embarcadero
Center, 7th Floor
San Francisco, CA
94111
RICHARD YOUNG
BRENT E. RYCHENER
Bryan Cave Leighton
Paisner LLP
90 South Cascade Ave.,
Suite 1300
Colorado Springs, CO
80903
Counsel for Mountain
West Conference
JON BRADLEY
Bradley Devitt Haas &
Watkins, P.C
2201 Ford Street
Golden, CO 80401
Counsel for Western
Athletic Conference

MARK A. CUNNINGHAM
Jones Walker LLP
201 St. Charles Ave.
50th Floor
New Orleans, LA 70170
Counsel for Sun Belt
Conference
D. ERIK ALBRIGHT
GREGORY G. HOLLAND
Fox Rothschild LLP
230 North Elm St.,
Suite 1200
Greensboro, N.C. 27401
JONATHAN P. HEYL
Fox Rothschild LLP
101 North Tryon St.,
Suite 1300
Charlotte, N.C. 28246
Counsel for Atlantic
Coast Conference

1a
APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
IN RE NATIONAL COLLEGIATE
ATHLETIC ASSOCIATION
ATHLETIC GRANT-IN-AID CAP
ANTITRUST LITIGATION,
SHAWNE ALSTON; MARTIN
JENKINS; JOHNATHAN MOORE;
KEVIN PERRY; WILLIAM
TYNDALL; ALEX LAURICELLA;
SHARRIF FLOYD; KYLE THERET;
DUANE BENNETT; CHRIS STONE;
JOHN BOHANNON; ASHLEY
HOLLIDAY; CHRIS DAVENPORT;
NICHOLAS KINDLER; KENDALL
GREGORY-MCGHEE; INDIA
CHANEY; MICHEL'LE THOMAS;
DON BANKS, "DJ"; KENDALL
TIMMONS; DAX DELLENBACH;
NIGEL HAYES; ANFORNEE
STEWART; KENYATA JOHNSON;
BARRY BURNETTI; DALENTA
JAMERAL STEPHENS, "D.J.";
JUSTINE HARTMAN; AFURE
JEMERIGBE; ALEC JAMES,
Plaintiffs-Appellees,
V.

No. 19-15566
D.C. No.
4:14-md-02541CW

2a
NATIONAL COLLEGIATE
ATHLETIC ASSOCIATION, THE
NCAA; PACIFIC 12
CONFERENCE; CONFERENCE
USA; THE BIG TEN
CONFERENCE, INC.; MIDAMERICAN CONFERENCE;
SOUTHEASTERN CONFERENCE;
ATLANTIC COAST CONFERENCE;
MOUNTAIN WEST CONFERENCE;
THE BIG TWELVE CONFERENCE,
INC.; SUN BELT CONFERENCE;
WESTERN ATHLETIC
CONFERENCE; AMEREICAN
ATHLETIC CONFERENCE
Defendants-Appellants,
AMERICAN BROADCASTING
COMPANIES, INC.; CBS
BROADCASTING, INC.; ESPN
ENTERPRISES, INC.; ESPN, INC.;
FOX BROADCASTING COMPANY,
LLC.; FOX SPORTS HOLDINGS,
LLC.; TURNER BROADCASTING
SYSTEM, INC.,
Intervenors.

3a
IN RE NATIONAL COLLEGIATE
ATHLETIC ASSOCIATION
ATHLETIC GRANT-IN-AID CAP
ANTITRUST LITIGATION,
JOHN BOHANNON; JUSTINE
HARTMAN, as representatives of
the classes,
Plaintiffs-Appellants,
V.

NATIONAL COLLEGIATE
ATHLETIC ASSOCIATION, THE
NCAA; PACIFIC 12
CONFERENCE; CONFERENCE
USA; THE BIG TEN
CONFERENCE, INC.; MIDAMERICAN CONFERENCE;
SOUTHEASTERN CONFERENCE;
ATLANTIC COAST CONFERENCE;
MOUNTAIN WEST CONFERENCE;
THE BIG TWELVE CONFERENCE,
INC.; SUN BELT CONFERENCE;
WESTERN ATHLETIC
CONFERENCE; AMEREICAN
ATHLETIC CONFERENCE
Defendants-Appellees,
AMERICAN BROADCASTING
COMPANIES, INC.; CBS
BROADCASTING, INC.; ESPN
ENTERPRISES, INC.; ESPN, INC.;
FOX BROADCASTING COMPANY,

No. 19-15662
D.C. No.
4:14-md-02541CW

OPINION

4a
LLC.; FOX SPORTS HOLDINGS,
LLC.; TURNER BROADCASTING
SYSTEM, INC.,
Intervenors.
Appeal from the United States District Court
for the Northern District of California
Claudia Wilken, District Judge, Presiding
Argued and Submitted March 9, 2020
San Francisco, California
Filed May 18, 2020
Before: Sidney R. Thomas, Chief Judge, and Ronald
M. Gould and Milan D. Smith, Jr., Circuit Judges.
Opinion by Chief Judge Thomas;
Concurrence by Judge Milan D. Smith, Jr.
SUMMARY1
Antitrust
The panel affirmed the district court’s order in an
antitrust action, enjoining the National Collegiate
Athletic Association from enforcing rules that restrict
the education-related benefits that its member
institutions may offer students who play Football
Bowl Subdivision football and Division I basketball.
In O’Bannon v. NCAA (O’Bannon II), 802 F.3d
1049 (9th Cir. 2015), the court affirmed in large part
the district court’s ruling that the NCAA illegally
restrained trade, in violation of section 1 of the
Sherman Act, by preventing FBS football and D1
This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the
reader.
1

5a
men’s basketball players from receiving compensation
for the use of their names, images, and likenesses, and
the district court’s injunction insofar as it required the
NCAA to implement the less restrictive alternative of
permitting athletic scholarships for the full cost of
attendance.
Subsequent antitrust actions by student-athletes
were consolidated in the district court. After a bench
trial, the district court entered judgment for the
student-athletes in part, concluding that NCAA limits
on education-related benefits were unreasonable
restraints of trade, and accordingly enjoining those
limits, but declining to hold that NCAA limits on
compensation unrelated to education likewise
violated section 1.
The panel affirmed the district court’s conclusion
that O’Bannon II did not foreclose this litigation as a
matter of stare decisis or res judicata.
The panel held that the district court properly
applied the Rule of Reason in determining that the
enjoined rules were unlawful restraints of trade under
section 1 of the Sherman Act. The panel concluded
that the student-athletes carried their burden at the
first step of the Rule of Reason analysis by showing
that
the
restraints
produced
significant
anticompetitive effects within the relevant market for
student-athletes’ labor on the gridiron and the court.
At the second step of the Rule of Reason analysis,
the NCAA was required to come forward with
evidence of the restraints’ procompetitive effects. The
district court properly concluded that only some of the
challenged NCAA rules served the procompetitive
purpose of preserving amateurism and thus
improving consumer choice by maintaining a

6a
distinction between college and professional sports.
Those rules were limits on above-cost-of-attendance
payments unrelated to education, the cost-ofattendance cap on athletic scholarships, and certain
restrictions on cash academic or graduation awards
and incentives. The panel affirmed the district court’s
conclusion that the remaining rules, restricting noncash education-related benefits, did nothing to foster
or preserve consumer demand. The panel held that
the record amply supported the findings of the district
court, which reasonably relied on demand analysis,
survey evidence, and NCAA testimony.
The panel affirmed the district court’s conclusion
that, at the third step of the Rule of Reason analysis,
the student-athletes showed that any legitimate
objectives could be achieved in a substantially less
restrictive manner. The district court identified a less
restrictive alternative of prohibiting the NCAA from
capping certain education-related benefits and
limiting academic or graduation awards or incentives
below the maximum amount that an individual
athlete may receive in athletic participation awards,
while permitting individual conferences to set limits
on education-related benefits. The panel held that the
district court did not clearly err in determining that
this alternative would be virtually as effective in
serving the procompetitive purposes of the NCAA’s
current rules, and could be implemented without
significantly increased cost.
Finally, the panel held that the district court’s
injunction was not impermissibly vague and did not
usurp the NCAA’s role as the superintendent of
college sports. The panel also declined to broaden the
injunction to include all NCAA compensation limits,
including those on payments untethered to education.

7a
The panel concluded that the district court struck the
right balance in crafting a remedy that both prevented
anticompetitive harm to student-athletes while
serving the procompetitive purpose of preserving the
popularity of college sports.
Concurring, Judge M. Smith wrote that because
he was bound by O’Bannon II, he joined the panel
opinion in full. He wrote separately to express concern
that the current state of antitrust law reflects an
unwitting expansion of the Rule of Reason inquiry in
a way that deprived the student-athletes of the
fundamental protections that the antitrust laws were
meant to provide them.
COUNSEL
Seth P. Waxman (argued), Leon B. Greenfield, Daniel
S. Volchok, David M. Lehn, and Kevin M. Lamb,
Wilmer Cutler Pickering Hale and Dorr LLP,
Washington, D.C.; Bart H. Williams, Scott P. Cooper,
Kyle A. Casazza, Jennifer L. Jones, and Shawn S.
Ledingham Jr., Proskauer Rose LLP, Los Angeles,
California; Leane K. Capps and Caitlin J. Morgan,
Polsinelli PC, Dallas, Texas; Amy D. Fitts, Polsinelli
PC, Kansas City, Missouri; Mark A. Cunningham,
Jones Walker LLP, New Orleans, Louisiana; Beth A.
Wilkinson and Brant W. Bishop, Wilkinson Walsh &
Eskovitz LLP, Washington, D.C.; Sean Eskovitz,
Wilkinson Walsh & Eskovitz LLP, Los Angeles,
California; Jeffrey A. Mishkin and Karen Hoffman
Lent, Skadden Arps Slate Meagher & Flom LLP, New
York, New York; Robert W. Fuller III, Pearlynn G.
Houck, and Lawrence C. Moore III, Robinson
Bradshaw & Hinson P.A., Charlotte, North Carolina;
Mark J. Seifert, Seifert Law Firm, San Francisco,
California; Andrew J. Pincus, Charles A. Rothfeld,
and Richard J. Favretto, Mayer Brown LLP,

8a
Washington, D.C.; Britt M. Miller and Andrew S.
Rosenman, Mayer Brown LLP, Chicago, Illinois;
Meryl Macklin, Bryan Cave Leighton Paisner LLP,
San Francisco, California; Richard Young and Brent
E. Rychner, Bryan Cave Leighton Paisner LLP,
Colorado Springs, Colorado; Benjamin C. Block,
Covington & Burling LLP, Washington, D.C.; R. Todd
Hunt and Benjamin G. Chojnacki, Walter Haverfield
LLP, Cleveland, Ohio; D. Erik Albright and Gregory
G. Holland, Fox Rothschild LLP, Greensboro, North
Carolina; Jonathan P. Heyl, Fox Rothschild LLP,
Charlotte, North Carolina; Charles L. Coleman III,
Holland & Knight LLP, San Francisco, California; for
Defendants-Appellants.
Steve Berman (argued), Craigh R. Spiegel, and
Emilee N. Sisco, Hagens Berman Sobol Shapiro LLP,
Seattle, Washington; Jeffrey L. Kessler (argued),
David G. Feher, and David L. Greenspan, Winston &
Strawn LLP, New York, New York; Bruce L. Simon
and Benjamin E. Shiftan, Pearson Simon & Warshaw
LLP, San Francisco, California; Elizabeth C. Pritzker,
Jonathan K. Levine, Bethany L. Caracuzzo, and Shiho
Yamamoto, Pritzker Levine LLP, Oakland,
California; Linda T. Coberly, Winston & Strawn LLP,
Chicago, Illinois; Sean D. Meenan and Jeanifer E.
Parsigian, Winston & Strawn LLP, San Francisco,
California; for Plaintiffs-Appellees.
Maurice M. Suh, Gibson Dunn & Crutcher LLP, Los
Angeles, California; Andrew S. Tulumello and Nick
Harper, Gibson Dunn & Crutcher LLP, Washington,
D.C.; for Amici Curiae National Football League
Players Association and National Basketball Players
Association.

9a
Bradley S. Pauley, Horvitz & Levy LLP, Burbank,
California, for Amicus Curiae National Federation of
State High School Associations.
Emma Rebhorn, Change to Win, New York, New
York; Sandeep Vaheesan, Open Markets Institute,
Washington, D.C.; Najah A. Farley, National
Employment Law Project, New York, New York; for
Amici Curiae Open Markets Institute, Change to Win,
National Employment Law Project, and Economics
and Law Professors.
OPINION
THOMAS, Chief Judge:
We consider an appeal and cross-appeal from an
order enjoining the National Collegiate Athletic
Association (the “NCAA”) from enforcing rules that
restrict the education-related benefits that its
member institutions may offer students who play
Football Bowl Subdivision (“FBS”) football and
Division I (“D1”) basketball (collectively, “StudentAthletes”). See In re NCAA Athletic Grant-In-Aid Cap
Antitrust Litig. (Alston), 375 F. Supp. 3d 1058 (N.D.
Cal. 2019). We have jurisdiction under 28 U.S.C. §
1291, and we affirm.
We conclude that the district court properly
applied the Rule of Reason in determining that the
enjoined rules are unlawful restraints of trade under
section 1 of the Sherman Act, 15 U.S.C. § 1. We
further conclude that the record supports the factual
findings underlying the injunction and that the
district court’s antitrust analysis is faithful to our
decision in O’Bannon v. NCAA (O’Bannon II), 802
F.3d 1049 (9th Cir. 2015).

10a
I
A. The NCAA and its Compensation Rules
Founded in 1905, the NCAA regulates
intercollegiate sports. Id. at 1053. Its mission
statement is to “maintain intercollegiate athletics as
an integral part of the educational program and the
athlete as an integral part of the student body and, by
so doing, retain a clear line of demarcation between
intercollegiate athletics and professional sports.”
NCAA regulations govern, among other things, the
payments that student-athletes may receive in
exchange for and incidental to their athletic
participation as well as in connection with their
academic pursuits.
The NCAA divides its member schools into three
competitive divisions. D1 schools—some 350 of the
NCAA’s approximately 1,100 member schools—
sponsor the largest athletic programs and offer the
most financial aid. D1 football has two subdivisions,
one of which is the FBS.
In August 2014, the NCAA amended its D1 bylaws
(the “Bylaws”) to grant the so-called “Power Five”
conferences—the FBS conferences that generate the
most revenue—autonomy to adopt collectively
legislation in certain areas, including limits on
athletic scholarships known as “grants-in-aid.”2 In
The Power Five conferences are the Atlantic Coast Conference
(the “ACC”), Big Ten Conference, Big 12 Conference, Pacific 12
Conference (the “Pac-12”), and Southeastern Conference (the
“SEC”). Student-Athletes named the Power Five as defendants,
along with Conference USA, the Mid-American Conference (the
“MAC”), Mountain West Conference, Sun Belt Conference,
Western Athletic Conference, and American Athletic Conference
(the “AAC”).
2

11a
January 2015, the Power Five voted to increase the
grant-in-aid limit to the cost of attendance (“COA”) at
each school. Since August 2015, the Bylaws have
provided that a “full grant-in-aid” encompasses
“tuition and fees, room and board, books and other
expenses related to attendance at the institution up to
the [COA],” as calculated by each institution’s
financial aid office under federal law. See 20 U.S.C. §§
1087kk, ll. The Bylaws also contain an “Amateurism
Rule,” which strips student-athletes of eligibility for
intercollegiate competition if they “[u]se[] [their]
athletics skill (directly or indirectly) for pay in any
form in [their] sport.” “[P]ay” is defined as the “receipt
of funds, awards or benefits not permitted by
governing legislation.”
However, governing legislation permits a wide
range of above-COA payments—both related and
unrelated to education. Without losing their
eligibility, student-athletes may receive, for instance:
(i) awards valued at several hundred dollars for
athletic
performance
(“athletic
participation
awards”),3 which may take the form of Visa gift cards;
(ii) disbursements—sometimes thousands of dollars—
from the NCAA’s Student Assistance Fund (“SAF”)
and Academic Enhancement Fund (“AEF”) for a
variety of purposes, such as academic achievement or
graduation awards, school supplies, tutoring, studyabroad expenses, post-eligibility financial aid, health
and safety expenses, clothing, travel, “personal or
family expenses,” loss-of-value insurance policies, car
Athletic participation awards include the “Senior ScholarAthlete Award,” which is a postgraduate scholarship of $10,000
or less that institutions may award two student-athletes per
year, and awards for achievement in special events, such as allstar or post-season bowl games.
3

12a
repair, personal legal services, parking tickets, and
magazine subscriptions;4 (iii) cash stipends of several
thousands of dollars calculated to cover costs of
attendance beyond the fixed costs of tuition, room and
board, and books, but used wholly at the studentathlete’s discretion;5 (iv) mandatory medical care
(available for at least two years after the athlete
graduates) for an athletics-related injury; (v)
unlimited meals and snacks; (vi) reimbursements for
expenses incurred by student-athletes’ significant
others and children to attend certain athletic
competitions; and (vii) a $30 per diem for “unitemized
incidental expenses during travel and practice” for
championship events.
The NCAA has carved out many of these
exceptions in the past five years. For example, before
2015, athletic participation awards did not take the
form of cash-like Visa gift cards. And once the NCAA
permitted grants-in-aid for the full COA, effective
August 2015, many more student-athletes began to
receive above-COA payments, such as cash stipends,
Pell Grants, and AEF as well as SAF distributions.
The record indicates that the NCAA does little to regulate or
monitor the use of these funds. While it controls the total pool of
money that an institution may distribute each year, it has not
capped the amount that an individual athlete may receive. The
SAF is broadly available to “assist student-athletes in meeting
financial needs that arise in conjunction with participation in
intercollegiate athletics, enrollment in an academic curriculum
or to recognize academic achievement as determined by
conference offices.” And the NCAA “encourage[s]” schools to
allocate AEF funds to provide “direct benefits to student-athletes
that enhance [their] welfare.”
4

Under the Bylaws, student-athletes who have already received
Pell Grants (calculated to cover the COA) may also receive these
stipends.
5

13a
This expansion of above-COA compensation has
coincided with rising revenue from D1 basketball and
FBS football for the NCAA and its members. In the
2015–16 academic year, these programs generated
$4.3 billion in revenue (a $300 million increase from
the previous year) for the Power Five. And in 2016,
the NCAA negotiated an eight-year extension (until
2032) of its multimedia contract for the broadcasting
rights to March Madness, the annual D1 men’s
basketball tournament. Under that agreement, the
NCAA will receive $1.1 billion per year (an annual
increase of over $325 million).
B. The O’Bannon Litigation
The NCAA is no stranger to antitrust litigation
arising from its compensation rules. In 2009, Ed
O’Bannon, a former UCLA basketball player, sued the
NCAA after learning that a college basketball video
game featured an avatar that resembled him and
sported his jersey number. O’Bannon II, 802 F.3d at
1055. “The gravamen of [his] complaint” was that the
NCAA illegally restrained trade, in violation of section
1, by preventing FBS football and D1 men’s basketball
players from receiving compensation for the use of
their names, images, and likenesses (“NILs”).6 Id.
After a bench trial, the district court agreed under
the Rule of Reason and entered relief for the plaintiffs.
See O’Bannon v. NCAA (O’Bannon I), 7 F. Supp. 3d
955, 962–63 (N.D. Cal. 2014), aff’d in part, rev’d in
The O’Bannon class included “[a]ll current and former studentathletes” who had played D1 men’s basketball or FBS football
“and whose [NILs] may be, or have been, included or could have
been included (by virtue of their appearance in a team roster) in
game footage or in video[]games licensed or sold by Defendants,
their co-conspirators, or their licensees.” Id. at 1055–56.

6

14a
part, O’Bannon II, 802 F.3d at 1079. The district court
acknowledged the NCAA’s evidence that college
athletics’ “amateur tradition” helps maintain their
popularity as a product distinct from professional
sports. Id. at 999. It nevertheless concluded that this
procompetitive benefit did not justify the NCAA’s
“sweeping prohibition” on NIL compensation. Id.
Based on evidence that “school loyalty and geography”
primarily drive consumer demand and a lack of proof
that small payments to student-athletes would
diminish college sports’ popularity, the district court
determined that the NCAA could justify, at most,
restrictions on large payments. Id. at 1000–01.
After identifying two less restrictive alternatives
(“LRAs”) to the challenged rules, id. at 1004–07, the
district court implemented those LRAs through an
injunction that required the NCAA to permit its
schools to (i) “use the licensing revenue generated
from the use of their student-athletes’ [NILs] to fund
stipends covering the [COA]”; and (ii) to make
deferred, post-eligibility cash payments in NIL
revenue, not to exceed $5,000, to student-athletes. Id.
at 1007–08; see also id. at 1008 (finding no evidence
that “such a modest payment” would “undermine[]”
NCAA’s “legitimate procompetitive goals”). The
NCAA appealed.
A majority of a Ninth Circuit panel concluded that
the district court’s decision, the first of its kind, was
“largely correct.” O’Bannon II, 802 F.3d at 1053; id. at
1079 (Thomas, C.J., concurring in part and dissenting
in part). The panel unanimously affirmed the
injunction insofar as it required the NCAA to permit
athletic scholarships for the full COA, but a panel
majority reversed and vacated the injunction’s

15a
requirement that the NCAA allow deferred NIL
payments. Id. at 1053.
In pertinent part, the panel rejected the NCAA’s
threshold argument that its amateurism rules,
including those governing compensation, are “valid as
a matter of law” under NCAA v. Board of Regents of
the University of Oklahoma, 468 U.S. 85 (1984).
O’Bannon II, 802 F.3d at 1061. The panel
acknowledged the Supreme Court’s observation, in
“dicta,” that the NCAA has historically preserved its
product by, inter alia, prohibiting payments to
student-athletes. Id. at 1063 (citing Bd. of Regents,
468 U.S. at 102). But it declined to read that
statement as perpetual blanket approval for the
NCAA’s compensation rules, which were not at issue
in Board of Regents. Id. Though conceding that the
NCAA’s “amateurism rules are likely to be
procompetitive,”7 id. at 1053, the panel refused to
exempt them from antitrust scrutiny, see id. at 1064
(explaining that a procompetitive rule “can still be
invalid under the Rule of Reason”).
The panel then affirmed much of the district
court’s analysis. See id. at 1069–76. As is relevant
here, it found, based on the record, “a concrete
procompetitive effect in the NCAA’s commitment to
amateurism: namely that the amateur nature of
collegiate sports increases their appeal to consumers.”
Id. at 1073. As to LRAs, it agreed that the ban on
funding COA scholarships with NIL revenue was
“patently and inexplicably stricter” than necessary to
In O’Bannon II, “amateurism rules” refers to, inter alia, the
NCAA’s “financial aid rules” and other rules “that limit studentathletes’ compensation and their interactions with professional
sports leagues.” Id. at 1055.

7

16a
differentiate college from professional sports. Id. at
1075 (“[B]y the NCAA’s own standards, studentathletes remain amateurs as long as any money paid
to them goes to cover legitimate educational
expenses.”). It clarified that courts must invalidate
such restraints but may not “micromanage
organizational rules” or “strike down largely
beneficial market restraints[.]” Id.
A panel majority, however, found error in the
district court’s adoption of deferred NIL compensation
“untethered
to
[student-athletes’]
education
expenses” as a viable LRA. Id. at 1076. It explained
that “not paying student-athletes is precisely what
makes them amateurs” and disagreed that “being a
poorly-paid professional” is “‘virtually as effective’ for
that market as being a[n] amateur.” Id. To avert a
“transition[]” to “minor league status” and to heed the
“Supreme Court’s admonition that [courts] must
afford the NCAA ‘ample latitude’ to superintend
college athletics,” the majority vacated this portion of
the injunction. Id. at 1079 (quoting Bd. of Regents, 468
U.S. at 120). In closing, it “emphasize[d] the limited
scope of [its] decision,” explaining that “in th[at] case,”
the Rule of Reason did “not require” anything “more”
of the NCAA than to permit student-athletes to
receive scholarships for the COA. Id.8
I dissented from this vacatur, mostly on the basis of the
standard of review, because I concluded that the record
supported the entirety of the judgment. Id. at 1080. Though
agreeing that “court[s] should not eliminate the distinction
between professional and college sports,” I also disagreed that
the vacated remedy would have done so. Id. at 1082 n.4. As a
practical matter, the remedy that survived appeal required
nothing of the NCAA, which had already adopted a more
generous adjustment to the grant-in-aid limit by permitting
schools to offer any D1 recruit an athletic scholarship up to the
8

17a
C. The Alston Litigation
In March 2014, while the NCAA was litigating
O’Bannon I, FBS football and D1 men’s and women’s
basketball players filed several antitrust actions
against the NCAA and eleven D1 conferences that
were transferred to and, with one exception,
consolidated before the same district court presiding
over O’Bannon I. Rather than confining their
challenge to rules prohibiting NIL compensation,
Student-Athletes sought to dismantle the NCAA’s
entire compensation framework.
In December 2015, the district court certified
three injunctive relief classes comprised of (i) FBS
football players, (ii) D1 men’s basketball players, and
(iii) D1 women’s basketball players. Each subclass
consists of student-athletes who have received or will
receive a full grant-in-aid during the pendency of this
litigation.
Nearly a year after our decision in O’Bannon II,
the NCAA sought judgment on the pleadings,
invoking res judicata. It argued that O’Bannon II
“requires nothing more of the NCAA than that it
permit its member schools to provide student-athletes
with their full education-related [COA].” Because the
NCAA had already amended its rules to satisfy that
requirement, it reasoned that any post-O’Bannon
antitrust challenges to its compensation rules must
fail. The district court denied the motion. It explained
that Student-Athletes, unlike the O’Bannon
plaintiffs, had challenged, among other things, limits
on
non-cash,
education-related
benefits.
It
acknowledged the possibility that O’Bannon
COA, irrespective of whether his or her NIL was or could be used
or licensed.

18a
forecloses a type of relief—lifting restrictions on cash
payments untethered to educational expenses—but
declined to read it more broadly than that.
Cross-motions for summary judgment followed.
The district court again rejected the NCAA’s
preclusion arguments. As to the merits, it adopted, at
the parties’ request, the market definition from
O’Bannon I: the market for a college education or,
alternatively, student-athletes’ labor. It then granted
Student-Athletes summary judgment at the Rule of
Reason’s first step, as the NCAA did not meaningfully
dispute
that
the
challenged
rules
have
anticompetitive effects in the relevant markets. At the
Rule of Reason’s second step, it determined that the
NCAA had raised triable issues as to whether its rules
have the procompetitive effect(s) of maintaining the
popularity of its elite college basketball and football
products or integrating student-athletes into the
wider campus community. Last, the district court
found that Student-Athletes had proffered sufficient
evidence to support their two proposed LRAs: (i)
allowing individual conferences, but not the NCAA, to
regulate student-athlete compensation; or (ii)
enjoining NCAA rules that restrict both non-cash
education-related benefits and benefits that are
incidental to athletic participation.
D. The District Court’s Decision
After a ten-day bench trial, the district court
entered judgment for Student-Athletes, in part. The
court concluded that NCAA limits on educationrelated benefits are unreasonable restraints of trade,
and accordingly enjoined those limits; however, the
court declined to hold that NCAA limits on
compensation unrelated to education likewise violate
section 1. Alston, 375 F. Supp. 3d at 1109.

19a
1. Determination that O’Bannon Is Not
Preclusive
At the outset of its conclusions of law, the district
court again declined to dismiss the case on res
judicata grounds. Id. at 1092–96. It identified
“material factual differences” between O’Bannon and
the Alston litigation, id. at 1095, including in the
identity of class members and the rules and rights at
issue, see id. at 1093–94 (explaining that “[t]he crux of
the O’Bannon case was the right to student-athletes’
NIL[s],” whereas “[t]he conduct at issue here is not
connected to NIL rights” but to limits on above-COA
compensation and benefits); id. at 1094 (noting that
challenged rules either did not exist or have
“materially changed” since O’Bannon). The district
court then proceeded to its Rule of Reason analysis.
2. The Relevant Market
To begin, the district court accepted StudentAthletes’ trial theory narrowing the relevant market
to one in which Student-Athletes sell their “labor in
the form of athletic services” to schools in exchange for
athletic scholarships and other payments permitted
by the NCAA. Id. at 1067, 1097.
3. Anticompetitive Effects
Next, the court reiterated its summary judgment
finding of “significant anticompetitive effects in the
relevant market.” Id. at 1067, 1097. It relied on
Student-Athletes’ economic analyses reflecting that
schools, as buyers of athletic services, exercise
monopsony power to artificially cap compensation at
a level that is not commensurate with studentathletes’ value. Id. at 1068. Based on these analyses,
it also found that, but for the challenged restraints,
schools would offer recruits compensation that more

20a
closely correlates with their talent. Id. at 1068–69,
1098.
The district court also highlighted additional trial
evidence demonstrating the challenged rules’
anticompetitive effects. This included testimony that,
in 2013, the Power Five began to urge the NCAA to
loosen its compensation restrictions based on a
concern that existing rules incongruously allowed
schools to spend on virtually anything, including
palatial athletic facilities and seven-figure coaches’
salaries, except direct financial support for studentathletes. Id. at 1068–69. In the district court’s view,
the Power Five’s concerns constituted further proof
that, absent the NCAA’s rules, student-athletes would
receive higher compensation. Id. at 1069. Although
the NCAA granted the Power Five autonomy to create
new forms of compensation and to expand previously
available compensation and benefits in 2015, the
district court observed that these conferences remain
constrained by “overarching NCAA limits” that cap
compensation at an artificially low level. Id.
4. Procompetitive Effect
The district court then turned to the NCAA’s
asserted procompetitive justifications. In pertinent
part, the NCAA argued that the challenged rules
implement “amateurism,” which drives consumer
interest in college sports because “consumers ‘value
amateurism.’”9 Id. at 1070 (internal citation omitted).
This justification is the only one raised on appeal. The district
court rejected the NCAA’s other proffered justification
(abandoned on appeal): The challenged rules purportedly
enhance student-athletes’ college education by integrating them
into the wider campus community. Id. at 1083–86, 1102–03. The
district court declined to find that the challenged rules improve
academic performance or prevent a social “wedge” between
9

21a
The district court accepted this justification with
respect to the NCAA’s limits on cash compensation
untethered to education, but not as to its limits on
non-cash education-related benefits. Id. at 1082–83,
1101–02.
As a preliminary matter, the district court found
no proof that the challenged rules directly foster
consumer demand. Id. at 1070. It acknowledged the
NCAA’s theory that its rules safeguard “amateurism”
for consumers’ benefit, but the meaning of that term
eluded the court.10 See id. at 1070–71 (noting former
SEC commissioner’s testimony that he “do[es not]
even know what [amateurism] means” (internal
citation omitted)). Though the NCAA defined
amateurism during the litigation as “‘not paying’ the
participants,” id. at 1071 (internal citation omitted),
the district court observed that this purported pay-forplay prohibition is riddled with exceptions. See id. at
1071–74.
After cataloguing the long list of above-COA
payments that the NCAA permits, the court then
reached two conclusions: (i) the challenged rules “do
not follow any coherent definition of amateurism . . .
or even ‘pay,’” and (ii) these payments (many of which
athletes and non-athletes. Id. at 1083–85, 1102–03. To the
contrary, it found that the challenged rules foster resentment by
permitting expenditures on “frills, like extravagant athletes-only
facilities.” Id. at 1085–86, 1103.
The NCAA’s “Principle of Amateurism” provides that studentathletes’ “participation should be motivated primarily by
education and by the physical, mental and social benefits to be
derived,” that their “participation in intercollegiate athletics is
an avocation,” and that they “should be protected from
exploitation by professional and commercial enterprises.” Id. at
1070 (internal citation omitted).
10

22a
post-date O’Bannon) have not diminished demand for
college sports, which “remain[] exceedingly popular
and revenue-producing.” Id. at 1074.
On the question of consumer demand, the district
court found Student-Athletes’ evidence regarding the
effect (or lack thereof) of above-COA compensation on
demand more compelling than the NCAA’s. For
instance, in the battle of economic experts, the district
court found the NCAA’s only demand expert, Dr.
Kenneth Elzinga, unreliable because he failed to
study “standard measures of consumer demand, such
as revenues, ticket sales, or ratings,” but instead
relied on interviews with NCAA affiliates introduced
to him by defense counsel. Id. at 1075. The district
court further found his analysis irrelevant as he
refused to study consumer response to historical
changes in compensation levels based on the false
premise that the NCAA’s amateurism rules have not
materially changed over time. Id.
By contrast, the district court credited StudentAthletes’ expert Dr. Daniel Rascher’s demand
analysis, which was based on two natural
experiments and, in some respects, corroborated by
defense witnesses. Id. at 1076–78, 1100. The first
experiment—comparing consumer demand before and
after the August 2015 increase to the grant-in-aid
limit, which resulted in “thousands of class members
receiving significant” above-COA payments, including
SAF and AEF distributions—demonstrated “no
negative impact on consumer demand.” Id. at 1076. In
fact, Dr. Rascher found that revenues from D1
basketball and FBS football, “one of the best economic
measures of consumer demand,” have increased since
2015. Id. at 1076–77; see also id. at 1078 (noting
corroborating testimony by an NCAA Rule 30(b)(6)

23a
witness and a Big 12 Rule 30(b)(6) witness). The
second experiment—comparing demand before and
after the University of Nebraska (of the Big Ten)
began providing athletes up to $7,500 in posteligibility education-related aid—likewise did not
demonstrably reduce interest in Nebraska sports or
FBS football and D1 basketball more broadly. Id. at
1077–78.
The district court also found Student-Athletes’
survey expert, Dr. Hal Poret, considerably more
persuasive than the NCAA’s, Dr. Bruce Isaacson. Id.
at 1078–80, 1100–01. Dr. Isaacson asked respondents
why they watch college sports and listed “amateurs
and/or not paid” as one possible reason, but failed to
indicate that “amateurs” means “not paid” or to
otherwise define “amateurs,” thus “render[ing] the
responses hopelessly ambiguous.” Id. at 1078.
Moreover, he measured only consumer preference and
conceded that he did not attempt to study behavior.
Id. at 1079. By contrast, Dr. Poret tested behavior and
found that consumers would continue to view or
attend college athletics (at the same rate) even if eight
types of compensation that the NCAA currently
prohibits or limits were individually implemented. Id.
at 1079–80. The district court credited this conclusion.
Id. at 1079–80 & n.24.
Testimony by NCAA lay witnesses that “student”
status drives demand also failed to persuade the
district court of a connection between the challenged
compensation regime and demand. Id. at 1082, 1101.
It reasoned that “student-athletes would continue to
be students in the absence of the challenged rules,” id.
at 1082, relying on O’Bannon II’s observation that
higher education “would still be available to student-

24a
athletes if they were paid some compensation in
addition to their athletic scholarships,” id. at 1101
(quoting O’Bannon II, 802 F.3d at 1073). It also
underscored the absence of evidence that the NCAA
had promulgated its rules based on demand analyses.
Id. at 1080, 1100–01.
Despite finding the NCAA’s procompetitive theory
largely unpersuasive, the district court “credit[ed] the
importance to consumer demand of maintaining a
distinction between college sports and professional
sports.” Id. at 1082. The court then found that some
NCAA rules—the COA limit on the grant-in-aid,
limits on compensation unrelated to education, and
limits on cash awards for graduating or other
academic achievements—serve that purpose by
precluding “unlimited payments unrelated to
education, akin to salaries seen in professional sports
leagues.” Id. at 1082–83; see also id. at 1101–02. But
the court concluded that limits on “non-cash
education-related benefits,” such as post-eligibility
graduate scholarships or tutoring, do not have that
effect; it reasoned that such benefits “could not be
confused with a professional athlete’s salary” and
would only “emphasize that the recipients are
students.” Id. at 1083.
5. Less Restrictive Alternative
At the Rule of Reason’s third step, the district
court considered whether three potential alternatives
to the challenged restraints were less restrictive but
virtually as effective in preventing “demand-reducing
unlimited compensation indistinguishable from that
observed in professional sports.” Id. at 1086. The
district court rejected two proposed LRAs, both of
which would have permitted individual conferences to
limit above-COA compensation, but would have

25a
otherwise invalidated either (i) all NCAA
compensation limits or (ii) NCAA limits on educationrelated compensation and existing caps on benefits
incidental to athletics participation, such as
healthcare, pre-season expenses, and athletic
participation awards. Id. at 1086–87. The district
court found that both these alternatives would enable
professional-style cash payments, thus threatening
the distinction between college and professional
sports. Id. at 1087. The court acknowledged the
possibility that conferences could “discover” demandpreserving compensation levels. Id. But it rejected
these
LRAs
to
avoid
demand-reducing
“miscalculations” during “the inevitable trial-anderror phase.” Id.
The district court then identified a viable LRA:
(1) allow the NCAA to continue to limit
grants-in-aid at not less than the [COA];
(2) allow the [NCAA] to continue to limit
compensation and benefits unrelated to
education; (3) enjoin NCAA limits on
most compensation and benefits that
are related to education, but allow it to
limit education-related academic or
graduation awards and incentives, as
long as the limits are not lower than its
limits on athletic performance awards
now or in the future.11
Id. The court enumerated specific education-related
benefits that the NCAA would be unable to prohibit or
limit under the LRA: “computers, science equipment,
musical instruments and other items not currently
The district court found that the current aggregate limit on
such awards is $5,600. Id. at 1072, 1099.
11

26a
included in the [COA] but nonetheless related to the
pursuit of various academic studies”; post-eligibility
scholarships for undergraduate, graduate, and
vocational programs at any school; tutoring; studyabroad expenses; and paid post-eligibility internships.
Id. at 1088.
The district court explained that this LRA would
permit some NCAA regulation of cash graduation or
academic awards because these payments could
otherwise morph into professional-like salaries. Id. It
instructed that the cap on such awards should not fall
below the existing limit on aggregate athletic
participation awards (currently, $5,600), as receipt of
the latter “has been shown not to decrease consumer
demand and not to be inconsistent with the NCAA’s
understanding of amateurism.” Id. Under this LRA,
individual conferences may continue to limit all
payment types because “no individual conference
dominates nearly the entire market, like the NCAA
does.” Id. The district court further reasoned that this
LRA would not “greatly impact[]” the NCAA’s
“latitude to superintend college sports,” as it “would
affect only a small fraction of [its] rulemaking
jurisdiction.” Id.
The district court concluded that this LRA would
be virtually as effective as the challenged rules at
preserving student-athletes’ status as students (and
thus demand), analogizing it to the LRA affirmed in
O’Bannon II: Both require the NCAA to permit
members “to cover legitimate education-related
costs.” Id. at 1105 (citing O’Bannon II, 802 F.3d at
1075). Finally, it determined that, far from resulting
in significantly increased costs, the LRA’s elimination
of a category of rules would decrease the NCAA’s
enforcement costs. Id. at 1090–91, 1105.

27a
6. Remedy
The district court implemented this LRA via a
permanent injunction. See In re NCAA Athletic GrantIn-Aid Cap Antitrust Litig., 2019 WL 1593939 (N.D.
Cal. Mar. 8, 2019). The injunction provides that the
parties may move to modify its list of educationrelated benefits and that the NCAA may move to
incorporate a definition of compensation and benefits
that are “related to education” if it chooses to adopt
one. Id. at *1. It also allows the NCAA to regulate how
its members provide education-related benefits. Id.;
see also Alston, 375 F. Supp. 3d at 1107 (“[T]he NCAA
could require schools to pay for these items directly or
to reimburse student-athletes for [equipment]
expenses if adequate proof of purchase is shown.”).
The court reiterated that NCAA members remain free
to independently restrict pay. Alston, 375 F. Supp. 3d
at 1109. And it stayed the injunction pending
resolution of a timely appeal. Id. at 1110.
E. Post-Appeal Developments
After the NCAA timely appealed, California
enacted the Fair Pay to Play Act (the “FPP Act”). See
Cal. S.B. 206 (Sept. 30, 2019), Cal. Educ. Code §
67456. The FPP Act requires the NCAA and its
member institutions to permit student-athletes
enrolled in California colleges and universities to earn
compensation from the use of their NILs. Id. §
67456(a), (g). It takes effect on January 1, 2023. Id. §
67456(h).
In response to the FPP Act, the NCAA created a
working group that has recommended permitting NIL
benefits so long as they are tethered to education and
otherwise preserve the distinction between college
and professional sports recognized in O’Bannon II. See

28a
Fed. and State Leg. Working Grp. Report 4 (Oct. 23,
2019), available at https://tinyurl.com/working-grpreport. In recent testimony before the Senate
Commerce Subcommittee on Manufacturing, Trade
and Consumer Protection, NCAA President Dr. Mark
Emmert denied that the NCAA would be “taking any
action that is contrary to the position advocated by the
NCAA or accepted by the Ninth Circuit with respect
to the type of NIL payments that were at issue in the
O’Bannon case[.]” See Test. of Dr. Mark Emmert 6
(Feb.
11,
2020),
available
at
https://tinyurl.com/Emmert-Test-y.
II
The application of stare decisis and res judicata
are questions of law that we review de novo. See In re
Watts, 298 F.3d 1077, 1079 (9th Cir. 2002); Media
Rights Techs., Inc. v. Microsoft Corp., 922 F.3d 1014,
1020 (9th Cir. 2019).
We review factual findings for clear error and
legal conclusions de novo. See O’Bannon II, 802 F.3d
at 1061. Under clear error review, we must “accept the
district court’s findings of fact unless we are left with
the definite and firm conviction that a mistake has
been committed.” Id. (quoting FTC v. BurnLounge,
Inc., 753 F.3d 878, 883 (9th Cir. 2014)); see also United
States v. Alexander, 106 F.3d 874, 877 (9th Cir. 1997)
(“We must not reverse as long as the findings are
plausible in light of the record viewed in its
entirety[.]”). In other words, a decision is not clearly
erroneous unless it “strike[s] us as wrong with the
force of a five-week-old, unrefrigerated dead fish.”
Prete v. Bradbury, 438 F.3d 949, 968 n.23 (9th Cir.
2006) (internal citation omitted).

29a
Last, “[w]e review a district court’s decision to
grant a permanent injunction for an abuse of
discretion”; the “factual findings underpinning the
award” for clear error; and the “rulings of law relied
upon by the district court in awarding injunctive
relief” de novo. Ollier v. Sweetwater Union High Sch.
Dist., 768 F.3d 843, 867 (9th Cir. 2014) (internal
citations and quotation marks omitted).
III
The district court correctly concluded O’Bannon II
did not foreclose this litigation as a matter of stare
decisis and res judicata.
A
Stare decisis binds “today’s Court” to “yesterday’s
decisions.” Danielson v. Inslee, 945 F.3d 1096, 1097
(9th Cir. 2019) (quoting Kimble v. Marvel Entm’t,
LLC, 135 S. Ct. 2401, 2409 (2015)). “In determining
whether [we are] bound by an earlier decision,” we
consider “not only the rule announced, but also the
facts giving rise to the dispute, other rules considered
and rejected and the views expressed in response to
any dissent or concurrence.” Hart v. Massanari, 266
F.3d 1155, 1170 (9th Cir. 2001). “Insofar as there may
be factual differences between the current case” and
O’Bannon II, we “must determine whether those
differences are material to the application of the rule
or allow the precedent to be distinguished on a
principled basis.” Id. at 1172; see also In re Osborne,
76 F.3d 306, 309 (9th Cir. 1996) (explaining that
decisions “furnish[] the rule for the determination of a
subsequent case involving identical or similar
material facts” (internal citation omitted)).
Antitrust decisions are particularly fact-bound.
The Supreme Court has long emphasized that the

30a
Rule of Reason “contemplate[s]” “case-by-case
adjudication.” See Leegin Creative Leather Prods., Inc.
v. PSKS, Inc., 551 U.S. 877, 899 (2007); see also Maple
Flooring Mfrs.’ Ass’n v. United States, 268 U.S. 563,
579 (1925) (“[E]ach case arising under the Sherman
Act must be determined upon the particular facts
disclosed by the record, and . . . opinions in those cases
must be read in the light of their facts”); Phillip
Areeda & Herbert Hovenkamp, Antitrust Law: An
Analysis of Antitrust Principles and Their
Application, ¶ 1205c3 (4th ed. 2018) (“Continuing
contracts in restraint of trade,” are “typically subject
to continuing reexamination,” and “even a judicial
holding that a particular agreement is lawful does not
immunize it from later suit or preclude its
reexamination as circumstances change.”).
O’Bannon II was a decision of “limited scope,”
which the panel majority summarized as follows:
[W]e reaffirm that NCAA regulations
are subject to antitrust scrutiny and
must be tested in the crucible of the
Rule of Reason. . . . [T]he NCAA is not
above the antitrust laws, and courts
cannot and must not shy away from
requiring the NCAA to play by the
Sherman Act’s rules. In this case, the
NCAA’s rules have been more
restrictive than necessary to maintain
its tradition of amateurism in support of
the college sports market. The Rule of
Reason requires that the NCAA permit
its schools to provide up to the [COA] to
their student athletes. It does not
require more.
802 F.3d at 1079 (emphasis added).

31a
In arguing that the last two sentences of this
passage foreclose the current litigation, the NCAA
ignores the inherently fact-dependent nature of a Rule
of Reason analysis, which evaluates dynamic market
conditions and consumer preferences; the panel
majority’s manifest effort to limit its decision to the
record before it; and the majority’s mandate that
courts must continue to subject NCAA rules, including
those governing compensation, to antitrust scrutiny.
See id. at 1064 (“The amateurism rules’ validity must
be proved, not presumed.”).
Far from straying outside O’Bannon II’s bounds,
the district court here sought to toe the line that the
panel majority drew. The court uncapped educationrelated benefits, but left in place NCAA limits on
compensation unrelated to education, consistent with
the majority’s observation that “student-athletes
remain amateurs as long as any money paid to them
goes to cover legitimate educational expenses.” Id. at
1075 (emphasis added); see also id. at 1076 (vacating
injunction only insofar as it forced NCAA to permit
“cash payments untethered to . . . education
expenses”).
The district court meaningfully and properly
distinguished O’Bannon II from the current litigation
as a narrow challenge to restrictions on NIL
compensation. See id. at 1052 (introducing challenged
rules as those that “prohibit student-athletes from
being paid for the use of their [NILs]”); id. at 1055
(stating that the “gravamen of O’Bannon’s complaint
was that the NCAA’s amateurism rules, insofar as
they prevented student-athletes from being
compensated for the use of their NILs, were an illegal
restraint of trade”); id. at 1073 n.17 (“The correct
inquiry under the Rule of Reason is: What

32a
procompetitive benefits are served by the NCAA’s
existing rule banning NIL payments?”). Additionally,
the proposed LRAs in O’Bannon were expressly
limited to “licensing revenue generated from the use”
of student-athletes’ NILs. See O’Bannon I, 7 F. Supp.
3d at 1007. By contrast, this action more broadly
targets the “interconnected set of NCAA rules that
limit the compensation [student-athletes] may receive
in exchange for their athletic services.” Alston, 375 F.
Supp. 3d at 1062. And Student-Athletes sought LRAs
that would uncap above-COA compensation,
regardless whether their NILs have, will, or could
generate any revenue that would fund such
compensation. See id. at 1086.
The NCAA’s argument that it should not incur
antitrust liability for relaxing its compensation limits
since O’Bannon is not persuasive. The district court
rightly concluded that this argument misses the
mark: “It is the fact that the prices of student-athlete
compensation are fixed, as opposed to the amount at
which these prices are fixed, that renders the
agreements at issue anticompetitive.” Id. at 1095
(citing O’Bannon II, 802 F.3d at 1071 (“It is no excuse
that the prices fixed are themselves reasonable.”)
(quoting Catalano, Inc. v. Target Sales, Inc., 446 U.S.
643, 647 (1980))).
Additionally, the NCAA’s concession that it has
relaxed its compensation limits since O’Bannon only
underscores that the instant litigation is materially
factually different from O’Bannon. Indeed, as
Student-Athletes argue, the changes to compensation
limits since O’Bannon “alter the factual assumption
that drove the result in O’Bannon: they show that
non-education-related cash payments in excess of the
[COA] are no longer a ‘quantum leap’ from current

33a
NCAA practice[.]” See O’Bannon II, 802 F.3d at 1078
(“The difference between offering student-athletes
education-related compensation and offering them
cash sums untethered to educational expenses is not
minor; it is a quantum leap.”)).
In O’Bannon II, the majority addressed only two
types of above-COA allowances: Pell Grants and prize
money for tennis recruits. See id. at 1058–59. It
distinguished Pell Grants, which are “intended for
education-related expenses,” from “pure cash
compensation” for athletic performance. Id. at 1078
n.24. And it declared that “award money from outside
athletic events implicates amateurism differently
than allowing schools to pay student-[athletes]
directly.” Id. at 1077 n.21. Neither of these above-COA
allowances is analogous to the post-O’Bannon II forms
of compensation—provided by schools and unrelated
to education—that the district court cited to support
its conclusion that the NCAA, contrary to its theory of
amateurism, does provide at least some “pay for play.”
See Alston, 375 F. Supp. 3d at 1071–74. For example,
the court found that, after the O’Bannon record
closed, student-athletes have received, inter alia,
athletic participation awards in the form of Visa gift
cards,12 SAF disbursements in the thousands of
dollars to pay for loss-of-value insurance,13 and
Visa gift cards function like cash, even if the NCAA declines to
admit as much.
12

The NCAA characterizes this insurance as a “legitimate
expense to protect against the risk of loss that could be incurred
during athletic competition,” but the legitimacy of these
payments is irrelevant here. What matters, for stare decisis
purposes, is that the O’Bannon II panel had no occasion to
consider whether such payments accord with the NCAA’s
conception of amateurism.
13

34a
personal expenses unrelated to education. Id. at 1095.
Based on these innovations, the court fairly concluded
that the compensation landscape has meaningfully
changed since O’Bannon. See id. at 1094.
In sum, because O’Bannon II “was decided on a
narrow set of facts that are distinguishable from the
present case,” we “decline to adopt” the NCAA’s
“broad interpretation” of that decision. United States
v. Silver, 245 F.3d 1075, 1079 (9th Cir. 2001).
B
Res judicata, also known as “claim preclusion,”
“bars a party in successive litigation from pursuing
claims that ‘were raised or could have been raised in
[a] prior action.’” Media Rights Techs., 922 F.3d at
1020 (internal citation omitted). It applies when there
is: (i) an identity of claims between the prior and
subsequent actions; (ii) a final judgment on the
merits; and (iii) identity or privity between the
parties. Id. at 1020–21. The NCAA bears the burden
of proving all three elements. Id. at 1021. The NCAA
fails to carry its burden with respect to the first
element.
“Claim preclusion does not apply to claims that
were not in existence and could not have been sued
upon . . . when the allegedly preclusive action was
initiated.” Id. (internal citation omitted). That brightline rule is dispositive here. Because StudentAthletes’ antitrust claim “arose from events that
occurred after” the O’Bannon record closed in August
2014—that is, the above-described proliferation of
permissible above-COA payments alongside a growth
in revenues from FBS football and D1 basketball—it
is “not barred.” Howard v. City of Coos Bay, 871 F.3d
1032, 1040 (9th Cir. 2017); see also Harkins

35a
Amusement Enters., Inc. v. Harry Nace Co., 890 F.2d
181, 183 (9th Cir. 1989) (“Failure to gain relief for one
period of time does not mean that the plaintiffs will
necessarily fail for a different period of time”);
California v. Chevron Corp., 872 F.2d 1410, 1415 (9th
Cir. 1989) (providing that “conduct of the parties since
the first judgment[] must be considered” in connection
with successive antitrust suits).13
IV
The district court properly granted judgment on
the Student-Athletes’ Sherman Act § 1 claim. The
Sherman Act prohibits, inter alia, agreements “in
restraint of” interstate trade or commerce. 15 U.S.C.
§ 1. The Supreme Court has interpreted section 1 “as
‘outlaw[ing] only unreasonable restraints’ of trade.”
See In re Nat’l Football League’s Sunday Ticket
Antitrust Litig., 933 F.3d 1136, 1149 (9th Cir. 2019)
(alteration in original) (quoting State Oil Co. v. Khan,
522 U.S. 3, 10 (1997)). “[W]hen considering
agreements among entities involved in league sports,
such as here, [we] must determine whether the
restriction is unreasonable under the [R]ule of
[R]eason.” Id. at 1150 n.5; see also O’Bannon II, 802
F.3d at 1069 (“[T]he appropriate rule is the Rule of
Reason.”).
As applied here, under the Rule of Reason’s
“three-step framework:” (1) Student-Athletes “bear[]
the initial burden of showing that the restraint
produces significant anticompetitive effects within a
relevant market”; (2) if they carry that burden, the
NCAA “must come forward with evidence of the
restraint’s procompetitive effects”; and (3) StudentAthletes “must then show that any legitimate
objectives can be achieved in a substantially less
restrictive manner.” O’Bannon II, 802 F.3d at 1070

36a
(quoting Tanaka v. Univ. of S. Cal., 252 F.3d 1059,
1063 (9th Cir. 2001)). Throughout this analysis, we
remain mindful that, although “the NCAA is not
above the antitrust laws,” id. at 1079, courts are not
“free to micromanage organizational rules or to strike
down largely beneficial market restraints,” id. at
1075. Accordingly, a court must invalidate a restraint
and replace it with an LRA only if the restraint is
“patently and inexplicably stricter than is necessary to
accomplish all of its procompetitive objectives.” Id. at
1075.
A
The district court properly concluded that the
Student-Athletes carried their burden at the first step
of the Rule of Reason. The district court found that the
NCAA’s rules have “significant anticompetitive effects
in the relevant market” for Student-Athletes’ labor on
the gridiron and the court. See Alston, 375 F. Supp. 3d
at 1070 (“[B]ecause elite student-athletes lack any
viable alternatives to [D1], they are forced to accept,
to the extent they want to attend college and play
sports at an elite level after high school, whatever
compensation is offered to them by [D1] schools,
regardless of whether any such compensation is an
accurate reflection of the competitive value of their
athletic services.”). These findings “have substantial
support in the record,” O’Bannon II, 802 F.3d at 1070;
see Alston, 375 F. Supp. 3d at 1067–70, and the NCAA
does not dispute them, see O’Bannon II, 802 F.3d at
1072.
B
The NCAA does, however, quarrel with the
district court’s analysis at the Rule of Reason’s second
step, where the NCAA bears a “heavy burden” of

37a
“competitively justify[ing]” its undisputed “deviation
from the operations of a free market.” Bd. of Regents,
468 U.S. at 113; see also O’Bannon II, 802 F.3d at 1064
(explaining that the NCAA is not entitled to a
presumption that its restraints are procompetitive).
On appeal, the NCAA advances a single
procompetitive justification: The challenged rules
preserve “amateurism,” which, in turn, “widen[s]
consumer choice” by maintaining a distinction
between college and professional sports.
“Improving customer choice is procompetitive.”
Paladin Assocs., Inc. v. Mont. Power Co., 328 F.3d
1145, 1157 (9th Cir. 2003); see also O’Bannon II, 802
F.3d at 1072 (“[A] restraint that broadens choices can
be procompetitive.”). Thus, the district court properly
“credit[ed] the importance to consumer demand of
maintaining a distinction between college and
professional sports.” Alston, 375 F. Supp. 3d at 1082.14
Writing in support of Student-Athletes, amici assert that
courts may not consider a restraint’s procompetitive benefits in
a market outside the market deemed relevant for the purpose of
evaluating a restraint’s anticompetitive effects. That proposition
is not settled. See Paladin, 328 F.3d at 1157 n.11 (acknowledging
the “theory that procompetitive effects in a separate market
cannot justify anticompetitive effects in the market . . . under
analysis” (citing United States v. Topco Assocs., Inc. 405 U.S. 596,
610 (1972)). The O’Bannon II panel had no occasion to address
it, as the parties there limited their dispute to whether the
challenged rules, as a factual matter, preserved consumer
demand. See 802 F.3d at 1072–74. So, too, here: The parties have
agreed that the relevant market is the market for StudentAthletes’ labor, while the market to be assessed for procompetitive effects is the market for college sports. Thus, the
issue is not presented in this case. Because the issue raised by
amici is “not properly before us,” we express no view on its
merits, and leave it for another day. Pres. Coal., Inc. v. Pierce,
667 F.2d 851, 862 (9th Cir. 1982).
14

38a
The district court concluded, however, that only
some of the challenged rules serve that procompetitive
purpose: limits on above-COA payments unrelated to
education, the COA cap on athletic scholarships, and
certain restrictions on cash academic or graduation
awards and incentives. Id. at 1101–02 (recognizing
that removal of these restrictions could result in
unlimited cash payments akin to professional
salaries). It explained that the remaining rules—
those
restricting
“non-cash
education-related
benefits”—do nothing to foster or preserve demand
because “[t]he value of such benefits, like a
scholarship for post-eligibility graduate school tuition,
is inherently limited to its actual value, and could not
be confused with a professional athlete’s salary.” Id.
at 1083.
The record amply supports these findings. The
district court reasonably relied on demand analyses,
survey evidence, and NCAA testimony indicating that
caps on non-cash, education-related benefits have no
demand-preserving effect and, therefore, lack a
procompetitive justification. See id. at 1076–80.
First, Dr. Rascher’s and Dr. Noll’s demand
analyses demonstrate that the NCAA has loosened its
restrictions on above-COA, education-related benefits
since O’Bannon without adversely affecting consumer
demand. These benefits include SAF and AEF
distributions to cover fifth-and sixth-year aid,
postgraduate scholarships, tutoring, international
student fees, educational supplies, academic
achievement or graduation awards, graduate school
exam fees, and fees for internship programs. Id. at
1072 n.15.
Second, Student-Athletes’ survey evidence
reflects that individually implementing seven types of

39a
education-related benefits—limited or forbidden
under the challenged rules— would not diminish the
survey respondents’ viewership or attendance.15
Third, NCAA witnesses confirmed that the NCAA
set limits on education-related benefits without
consulting any demand studies. See id. at 1080
(“Indeed, [Kevin] Lennon, who has worked for the
NCAA for more than thirty years, testified that he
does not recall any instance in which any study on
consumer demand was considered by the NCAA
membership
when
making
rules
about
compensation”); see also id. at 1074 (“Defendants have
not provided any cogent explanation for why the
NCAA generally prohibits financial aid for graduate
school at another institution, or for why the Senior
Scholar Awards are limited in quantity and
amount.”).
Notwithstanding this evidence, the NCAA accuses
the district court of straying from a purported
“judicial consensus” that the NCAA expands
consumer choice by enforcing an amateurism
principle under which student-athletes “must not be
paid” a penny over the COA. This sweeping
procompetitive justification—the “Not One Penny”
standard, in Dr. Noll’s parlance—lacks support in
both precedent and the record.
Although both Board of Regents and O’Bannon II
define amateurism to exclude payment for athletic
These benefits were: an academic incentive payment with a
maximum value of $10,000, a graduation incentive payment with
a maximum value of $10,000, a post-eligibility undergraduate
scholarship, a work-study payment, off-season expenses, a
graduate school scholarship for the COA, and a post-eligibility
study-abroad scholarship.
15

40a
performance, neither purports to immortalize that
definition as a matter of law. In fact, O’Bannon II
recognizes that Board of Regents’ discussion of
amateurism is “dicta.” 802 F.3d at 1063. And to the
extent the O’Bannon II majority accepted the NCAA’s
conception of amateurism, it did so based on the
record,
which
demonstrated
a
“concrete
procompetitive effect,” id. at 1073, of limiting aboveCOA “NIL cash payments untethered to [students’]
education expenses,” id. at 1076.
The record in this case, by contrast, reflects no
such concrete procompetitive effect of limiting noncash, education-related benefits. Instead, the record
supports a much narrower conception of amateurism
that still gives rise to procompetitive effects: Not
paying
student-athletes
“unlimited
payments
unrelated to education, akin to salaries seen in
professional sports leagues” is what makes them
“amateurs.” Alston, 375 F. Supp. 3d at 1083. The
district court credited NCAA testimony that college
sports resonates with fans because they are not
professionalized, and that “if the college game looks to
be professional sports, [fewer] people will watch it.”
Id. at 1082 (internal citations omitted). But the court
reasonably declined to adopt the Not One Penny
standard based on considerable evidence that college
sports have retained their distinctive popularity
despite an increase in permissible forms of above-COA
compensation and benefits.
In defense of its expansive conception of
amateurism, the NCAA relies on its survey of 1,100
college sports fans, reflecting that 31.7 percent watch
college sports because, inter alia, they “like the fact
that college players are amateurs and/or are not paid.”
The NCAA claims that the district court rejected this

41a
survey on “baseless grounds.” But it disregards the
court’s primary and most compelling reason for
dismissing this evidence: The survey results reflect, at
most, a consumer preference for “amateurism,” but do
not capture the effects (if any) that the tested
compensation scenarios would have on consumer
behavior. See id. at 1079 (“Dr. Isaacson acknowledged
that measuring consumer preferences is ‘not the same
thing’ as measuring future consumer behavior, and
that he did not do any work to measure any
relationship between the two.” (internal citation
omitted)). The NCAA does not deny this flaw in its
survey evidence.
The district court offered another sound reason to
reject the NCAA’s survey evidence: The survey’s use
of the phrase “amateurs and/or not paid” made its
responses “hopelessly ambiguous.” Id. at 1078. In so
finding, the district court did not, as the NCAA
complains, “inject ambiguity into a commonplace
term.” Amateurism does not have a fixed definition,
as NCAA officials themselves have conceded. See, e.g.,
id. at 1070–71 (“Mike Slive, who served as
commissioner of the SEC, one of the Power Five, . . .
testified that amateurism is ‘just a concept that I don’t
even know what it means. I really don’t.’” (internal
citation omitted)); see also O’Bannon II, 802 F.3d at
1083 (Thomas, C.J., dissenting) (referring to
amateurism as a “nebulous concept prone to everchanging definition”). Survey respondents who
selected “amateurs and/or not paid” may have very
well equated amateurism with student status,
irrespective of whether those students receive
compensation for athletics. See Alston, 375 F. Supp.
3d at 1082 (acknowledging defense witness testimony
that “consumers’ perception that student-athletes are,
in fact, students” drives consumer demand for D1

42a
basketball and FBS football). Given this lack of
clarity, the district court reasonably concluded that
the NCAA’s survey results were of limited evidentiary
value.
Finally, the district court properly considered
whether the challenged rules themselves, rather than
hypothetical alternatives, have procompetitive
benefits. As both parties recognize, the proper
“inquiry under the Rule of Reason is: What
procompetitive benefits are served by the NCAA’s
[challenged] rule[s]?” See O’Bannon II, 802 F.3d at
1073 n.17. As we have recounted, the district court
gave reasoned consideration to the procompetitive
effects achieved by each type of challenged rule,
ultimately concluding that the NCAA “sufficiently
show[ed] a procompetitive effect of some aspects of the
challenged compensation scheme,” but not all. Alston,
375 F. Supp. 3d at 1103 (emphasis added). By
contrast, in O’Bannon, the district court erred at step
two because it considered the procompetitive benefits
of hypothetical limits on large amounts of
compensation. See O’Bannon II, 802 F.3d at 1073 n.17
(“During the second step, the district court could only
consider the benefits of the NCAA’s existing rule
prohibiting NIL payments—it could not consider the
potential benefits of an alternative rule (such as
capping large payments).”). Here, the NCAA has
conceded that its rules, in part, “prevent the receipt of
unlimited pay” unrelated to education. Dr. Isaacson
also acknowledged that the challenged rules prohibit
unlimited pay. Thus, the court did not err in assessing
whether such rules have procompetitive effects.
In short, the district court fairly found that NCAA
compensation limits preserve demand to the extent
they prevent unlimited cash payments akin to

43a
professional salaries, but not insofar as they restrict
certain education-related benefits.16
C
At the Rule of Reason’s third step, it is StudentAthletes’ burden to “make a strong evidentiary
showing” that their proposed LRAs to the challenged
scheme “are viable.” Id. at 1074. “[T]o be viable,” an
alternative “must be ‘virtually as effective’ in serving
the procompetitive purposes of the NCAA’s current
rules, and ‘without significantly increased cost.’” Id.
(quoting Cty. of Tuolumne v. Sonora Cmty. Hosp., 236
F.3d 1148, 1159 (9th Cir. 2001)). Where “a restraint is
patently and inexplicably stricter than is necessary to
accomplish all of its procompetitive objectives, an
antitrust court can and should invalidate it and order
it replaced with [an LRA].” Id. at 1075.
The LRA identified by the district court would
prohibit the NCAA from (i) capping certain educationrelated benefits17 and (ii) limiting academic or
The NCAA asserts that the district court proceeded from the
“simply fictional” premise that the dividing line between
student-athletes and professionals is that the latter may receive
“unlimited pay.” In context, the district court was using the term
“unlimited pay” as shorthand for payments that run the risk of
eroding consumer perception of student-athletes as students—
that is, cash payments unrelated to education and akin to
professional salaries. The NCAA’s own expert used that
shorthand in surveying consumer attitudes toward an
“unlimited payments scenario,” where “a college could pay a
student-athlete any amount it wanted to, without any limit, for
playing college sports.”
16

Those benefits are the following: “computers, science
equipment, musical instruments and other tangible items not
included in the cost of attendance calculation but nonetheless
related to the pursuit of academic studies; post-eligibility
scholarships to complete undergraduate or graduate degrees at
17

44a
graduation awards or incentives below the maximum
amount that an individual athlete may receive in
athletic participation awards, while (iii) permitting
individual conferences to set limits on educationrelated benefits. See Alston, 375 F. Supp. 3d at 1087.
The district court did not clearly err in determining
that this LRA would be “‘virtually as effective’ in
serving the procompetitive purposes of the NCAA’s
current rules,” and may be implemented without
“significantly increased cost.” See O’Bannon II, 802
F.3d at 1074 (internal citation omitted).
1
The district court reasonably concluded that
uncapping certain education-related benefits would
preserve consumer demand for college athletics just
as well as the challenged rules do. Such benefits are
easily distinguishable from professional salaries, as
they are “connect[ed] to education”; “their value is
inherently limited to their actual costs”; and “they can
be provided in kind, not in cash.” Alston, 375 F. Supp.
3d at 1102. And, as already detailed, the record
furnishes ample support for the district court’s finding
that the provision of education-related benefits has
not and will not repel college sports fans.
The district court drew an apt analogy between
the LRA upheld in O’Bannon II and the LRA it
identified here: Both athletic scholarships for the COA
and education-related benefits “cover legitimate
education-related costs.” Id. at 1105. Indeed, in
any school; scholarships to attend vocational school; tutoring;
expenses related to studying abroad that are not included in the
cost of attendance calculation; and paid post-eligibility
internships.” In re NCAA Athletic Grant-In-Aid Cap Antitrust
Litig., 2019 WL 1593939, at *1.

45a
affirming the district court’s order insofar as it raised
the grant-in-aid cap to the COA, the O’Bannon II
panel noted Dr. Emmert’s testimony that this
alternative would not harm demand “because all the
money given to students would be going to cover their
‘legitimate costs’ to attend school.” O’Bannon II, 802
F.3d at 1075. In reference to this litigation, Dr.
Emmert similarly announced the NCAA’s approval of
the court’s order to the extent that it would foster
competition among conferences and schools “over who
can provide the best educational experience”—”an
inherently good thing.” Associated Press, Emmert:
Ruling reinforced fundamentals of NCAA, ESPN, Apr.
4, 2019, available at https://tinyurl.com/emmertNCAA/.
Dr. Emmert’s comment is consistent with the
record. As in O’Bannon II, the NCAA presented no
evidence that demand will suffer if schools are free to
reimburse education-related expenses of inherently
limited value. Indeed, its evidence was to the
contrary. For instance, in testifying about a
University of Nebraska program that permits
student-athletes to receive up to $7,500 in posteligibility
aid
(for
study-abroad
expenses,
scholarships, and internships), the University’s
former chancellor conceded that such benefits “relate
to the educational enterprise” and, thus, do not erode
demand. When asked about the propriety of aboveCOA compensation, the current MAC commissioner
similarly testified that the “key” is “linking” payments
to the “pursuit of the educational opportunities of the
individual involved.” The LRA fashioned by the
district court achieves that link.
In light of this evidence, the district court
reasonably concluded that market competition in

46a
connection with education-related benefits will only
reinforce consumers’ perception of student-athletes as
students, thereby preserving demand. See Alston, 375
F. Supp. 3d at 1089 (observing that NCAA’s “own
witnesses” testified that “consumer demand for [D1]
basketball and FBS football is driven largely by
consumers’ perception that student-athletes are, in
fact, students”).
Moreover, no evidence in the record substantiates
the NCAA’s concerns that certain benefits permissible
under the LRA, if uncapped, will become vehicles for
payments that are virtually indistinguishable from a
professional’s salary. These concerns are premised on
an unreasonably expansive reading of the injunction,
including its requirement that the NCAA permit
reimbursement for “tangible items not included in the
[COA] calculation but nonetheless related to the
pursuit of academic studies.” In re NCAA Athletic
Grant-In-Aid Cap Antitrust Litig., 2019 WL 1593939,
at *1. We construe injunctions in “context” and “so as
to avoid . . . absurd result[s].” Gathright v. City of
Portland, 439 F.3d 573, 581 (9th Cir. 2006). The
context here makes plain that it “cannot have been the
district court’s intent,” id., for uncapped benefits to be
vehicles for unlimited cash payments. Instead, it
expressly envisioned “non-cash education-related
benefits” for “legitimate education-related costs,” not
luxury cars or expensive musical instruments for
students who are not studying music. Alston, 375 F.
Supp. 3d at 1105 (emphasis added). Thus, properly
construed, the injunction does not permit the type of
unlimited cash payments asserted by the NCAA.
Further, as the district court properly concluded, it is
doubtful that a consumer could mistake a posteligibility internship for a professional athlete’s

47a
salary, where the former is necessarily divorced from
participation in college athletics.
The NCAA’s challenges to the evidence
underlying this LRA are likewise unavailing. To be
sure, neither the survey nor Dr. Rascher’s
observations regarding the Nebraska program
purport to reflect the effect that nationwide
education-related benefits, implemented in the
aggregate, would have on consumer demand. But the
district court did not rely exclusively on this evidence.
Under the deferential standard of review required
here, we must examine the record “in its entirety.”
Alexander, 106 F.3d at 877. The NCAA fails to explain
why the cumulative evidence, which included demand
analyses regarding the growth of NCAA revenue
alongside the expansion of SAF and AEF payments for
education-related expenses, was insufficient.
And though the record does not reflect whether an
athlete has ever received $5,600 in aggregate athletic
participation awards, the district court reasonably
concluded that permitting student-athletes to receive
up to that amount in academic or graduation awards
and incentives will not erode consumer demand. See
Alston, 375 F. Supp. 3d at 1072 (citing Dr. Elzinga’s
testimony that a player on a successful team could
obtain $5,600 in cumulative awards under existing
rules). The district court had before it (and fairly
credited) evidence that demand would withstand even
higher caps on such awards and incentives. See id. at
1080 (discussing Student-Athletes’ survey, which
indicated that consumers would continue to view and
attend college sports events even if student-athletes
received academic or graduation incentive payments
of up to $10,000); see also id. at 1074, 1102, n.42
(observing that NCAA’s 30(b)(6) witness was unable

48a
to explain the NCAA’s reason for limiting Senior
Scholar-Athlete Awards to two students per year and
a value of $10,000). The NCAA’s objection to the
$5,600 cap rings especially hollow considering that it
does not cap individual academic or graduation
awards drawn from the AEF or SAF. See id. at 1072
n.15.18
Finally, the NCAA contends that the district court
engaged in improper judicial price setting by tying the
cap on academic and graduation awards and
incentives to the cap on aggregate athletic
participation awards. The Supreme Court has
remarked that courts are “ill suited” to identify terms
of dealing between competitors, including a product’s
“proper price.” Verizon Commc’ns Inc. v. Law Offices
of Curtis V. Trinko, LLP, 540 U.S. 398, 408 (2004). But
the district court did not fix the value of these
academic awards: The task of setting their value to
protect demand, by adjusting the aggregate value of
athletic participation awards, remains in the NCAA’s
court. See Alston, 375 F. Supp. 3d at 1107.
2
The district court did not clearly err in finding
that this LRA will not result in significantly increased
costs. The district court reasoned that enjoining
NCAA caps on most education-related benefits will
actually save the NCAA resources that it would have
The $5,600 cap on academic achievement awards and the
$5,000 cap on deferred NIL compensation that the panel majority
struck down in O’Bannon II may be “remarkably close” as a
numerical matter, but they are different where it counts: Unlike
deferred NIL compensation, academic achievement awards are
plainly education-related and, thus, reinforce the demandpreserving perception of student-athletes as students.
18

49a
otherwise spent on enforcing those caps. Id. at 1090.
Commonsense supports that determination, as does
the record.
Moreover, though the injunction permits the
NCAA to regulate, to an extent, academic and
graduation awards and incentives, and conferences to
regulate all education-related benefits, there is no
reason to believe that such regulation, if pursued, will
result in significantly increased costs. The NCAA does
not dispute that it and its conferences have existing
rulemaking and enforcement infrastructure to
achieve such regulation. See id. at 1090 n.32 (noting
NCAA’s recent creation of enforcement body to
adjudicate violations of “complex” NCAA rules,
including the “prioritiz[ation of] academics and the
well-being of college athletes” (internal citation
omitted); see also id. (noting that conferences are
legislative bodies under the Bylaws).
The court’s findings at step three are supported by
the record, and certainly not clearly erroneous.
V
The final question remaining is whether the
district court’s injunction goes too far or not far
enough in enjoining the NCAA’s unlawful conduct. In
the NCAA’s view, the injunction is impermissibly
vague, in violation of Federal Rule of Civil Procedure
65(d) (“Rule 65(d)”), and usurps the association’s role
as the “superintend[ent]” of college sports, O’Bannon
II, 802 F.3d at 1074. On cross-appeal, StudentAthletes urge that the district court should have
enjoined all NCAA compensation limits, including
those on payments untethered to education. In our
view, the district court struck the right balance in
crafting a remedy that both prevents anticompetitive

50a
harm to Student-Athletes while serving the
procompetitive purpose of preserving the popularity of
college sports. Thus, we neither vacate nor broaden
the injunction, but affirm.
A
Rule 65(d) reflects the “basic principle” that “those
against whom an injunction is issued should receive
fair and precisely drawn notice of what the injunction
actually prohibits.” Fortyune v. Am. Multi-Cinema,
Inc., 364 F.3d 1075, 1086–87 (9th Cir. 2004) (internal
citation omitted). “[W]e will not set aside injunctions
under Rule 65(d) ‘unless they are so vague that they
have no reasonably specific meaning.’” Id. at 1087
(internal citation omitted). The challenged injunction
clears this hurdle.
The district court enjoined the NCAA from
limiting enumerated “compensation and benefits
related to education,” In re NCAA Athletic Grant-InAid Cap Antitrust Litig., 2019 WL 1593939, at *1
(listing computers, science equipment, musical
instruments, etc.). The NCAA does not claim
confusion as to the meaning of any of these items.
Instead, it stakes its Rule 65(d) objection on the
injunction’s reference to “other tangible items not
included in the [COA] but nonetheless related to the
pursuit of academic studies.” Id. When read in
context, following a list of specific types of educationrelated equipment, this language is reasonably
specific. And unlike in Columbia Pictures Industries,
Inc. v. Fung, a copyright infringement case on which
the NCAA relies, the injunction here does not make
cryptic reference to “general[]” or “wide[spread]”
understanding and knowledge of technical terms. 710
F.3d 1020, 1048 (9th Cir. 2013).

51a
Nor did the district court impermissibly wrest
control of college sports from the NCAA by
empowering itself to determine the types of benefits
that qualify as “related to” education, instead of
“leaving th[at] task” to “the institutions experienced
in and responsible for providing education.” The
NCAA does not (nor can it reasonably) dispute that
the benefits enumerated in the injunction are plainly
related to academics. What is more, the injunction
invites the NCAA to promulgate a definition of
“related to education,” based on its institutional
expertise, subject to the court’s approval. See In re
NCAA Athletic Grant-In-Aid Cap Antitrust Litig.,
2019 WL 1593939, at *1. This allowance does not
constitute judicial usurpation by a long shot.
In sum, we uphold the injunction against the
NCAA’s challenges.
B
If the district court had concluded, as StudentAthletes contend, that NCAA limits on compensation
unrelated to education unreasonably restrain trade,
then it should have enjoined those limits. See 15
U.S.C. §§ 4, 25 (conferring jurisdiction on federal
courts to “prevent and restrain violations” of antitrust
law ); see also Ford Motor Co. v. United States, 405
U.S. 562, 577–78 (1972) (“Antitrust relief should
unfetter a market from anticompetitive conduct.”
(emphasis added)). The problem for Student-Athletes
is that the court did not conclude as much; instead, it
determined that NCAA limits on education-related
compensation are the only challenged rules that flunk
the Rule of Reason.
Although the district court found that all the
challenged rules have an anticompetitive effect,

52a
Alston, 375 F. Supp. 3d at 1067–70, a finding of
anticompetitive harm at step one does not end the
inquiry. A defendant may escape antitrust liability
despite inflicting harm if a court determines that the
restraint has a procompetitive effect, and a proposed
LRA eliminating that restraint is not viable. See, e.g.,
O’Bannon II, 802 F.3d at 1070, 1076–79 (finding that
rules prohibiting NIL compensation had significant
anticompetitive effects, but vacating portion of
injunction requiring deferred compensation for NILs
after concluding that this alternative was not a viable
LRA).
As previously stated, the district court concluded,
at step two, that the NCAA satisfied its burden of
showing that “[r]ules that prevent unlimited
payments”—”unrelated to education” and “akin to
salaries seen in professional sports leagues”—serve
the procompetitive end of distinguishing college from
professional sports. Alston, 375 F. Supp. 3d at 1083.
And at step three, it rejected Student-Athletes
proposed LRAs, which would have eliminated such
limits, reasoning:
[A]t least some conferences would allow
their schools to offer student-athletes
unlimited cash payments that are
unrelated to education. Such payments
could be akin to those observed in
professional sports leagues. Payments
of that nature could diminish the
popularity of college sports as a product
distinct from professional sports.
Id. at 1087. Contrary to Student-Athletes’
understanding, this analysis reflects the judgment
that limits on cash compensation unrelated to
education do not, on this record, constitute

53a
anticompetitive conduct and, thus, may not be
enjoined.
This judgment was adequately reasoned and rests
on neither factual nor legal error.
The
district
court acknowledged the theoretical possibility that
“conference officials, as rational economic actors,
would not act contrary to their members’ aggregate
economic interests” by paying demand-reducing levels
of compensation. Id. But it reasonably perceived a risk
of “miscalculations” by conferences during an
“inevitable trial-and-error phase.” Id. The district
court did not clearly err in declining to assume that
conferences, in reality, would act rationally.
The record indicates that the Power Five schools
have exercised their autonomy in recent years to
expand benefits unrelated to education and that
conferences and schools have provided largely
discretionary SAF and AEF payments for a wide
range of expenses unrelated to education—both
without harming consumer demand. But the district
court reasonably concluded that this evidence may not
reliably indicate that individual conferences would
regulate payments in a demand-preserving manner
absent any restrictions: The autonomy structure
permits the Power Five to collectively adopt
compensation-related legislation, in line with
O’Bannon II’s guidance that some degree of “mutual
agreement” is necessary to make the college sports
product available. See 802 F.3d at 1069 (quoting Bd.
of Regents, 468 U.S. at 102). And the NCAA currently
limits the use of SAF funds to payments that are
distinguishable from a professional’s salary in that
they “meet[] financial needs that arise in conjunction
with participation in intercollegiate athletics,

54a
enrollment in academic curriculum or to recognize
academic achievement.”
Student-Athletes’ claims of legal error are
likewise unpersuasive. They cite no support for their
position that a court “should not simply import the
[LRA] as its injunction.” Indeed, O’Bannon II holds
otherwise: “Where, as here, a restraint is patently and
inexplicably stricter than is necessary to accomplish
all of its procompetitive objectives, an antitrust court
can and should invalidate it and order it replaced with
a [viable LRA].” Id. at 1075 (emphasis added).
Finally, Student-Athletes argue that the NCAA
may no longer rely on O’Bannon II’s conclusion that
NCAA limits on cash payments untethered to
education are critical to preserving the distinction
between college and professional sports now that it
has “endorse[d]” the very “same NIL benefits” at issue
there. This argument is premature. As it stands, the
NCAA has not endorsed cash compensation
untethered to education; instead, it has undertaken to
comply with the FPP Act in a manner that is
consistent with O’Bannon II—that is, by loosening its
restrictions to permit NIL benefits that are “tethered
to education.” Fed. and State Leg. Working Grp.
Report
4
(Oct.
23,
2019),
available
at
https://tinyurl.com/working-grp-report; see also Test.
of Dr. Mark Emmert 6 (Feb. 11, 2020), available at
https://tinyurl.com/Emmert-Test-y. Accordingly, we
disagree that the NCAA’s response to the FPP Act
militates in favor of enjoining all NCAA compensation
limits.19
Student-Athletes further contend that the FPP Act and similar
proposed legislation in other states indicate a “consensus” that
student-athletes’ receipt of payments unrelated to education will
19

55a
VI
To repeat my observation in O’Bannon II: “The
national debate about amateurism in college sports is
important. But our task as appellate judges is not to
resolve it. Nor could we. Our task is simply to review
the district court judgment through the appropriate
lens of antitrust law and under the appropriate
standard of review.” O’Bannon II, 802 F.3d at 1083
(Thomas, C.J., concurring in part and dissenting in
part).
For the foregoing reasons, we hold that the
district court properly concluded that NCAA limits on
education-related benefits do not “play by the
Sherman Act’s rules.” Id. at 1079. Accordingly, we
affirm its liability determination and injunction in all
respects.
AFFIRMED.
M. SMITH, Circuit Judge, concurring:
Because I am bound by our decision in O’Bannon
v. NCAA (O’Bannon II), 802 F.3d 1049 (9th Cir. 2015),
I join the panel opinion in full. I write separately to
express concern that the current state of our antitrust
law reflects an unwitting expansion of the Rule of
Reason inquiry in a way that deprives the young
athletes in this case (Student-Athletes) of the
fundamental protections that our antitrust laws were
meant to provide them.
not dampen consumer interest in college sports. However, the
Act’s legislative history suggests that concerns about
fundamental fairness, rather than considerations regarding
demand, drove its enactment. See, e.g., S.B. 206 Assembly Floor
Analysis 2 (Sept. 4, 2019), available at https://tinyurl.com/SB206-AFA.

56a
Student-Athletes are talented, hardworking
individuals who have dedicated their young lives to
excelling in specific sports. As amici describe,
Student-Athletes work an average of 35–40 hours per
week on athletic duties during their months-long
athletic seasons, and most work similar hours during
the off-season to stay competitive. At the same time,
most of them do their best to succeed academically,
managing to devote on average another 40 hours per
week to classes and study. Nevertheless, their coaches
and others in the Division 1 ecosystem make sure that
Student-Athletes put athletics first, which makes it
difficult for them to compete for academic success with
students more focused on academics. They are often
forced to miss class, to neglect their studies, and to
forego courses whose schedules conflict with the
sports in which they participate. In addition to
lessening their chances at academic success because
of the time they must devote to their sports
obligations, Student-Athletes are often prevented
from obtaining internships or part-time paying jobs,
and, as a result, often lack both income and
marketable work experience. Meanwhile, the grueling
hours and physical demands of college sports carry
significant health risks, such as sleep deprivation,
stress, broken bones, and even potential brain
damage. Despite their best efforts, however, fewer
than 5% of Student-Athletes will ever play at a
professional level, and most of those lucky few will
stay in the pros only a few short years. In short, the
college years are likely the only years when young
Student-Athletes have any realistic chance of earning
a significant amount of money or achieving fame as a
result of their athletic skills.
For all their dedication, labor, talent, and
personal sacrifice, Student-Athletes go largely

57a
uncompensated. They may receive tuition for an
academic experience that they cannot take full
advantage of, minimal living expenses, and some
lavish perks that do nothing for their present or future
financial security. However, that is not because their
athletic services have little value. On the contrary, the
NCAA and Division 1 universities make billions of
dollars from ticket sales, television contracts,
merchandise, and other fruits that directly flow from
the labors of Student-Athletes. A number of Division
1 head football coaches take home multimillion-dollar
salaries that exceed those of many NFL coaches.
Moreover, contrary to the NCAA’s representations
about the importance of “amateurism,” the evidence
in this case shows that college sports viewership has
only increased since we reduced some limitations on
student-athlete compensation in O’Bannon II. See
Panel Op. at 11–13.
My reaction to our application of federal antitrust
law to the case of the Student-Athletes is similar
Justice Alito’s reaction to the majority’s view in
Collins v. Virginia, 584 U.S. ___, 138 S. Ct. 1663
(2018). Said he: “An ordinary person of common sense
would react to the Court’s decision the way Mr.
Bumble famously responded when told about a legal
rule that did not comport with the reality of everyday
life. If that is the law, he exclaimed, ‘the law is a ass—
a idiot.’” Id. at 1681 (Alito, J., dissenting) (quoting C.
Dickens, Oliver Twist 277 (1867)).
The treatment of Student-Athletes is not the
result of free market competition. To the contrary, it
is the result of a cartel of buyers acting in concert to
artificially depress the price that sellers could
otherwise receive for their services. Our antitrust

58a
laws were originally meant to prohibit exactly this
sort of distortion.
The Sherman Act and related antitrust laws were
designed to preserve our economic freedom. United
States v. Topco Assocs., Inc., 405 U.S. 596, 610 (1972).
Under those laws,
the freedom guaranteed each and every
business, no matter how small, is the
freedom to compete—to assert with
vigor, imagination, devotion, and
ingenuity whatever economic muscle it
can muster. Implicit in such freedom is
the notion that it cannot be foreclosed
with respect to one sector for the
economy because certain private
citizens or groups believe that such
foreclosure might promote greater
competition in a more important sector
of the economy.
Id. The Sherman Act thus “protect[s] the economic
freedom of participants in the relevant market.” Am.
Ad Mgmt., Inc. v. Gen. Tel. Co. of Cal., 190 F.3d 1051,
1057 (9th Cir. 1999) (quoting Associated Gen.
Contractors of Cal., Inc. v. Cal. State Council of
Carpenters, 459 U.S. 519, 538 (1983)). Those
protections extend to sellers of goods and services—
such as Student-Athletes—to the same extent they do
buyers, consumers, or competitors. Mandeville Island
Farms, Inc. v. Am. Crystal Sugar Co., 334 U.S. 219,
235 (1948). “The Act is comprehensive in its terms and
coverage, protecting all who are made victims of the
forbidden practices by whomever they may be
perpetrated.” Id. (emphasis added).

59a
Section 1 of the Sherman Act, at issue here,
prohibits agreements that unreasonably restrain
trade. 15 U.S.C. § 1; Standard Oil Co. of N.J. v. United
States, 221 U.S. 1, 58 (1911). In evaluating alleged
violations of Section 1 that fall outside the bounds of
several now-established per se rules, courts apply the
Rule of Reason to determine the effect of a given
restraint on competition. “[T]he inquiry mandated by
the Rule of Reason is whether the challenged
agreement is one that promotes competition or one
that suppresses competition.” Nat’l Soc’y of Prof’l
Eng’rs v. United States, 435 U.S. 679, 691 (1978).
Importantly, it is not the purpose of the Rule of
Reason analysis “to decide whether a policy favoring
competition is in the public interest, or in the interest
of the members of an industry. Subject to exceptions
defined by statute, that policy decision has been made
by the Congress.” Id. at 692.
The Rule of Reason entails a three-step analysis,
of which the starting point is to identify the market in
which the restraint occurs. See Big Bear Lodging
Ass’n v. Snow Summit, Inc., 182 F.3d 1096, 1104–05
(9th Cir. 1999). At Step One, the “plaintiff bears the
initial burden of showing that the restraint produces
significant anticompetitive effects within” that
market. O’Bannon II, 802 F.3d at 1070 (quoting
Tanaka v. Univ. of S. Cal., 252 F.3d 1059, 1063 (9th
Cir. 2001)). If the plaintiff meets that burden, at Step
Two, “the defendant must come forward with evidence
of the restraint’s procompetitive effects.” Id. (quoting
Tanaka, 252 F.3d at 1063). Finally, at Step Three,
“the plaintiff must . . . show that any legitimate
objectives can be achieved in a substantially less
restrictive manner.” Id. (quoting Tanaka, 252 F.3d at
1063).

60a
Despite confining the Step One analysis of
anticompetitive effects to the defined market, courts
have not consistently limited the scope of the Step
Two analysis in the same way. Some, including our
court, have permitted defendants to offer
procompetitive effects in a collateral market as
justification for anticompetitive effects in the defined
market. In NCAA v. Board of Regents of Univ. of
Oklahoma (Board of Regents), 468 U.S. 85 (1984), for
example, the Supreme Court considered whether
preserving demand for tickets to live college football
games could justify anticompetitive restraints in the
market for live college football television. Id. at 95–96,
115–17. The district court defined the relevant market
at Step One as “live college football television.” Id. at
95. The NCAA had restrained competition in this
market by fixing the price of telecasts, negotiating
exclusive contracts with two television networks, and
artificially limiting the number of televised games. Id.
at 96. Among other alleged procompetitive
justifications, all of which the Court ultimately
rejected, the NCAA argued that its television plan
promoted consumer demand for live attendance at
college football games. Id. at 115. The Court rejected
this argument for three reasons: (1) individual schools
could protect live attendance at the specific game
being televised by negotiating a regional blackout,
without acting in concert with other schools; (2) no
evidence supported the NCAA’s theory that limiting
televised games actually promoted live attendance,
especially since games would still be broadcast at all
hours of the day; and (3) the NCAA’s live attendance
theory was “not based on a desire to maintain the
integrity of college football as a distinct and attractive
product, but rather on a fear that . . . ticket sales for
most college games are unable to compete in a free

61a
market”—”a justification that is inconsistent with the
basic policy of the Sherman Act.” Id. at 115–17. The
Supreme Court did not, however, say that the live
attendance justification failed because courts
categorically cannot consider procompetitive benefits
outside the defined market.
Our relevant precedents follow a similar analysis.
In O’Bannon II, we held that preserving consumer
demand for college sports was a legitimate
procompetitive justification for anticompetitive
restraints on compensation for student-athletes’
names, images, and likenesses in the market among
colleges for student-athletes’ services. 802 F.3d at
1069–73. The district court had defined the relevant
market at Step One as the “college education market,”
“wherein colleges compete for the services of athletic
recruits by offering them scholarships and various
amenities, such as coaching and facilities.” Id. at
1070. The NCAA had restrained competition in this
market by preventing member schools from paying
student athletes for the use of their names, images,
and likenesses. Id. Contrary to two of the NCAA’s
proffered justifications, we accepted the district
court’s factual determinations that the restraint did
“not promote competitive balance,” and did “not
increase output in the college education market.” Id.
at 1072. We also rejected the NCAA’s argument that,
by preserving the character of college sports, the
restraint “‘widen[ed]’ the choices ‘available to
athletes.’” Id. (quoting Board of Regents, 468 U.S. at
102). “As the district court found, it is primarily ‘the
opportunity to earn a higher education’ that attracts
athletes to college sports rather than professional
sports, and that opportunity would still be available
to student-athletes if they were paid some
compensation in addition to their athletic

62a
scholarships.” Id. at 1073. Yet, without tying the Step
2 analysis to the “college education market,” we held
that the NCAA had demonstrated that the restraint
served the procompetitive purpose of preserving “the
amateur nature of collegiate sports [that] increases
their appeal to consumers.” Id. Accordingly, we
proceeded to Rule of Reason Step Three, wherein we
upheld the district court’s less restrictive alternative
of allowing grant-in-aid up to the full cost of
attendance, but we vacated the district court’s less
restrictive alternative of allowing “small” amounts of
deferred cash compensation as incompatible with
amateurism. Id. at 1074–79.
Other
courts,
however,
have
rejected
procompetitive justifications outside of the defined
market. For example, in Smith v. Pro Football, Inc.,
593 F.2d 1173 (D.C. Cir. 1978), a former NFL player
challenged rules governing the draft of graduating
college players under which “no team was permitted
to negotiate prior to the draft with any [eligible]
player . . . and no team could negotiate with (or sign)
any player selected by another team in the draft.” Id.
at 1176. The D.C. Circuit affirmed the finding that the
draft had anticompetitive effects. The draft
eliminated competition by “inescapably forc[ing] each
seller of football services to deal with one, and only
one buyer, robbing the seller, as in any monopsonistic
market, of any real bargaining power.” Id. at 1185.
At Step Two of the Rule of Reason analysis, the
NFL asserted that the draft rules were procompetitive
because they promoted “competitive balance” among
the league’s teams, in turn “producing better
entertainment for the public, higher salaries for the
players, and increased financial security for the
clubs.” Id. at 1186. The court rejected those

63a
justifications
because
they
did
not
have
procompetitive effects in the market for players’
services. “The draft is ‘procompetitive,’ if at all, in a
very different sense from that in which it is
anticompetitive.” Id. “[W]hile [the draft] may
heighten athletic competition and thus improve the
entertainment product offered to the public, [it] does
not increase competition in the economic sense of
encouraging others to enter the market and to offer
the product at lower cost.” Id. The court concluded
that the draft’s anticompetitive and procompetitive
effects were “not comparable,” and thus it was
“impossible to ‘net them out’ in the usual rule-ofreason balancing.” Id.
Despite its ruling in Board of Regents, the
Supreme Court has not squarely addressed the proper
scope of the Step Two analysis. And, although we
conducted a similar analysis in O’Bannon II, neither
have we. In my view, the underlying purpose of the
Sherman Act—promoting competition— counsels in
favor of conducting a more limited Rule of Reason
analysis, as the court in Smith did. Realistically, the
Rule of Reason analysis is judicially administrable
only if it is confined to the single market identified
from the outset. If the purpose of the Rule of Reason
is to determine whether a restraint is net
procompetitive or net anticompetitive, accepting
procompetitive effects in a collateral market disrupts
that balancing. It weakens antitrust protections by
permitting defendants to rely on a broader array of
justifications that promote competition, if at all, in
collateral markets where the restraint under analysis
does not occur.
Jurists faced with weighing the anticompetitive
effects in one market with the procompetitive effects

64a
in another cannot simply “net them out”
mathematically. Smith, 593 F.2d at 1186. Rather,
courts employing a cross-market analysis must—
implicitly or explicitly—make value judgments by
determining whether competition in the collateral
market is more important than competition in the
defined market. As the Supreme Court has warned,
this is not what the antitrust laws invite courts to do.
“If a decision is to be made to sacrifice competition in
one portion of the economy for greater competition in
another portion this too is a decision that must be
made by Congress and not by private forces or by the
courts. Private forces are too keenly aware of their
own interests in making such decisions and courts are
ill-equipped and ill-situated for such decisionmaking.”
Topco, 405 U.S. at 611.
Consider this case. The district court accepted the
relevant market as that for Student-Athletes’ “labor
in the form of athletic services in men’s and women’s
Division I basketball and FBS football,” in which
Student-Athletes “sell their athletic services to the
schools that participate in Division I basketball and
FBS football in exchange for grants-in-aid and other
benefits and compensation permitted by NCAA rules.”
In re NCAA Athletic Grant-In-Aid Cap Antitrust Litig.
(Alston), 375 F. Supp. 3d 1058, 1067 (N.D. Cal. 2019).
At Step One, the district court found that StudentAthletes had established significant anticompetitive
effects in the market for their athletic services. The
court concluded that the NCAA rules “have the effect
of artificially compressing and capping studentathlete compensation and reducing competition for
student-athlete recruits by limiting the compensation
offered in exchange for their athletic services.” Id. at
1068.

65a
At Step Two, the court did not limit its
consideration to the procompetitive effects of the
compensation limits in the market for StudentAthletes’ athletic services. Rather, it found that
certain of the compensation limits are procompetitive
because they drive consumer demand for college
sports by distinguishing collegiate from professional
athletics. Id. at 1083. In other words, the court found
that limiting Student-Athletes’ pay in the market for
their services was justified because that restraint
drove demand for the distinct product of college sports
in the consumer market for sports entertainment. The
court did not require that the NCAA prove that this
impact on consumer demand had a corollary
procompetitive impact on the market for StudentAthletes’ services, that it “increase[d] output” or
“‘widen[ed]’ the choices ‘available to athletes.’”
O’Bannon II, 802 F.3d at 1072 (quoting Board of
Regents, 468 U.S. at 102). The court did not require
that the NCAA prove its compensation rules, within
the defined market, “increase competition in the
economic sense of encouraging others to enter the
market to offer the product at lower cost.” Smith, 593
F.2d at 1186. It was enough for the NCAA to meet its
Step Two burden that it could show (however feebly)
a procompetitive effect in a collateral market.
Although the district court correctly applied our
precedents, the result of this analysis seems to erode
the very protections a Sherman Act plaintiff has the
right to enforce. Here, Student-Athletes are quite
clearly deprived of the fair value of their services.
Alston, 375 F. Supp. 3d at 1068. As the district court
found, while the NCAA and its conferences generate
billions in revenue from college sports, they “have
monopsony power to restrain student-athlete
compensation in any way and at any time they wish,

66a
without any meaningful risk of diminishing their
market dominance.” Id. at 1063, 1070. Under the Rule
of Reason analysis we affirm today, so long as the
NCAA cites consumer demand for college sports, we
allow it to artificially suppress competition for
collegiate athletes’ services by limiting their
compensation. Instead of requiring the NCAA to
explain how those limits promote schools’ competition
for athletes, we leave Student-Athletes with little
recourse under the antitrust laws. Student-Athletes
are thus denied the freedom to compete and, in turn,
“of compensation they would receive in the absence of
the restraints.” Id. at 1068.
Our Rule of Reason framework has shifted toward
this
cross-market
analysis
without
direct
consideration or a robust justification. It may be that
scholars or litigants can develop a purely economic,
mathematically-defensible method for cross-market
analysis that does not depend on policy judgments
that our antitrust laws never meant to delegate to the
courts. But we do not currently have such a method,
and it may equally be the case that no such method is
possible or desirable.
Lacking a robust justification, I fear that our
cross-market Rule of Reason analysis frustrates the
very purpose of the antitrust laws, in this case to the
great detriment of Student-Athletes. I hope our court
will reconsider this issue in a case that squarely raises
it.

67a
Federal and State Legislative Working Group
Report to the NCAA Board of Governors
October 23, 2019
Introduction.
For the reasons identified in the Board of Governors
charge, and after our own further examination of the
issues around name, image and likeness, we agree
change is appropriate, necessary and in the best
interest of student-athletes and the Association. The
NCAA membership and its divisions have a long
history of expanding opportunities for college
athletes, and enhanced opportunities related to name,
image or likeness would be an appropriate extension
of efforts to modernize NCAA rules in a way that is
consistent with our values and principles. We believe
additional flexibility in this space can and must
continue to support the collegiate model in clear
contrast to the professional sports model.
The working group spent many hours studying,
considering extensive feedback, discussing and
deliberating challenges and opportunities related to
student-athlete engagement in activities that use a
student-athlete’s name, image or likeness in return
for some form of compensation. As part of this process,
the working group engaged a diverse group of
stakeholders through in-person interviews, written
feedback
and
formal
presentations.
These
stakeholders included current and former studentathletes,
faculty,
presidents,
conference
commissioners, athletics administrators and coaches
from Divisions I, II and III, as well as thought leaders
and experts in the higher education and college sports
communities. Members of the working group agree
that issues related to such use are complex and any
potential modifications should be carefully considered

68a
by the NCAA membership. Further, members of the
working group agree that any changes must both
enhance the student-athlete experience and support
the collegiate model.
At this stage, the working group is prepared to make
the following recommendations to the Board of
Governors with the request that each division have
the benefit of providing input to identify appropriate
regulations
and
address
divisional
needs.
Membership input and decision-making are the
foundation of our voluntary association and, while our
working group was a representative body, the issues
here are so important, complex and challenging that
we believe further dialogue is appropriate before we
submit
additional
recommendations.
These
recommendations will form the basis for continued
conversations and engagement with state and federal
lawmakers around enacted, introduced and proposed
legislation.
Recommendations.
To best serve student-athletes, the Federal and State
Legislation Working Group recommends that the
Board of Governors:
•

Authorize change in policy and bylaws to permit
name, image and likeness benefits consistent
with NCAA values and principles as well as with
legal precedent.

•

Reject any approach that would make studentathletes employees or use likeness as a substitute
for compensation related to athletic participation
and performance.

•

Reaffirm the integrity of the student-athlete
recruitment process, which is unique to college

69a
sports. Changes to NCAA name, image and
likeness rules should support this principle and
not result in undue influence on a student’s
choice of college.
•

Extend the timeframe of this working group
through April 2020 to continue to gather feedback
and work with the membership on the
development and adoption of new NCAA
legislation.

•

Endorse the regulatory framework described in
this report as appropriate guardrails for future
conversations and possible NCAA legislation.

•

Instruct NCAA leadership on engagement with
state and federal lawmakers.

The NCAA, over many years, has progressively
adapted to changing student-athlete environments by
adopting regulations that meet their needs in a
manner consistent with NCAA values and principles,
including the opportunity to receive cost of
attendance. Our recommendations reject the idea of
student-athletes as employees and the use of their
name, image, or likeness as a substitute currency in a
“pay-for-play” model.
The current state and federal legislative efforts are in
conflict with NCAA values and principles and fail to
differentiate the NCAA intercollegiate athletic
experience from those of professional athletes. These
efforts also undermine the legal precedent that the
U.S. Supreme Court and other courts have afforded
the NCAA to regulate intercollegiate athletics at a
national level. What we are proposing within this
document is a framework by which all studentathletes in all sports across all three divisions have
the opportunity to engage in name, image and

70a
likeness activities without eroding the priorities of
education and the collegiate experience.
NCAA member schools also continue to seek
opportunities to allow prospective and current
student-athletes to go directly into the professional
leagues. Students should have choice and opportunity
to select the professional model whenever they believe
they are ready to pursue a professional sports career.
The law does not recognize name, image and likeness
compensation to individuals in the broadcast of
athletic events. Student-athletes cannot be afforded
special publicity rights regarding name, image or
likeness that are not available to the general
population.
The working group recommends a uniform set of
principles and a framework that will allow for
equitable national collegiate competition and
championships. State mandates such as the law
enacted by California or those contemplated by other
jurisdictions fail to address this necessary uniformity.
NCAA legislation that allows for variability based on
identified circumstances must first be vetted and
adopted by the membership representing college
athletics in all 50 states – not by a single state or even
multiple states. The framework proposed by the
working group will facilitate national consistency
while allowing for divisional differences and greater
student- athlete choice within our structure. This
approach works for colleges and universities
throughout our membership, public and private,
urban and rural, in all three divisions and addresses
the needs of 500,000 student-athletes nationwide.
Institutions will need to consider how gender equity,
including Title IX regulations, may be applied for all
student-athletes.

71a
Our recommendations are made with the explicit
reliance on the principles, guidance, and framework
identified below, based on the NCAA constitution and
operating bylaws.
PRINCIPLES AND ADDITIONAL GUIDANCE
FOR THE DECISION-MAKING
PROCESS RELATED TO POTENTIAL NAME,
IMAGE AND LIKENESS MODIFICATIONS
Student-athletes may pursue and receive benefits for
the use of their name, image and likeness in a manner
consistent with the principles stated below.
1.

In order to maintain the differentiation of
collegiate and professional sports, payment to a
student-athlete for use of his or her name, image
or likeness should not be a substitute form of
currency to pay for athletic performance or
participation; nor should the payment serve as an
inducement for a prospective or current studentathlete to select a particular NCAA member
school.

2.

Regulation of a student-athlete’s name, image or
likeness use should be transparent, narrowly
tailored and enforceable, and it should facilitate
the principle of fair competition among schools in
a division, including the integrity of the
recruiting process. While the concept of fair
competition is important to all three divisions, all
divisions recognize variability will exist among
member schools based on institutional mission,
priorities, resources and membership in a
particular division or subdivision.

3.

A student-athlete should be able to use his or her
name, image or likeness similar to college
students who are not student-athletes, while

72a
recognizing the importance of interstate, uniform
competition and recruiting rules that are unique
to NCAA athletics. To fairly balance these
interests, there must be some factors that result
in treating student-athletes differently.
When identifying a compelling reason to differentiate,
through regulation, a student-athlete’s name, image
and likeness activities from those of a college student
who is not a student-athlete, the following
considerations may allow for additional flexibility in
some form:
a.

Name, image and likeness benefits should be
tethered to education.

b.

The determination and receipt of name, image
and likeness benefits should be transparent,
objective and reasonable.

c.

The activity is regulated to allow first
amendment expression that is without the
expectation of compensation.

d.

Regulation of a student-athlete’s name, image
and likeness use should promote student-athlete
well-being and educational achievement.

Regulatory framework
working group.

developed

by

the

The working group spent considerable time discussing
a regulatory framework that will serve as guidance for
additional discussions by the working group and the
divisions’ governance structures, as well as the
enactment of future NCAA legislation. The working
group believes the framework is consistent with
NCAA values and principles, enhances the collegiate
model, affirms an appropriate nexus between higher
education and intercollegiate athletics and supports

73a
the guiding principles developed by the working
group.
It is important that the framework addresses both
current and future opportunities related to the use of
a student-athlete’s name, image or likeness. The
working group will continue to develop resource
materials, including targeted issues for discussion,
that will inform the group and the membership about
licensing and monetization opportunities so that
proper assessment can occur before additional
recommendations are provided to the Board of
Governors in April 2020.
The working group conceptualized name, image and
likeness benefits and opportunities on a continuum.
At one end of the spectrum, the working group
generally believes student-athletes should be
permitted to use their name, image or likeness to
promote their own work product or business,
particularly when the work product or business is not
related to athletics. Even when the work product or
business is related to athletics, the working group
believes sufficient controls can be developed to
mitigate potential abuse, including current rules
related to recruitment offers and inducements and
extra benefits, and permit student-athletes to pursue
opportunities in a manner consistent with the
collegiate model. Any regulation should focus on
restricting behavior that is inconsistent with the
collegiate model. Further, the working group
acknowledges some amount of regulation may be
necessary to ensure the relevant activities remain
consistent with the principles developed by the
working group.
It is important to note that NCAA bylaws already
allow for student-athletes to have outside

74a
employment and business activity. This framework of
review and regulation is specific to when studentathletes wish to lend their name, image or likeness to
promote a student’s own enterprise or an employer’s
business activity, such that name, image and likeness
become intertwined.
Examples include but are not limited to:
•

Student-athlete uses name, image or likeness to
promote his or her legitimate commercial activity
(for example, writing and publishing a book or
charging a fee for a lesson).

•

Student-athlete creates a social media channel to
serve as the platform for his or her business.

•

Student-athlete uses name, image or likeness to
promote his or her own nonprofit organization.

•

Student-athlete creates and produces a video
series containing nutritional tips for athletes and
distributes the content via social media.

Potential issues to consider:
•

Whether a student-athlete is truly being
compensated for the work product, as opposed to
being compensated (directly or indirectly) for
participation in NCAA athletics.

•

Challenges of determining where “work product”
ends and the name, image and likeness begins as
the value-driver.

•

Possible
inappropriate
involvement
of
institutional boosters that could impact
enrollment decisions of prospective studentathletes.

Examples of regulation to consider:

75a
•

Prior approval from athletics director, faculty
athletics representative or their designee (for
example, the compliance administrator) to
address potential pay-for-play and related
concerns.

•

Student-athletes may not miss class or required
team activities to participate in promotional
activities.

•

No involvement of schools, employees or boosters
in the development or promotion of these
opportunities.

•

No use of institutional, conference or NCAA
brand marks.

•

Include a “failsafe” or “backstop” provision to
address obvious malfeasance not clearly
prohibited by the legislation.

Next steps for working
governance structures:

group

and

divisional

•

Develop regulation to mitigate potential abuse
and ensure appropriate institutional oversight.

•

Propose legislation to codify or develop waiver
guidelines to facilitate or support the concepts
noted above.

•

Determine the extent to which current rules
would apply to possible modifications.

•

Examine and make recommendations about
application of these rules to pre-enrollment
activities.

On the other end of the spectrum of activities, the
working group believes that the commercial value of a
student-athlete’s name, image or likeness may be
derived largely through that student-athletes

76a
association with his or her school and/or participation
in NCAA athletics. As such, the working group
believes that, in many cases, allowing studentathletes to be paid for the right to use their name,
image or likeness in these circumstances could be
tantamount to allowing compensation for athletic
participation. Such compensation could be a
substitute form of currency to pay for athletic
performance, which is inconsistent with the principles
developed by the working group. Without mitigation,
these activities would be inconsistent with the
collegiate model.
Potential issues to consider:
•

Unregulated use of student-athlete name, image
and likeness could inappropriately impact the
recruitment process. (For example, a studentathlete’s endorsement agreement explicitly or
implicitly requires the student-athlete to attend
a particular college or university.)

•

Representatives of a student-athlete’s interests
or an institution’s athletics interests could
inappropriately insert themselves into business
agreements to provide enrollment inducements
for prospective student-athletes or extra benefits
for enrolled student-athletes.

Examples of regulation to consider:
•

Agreements may not require or encourage
enrollment in a particular school or set of schools.

•

Institutions and boosters may not be involved in
arranging endorsement activities.

•

Institutional, conference and NCAA brand marks
may not be used in any aspect of the activity.

77a
•

Student-athletes may not miss class or required
team activities to participate in promotional
activities.

Next steps for working
governance structures:

group

and

divisional

•

Determine whether enforceable regulation could
address the concerns around recruiting and
improper inducement in order to make the
activities permissible.

•

Review and develop current agent and advisor
regulations with respect to allowing studentathletes representation to further permissible
name, image and likeness activities.

•

Examine and make recommendations about
application of these rules to pre-enrollment
activities.

•

Examine whether shared revenue activities
generated by the commercial use of a studentathlete’s name, image or likeness would be
lawful.

78a
HEARING BEFORE THE UNITED STATES
SENATE COMMERCE
SUBCOMMITTEE ON MANUFACTURING,
TRADE AND CONSUMER
PROTECTION
February 11, 2020
Testimony of Dr. Mark Emmert
President, National Collegiate Athletic Association
Chairman Moran, Ranking Member Blumenthal, and
distinguished members of the Subcommittee, thank
you for the opportunity to submit this testimony in
connection with today’s hearing. For almost ten years
I have had the privilege of serving as the president of
the NCAA, a school-led organization dedicated to the
well-being and lifelong success of college athletes on
the field, in the classroom, and in life. We appreciate
the Subcommittee’s attention to the important issue
of name, image, and likeness (“NIL”) opportunities.
College sports in America is at a critical juncture:
while a record number of college athletes are
benefiting from more opportunities than ever before,
there is a legitimate concern about the fundamental
fairness of our system. We share that concern, and
NCAA schools and conferences are currently
evaluating reforms to give athletes opportunities to
take advantage of their own NILs. We believe that
these efforts will address the concerns that have been
raised about how to treat student-athletes equitably.
But the process will take time, because we need to
make sure that we operate consistent with two
principles that are not always aligned. On the one
hand, we want to allow opportunities for students to
benefit from their NILs. On the other hand, we want
to preserve the character and quality of the uniquely

79a
American phenomenon of college sports. And with
ongoing serial litigation and NIL legislation pending
in over half the states, we may need your help to
accomplish this on a nationwide basis.
I welcome the opportunity to speak to you today about
our progress and goals, and I welcome the opportunity
to hear from the Members of this Subcommittee. We
greatly value the ongoing dialogue with you and look
forward to the continued support of the Congress as
we work toward a solution that meets the needs of
student-athletes in a manner consistent with the
long-held educational values of the NCAA, its schools
and conferences, and the nearly 500,000 individuals
who participate in college sports each year.
NCAA Background: Who We Are
I would like to begin by briefly describing the mission
of the NCAA. As the governing body for intercollegiate
athletics, the NCAA prioritizes three important
principles in providing opportunities for students:
academic success, well-being, and fairness. While
most people associate the NCAA primarily with
college sports, the truth is that education is at the
heart of our work. Each year, students from across the
country and the world participate in sports they love.
16% are first-generation college students, and a
similar number report that they would not have
attended college if not for athletics. To make these
opportunities possible, our member schools award
nearly $3.5 billion in athletic scholarships each year,
including up to the cost of attendance. Athlete
recruitment to attend a particular institution is one of
the key principles that sets apart college sports from
professional
sports.
This
unique
recruiting
environment encourages student choice in where to

80a
attend college. No other model in sports is like it—not
the Olympics nor professional sports.
Student-athlete graduation rates are the highest ever,
with 84% earning their degrees. In Division I, nearly
9 in 10 student-athletes are earning bachelor’s
degrees, their highest rate ever. 83% of men’s
basketball players graduate, as well as 82% of
Football Bowl Subdivision participants. And in
particular, since 2002, the graduation rate for
African-American men’s basketball players has
increased by 36 percentage points, and 79% of
African-American student-athletes are earning their
degrees.
Historically,
student-athletes
have
graduated at rates higher than the rest of the student
body.
But I acknowledge that what happens off the field
does not always garner as much attention as what
happens on the field. When many people think of
college sports, they think of March Madness, the
College Football Playoff, or College Game Day. They
think of the popularity and success of powerhouses
like the University of Kansas men’s and the
University of Connecticut women’s basketball teams.
They see multi-million dollar contracts, elaborate
facilities, and Hollywood-style productions. But this is
just a sliver of college sports. College sports is half a
million student-athletes in 24 different sports spread
across three divisions and 19,000 teams, most of
which generate no revenue. College sports is a culture
in which hundreds of thousands of fans feel connected
through alma mater or geography and appreciate that
the athletes are “kids” in pursuit of an education that
will last them a lifetime. College sports is, and always
has been, about students playing other students.

81a
College sports has always had commercial aspects,
but its rules have consistently promoted education,
opportunity, well-being, and fairness. While we are
considering important and necessary changes to
create additional monetary opportunities for studentathletes, any changes must take into consideration
these core values.
NCAA Rules:
Enforcement

The

Legislative

Process

and

College sports as we know it is evolving. For over a
hundred years, the NCAA’s member schools have
provided significant opportunities to tens of millions
of athletes to obtain an education at this country’s top
colleges and universities. But recent increases in the
popularity of NCAA-governed competition have
brought greater interest in college sports, raising
questions about how to ensure that this evolving
system is inclusive, equitable, and fair.
The internal balancing act between preservation and
reform poses particular challenges in an organization
with hundreds of diverse schools. Each of our schools
brings a unique perspective to college sports, often
informed by the size of the school and its athletic
program, the NCAA division in which it competes, its
mission, its geography, and myriad other factors.
Each perspective is valuable individually, but the
adoption of each, without harmonizing, would result
in a chaotic college sports landscape. The NCAA’s role
reflects the reality that no one school has the expertise
or resources to ensure that all opponents play by the
same set of rules, both on and off the field. The
voluntary agreement to a central governing system
offers a whole that is greater than the sum of its parts.

82a
In its role as convener, the NCAA National Office
oversees a ground-up, school-driven legislative
process in which representatives serve on committees
that propose rules, and schools ultimately decide
which rules to adopt. Reflecting the diversity of our
schools and conferences, each of the NCAA’s three
divisions develops and approves legislation unique to
that division. Groups of presidents and chancellors
lead each division through committees with regularly
scheduled meetings. Once the NCAA schools and
conferences establish a rule through the legislative
process, responsibility for enforcing that rule on
campus rests on both the institutions and the NCAA
National Office. By mutual agreement, each school
agrees to establish mechanisms to detect, prevent,
and discourage rule violations, as well as protocols to
self-report and cure any rule violations.
Student Equity in the NCAA Model: Recent
Reforms
As president of the NCAA, my role is to make sure
that, during our rigorous rulemaking process, our
schools and conferences are considering the best
interests of students in a constantly evolving college
sports landscape while keeping our values front and
center. In recent years, we have undertaken
initiatives or changed rules to promote better student
well-being. For example, within the last few years the
NCAA:
•

Partnered with leading organizations to develop
best practices and training modules for coaches
and administrators in support of student-athlete
mental wellbeing. The goal of these resources is
to encourage a culture in which reaching out for
mental health care is normal and expected.

83a
•

Paired with the U.S. Department of Defense to
launch a landmark alliance to enhance the safety
of athletes and service members by more
accurately preventing, diagnosing, and treating
concussions. This alliance is undertaking the
most comprehensive longitudinal study of
concussion and head impact ever conducted,
managed by the Concussion Assessment,
Research, and Education (“CARE”) Consortium.
Twenty-six participating universities enrolled
their student-athletes in the study, and the four
military academies enrolled all cadets. The
CARE Consortium is continuing its work in a
phase known as CARE 2.0, featuring 40,000
participants.

•

Funded and operated the Sport Science Institute
(the “Institute”), which promotes health and
safety through a variety of initiatives, including
research and training on cardiac health,
concussions, overuse injuries, drug testing,
mental health, nutrition and sleep, sexual
violence
prevention,
athletics
healthcare
administration, and data-driven decisions. Last
year, the Institute, in partnership with the NCAA
Office of Inclusion, released the second edition of
a sexual violence prevention tool kit that provides
schools with appropriate tools to support a safer
campus environment. The new tool kit was
developed with input from leading professionals
in the field and aims to help NCAA schools reduce
incidents of sexual violence involving studentathletes and other college students, and to
respond appropriately when they occur. The
Institute also is collaborating with the most
respected medical and sports organizations in the
country to promote research, education, and best

84a
practices around cardiac health to reduce injuries
and death from heart conditions.
•

Enhanced funding for an insurance policy
covering all college athletes who experience
catastrophic injuries while playing or practicing
their sport—providing up to $20 million in
lifetime insurance benefits—and saw many of our
schools provide medical coverage for athleticrelated injuries for at least two years after a
student-athlete graduates or leaves school.

•

Permitted any Division I institution to provide
athletic scholarships to the federally-defined cost
of attendance, without limits on duration.

•

Enhanced student voice and vote by expanding
the Division II and III student representation to
Division I, where they are now voting
participants at all levels of governance.

•

Allowed college basketball players investigating
their professional options to be represented by an
agent.

•

Reformed the transfer rules to make it easier for
students to change schools.

•

Required Division I schools to provide
independent medical care for student-athletes to
determine medical management and return-toplay decisions.

These reforms demonstrate that the NCAA is ready
and able to address emerging challenges to ensure
that students are treated equitably and the essential
character of the college sports is preserved. While we
have more work to do, including on the issue of NILs
(discussed below), I am confident that the NCAA, in

85a
partnership with Congress, has the tools to achieve a
balance that minimizes unintended consequences.
Modernization of Name, Image, and Likeness
Rules
We have heard the concerns about the NCAA’s
current rules governing an athlete’s ability to license
his or her NIL for commercial purposes, and we
recognize that changes need to be made. Currently,
the NCAA schools and conferences are reviewing our
rules and proposing changes. We are moving
thoughtfully on this, and our membership plans to
vote on those changes in January 2021.
Recent Developments around NIL
Recognizing the need to further modernize our rules
with respect to NILs, in October 2019 our Board of
Governors directed each of the NCAA’s three divisions
to immediately begin considering how the relevant
NCAA rules could be modified to permit studentathletes the opportunity to benefit financially from
the use of their NILs consistent with the values of
intercollegiate athletics—including and especially the
principle of amateurism. This principle means that
students are “students first” and not professional
athletes who are paid for their athletic performance.
What makes college sports different from and more
popular than other sporting options (such as minorleague professional sports) is that college athletes are
participating in a sport they love as part of their
educational experience, because the reality is that
most student-athletes will not play professional sports
and thus need to rely on their education to support
their success in life. Our schools and conferences’
commitment to amateurism helps keep athletics
programs and student-athletes integrated within the

86a
larger educational mission, promotes competitive
balance among schools, and creates a fairer system for
recruiting and retaining top talent. Without rules, the
highest-resourced schools would use their greater
financial resources to attract the most promising
student-athletes, depriving other schools of the ability
to build strong teams and decreasing fair competitive
opportunities for many student-athletes.
The Board of Governors’ decision followed the work of
our Federal and State Legislation Working Group (a
group consisting of presidents, commissioners,
athletics directors, administrators, and studentathletes) in gathering input on NIL issues from
current and former student-athletes, coaches,
presidents, faculty, and commissioners across all
three divisions in response to federal and state
legislators proposing NIL legislation. The Board
directed these modernization efforts to take place in
harmony with eight principles and guidelines.
•

First, schools should assure that student-athletes
are treated similarly to non-athlete students
unless a compelling reason exists to differentiate.

•

Second, schools should maintain the priorities of
education and the collegiate experience to
provide opportunities for student-athlete success.

•

Third, schools should ensure rules
transparent, focused, and enforceable
facilitate fair and balanced competition.

•

Fourth, schools should make clear the distinction
between
collegiate
and
professional
opportunities.

are
and

87a
•

Fifth, schools should make clear that
compensation for athletics performance or
participation is impermissible.

•

Sixth, schools should reaffirm that studentathletes are students first and not employees of
the university.

•

Seventh, schools should enhance principles of
diversity, inclusion, and gender equity.

•

Eighth, schools should protect the recruiting
environment and prohibit inducements to select,
remain at, or transfer to a specific institution.

The Working Group will continue to gather feedback
from the schools and conferences and their studentathletes through April 2020 and will refine its
recommendations. And the NCAA’s divisions are
working to create new NCAA bylaws reflecting
divisional priorities. This effort is to be completed in
January 2021.
We have undertaken this modernization effort
committed to balancing the vital need for the
continuation of college sports with the need to adapt
our rules to changing student-athlete environments.
We want to improve the experience for our studentathletes, as well as fans, alumni, and student bodies.
We remain committed to our student-athletes being
students first, with emphasis on their education and
the physical, mental, and social benefits to be derived
from intercollegiate athletic competition.
It is for this reason that, as part of this modernization
effort, we will not consider any concepts that could be
construed as payment for athletic play. We believe it
is imperative to the success of college sports as both
an integral component of the educational experience

88a
and a popular form of entertainment that we maintain
a clear line of demarcation between college and
professional sports. To do so, payment to studentathletes for use of their NILs should not be a
substitute for or vehicle to deliver pay for athletic
performance; nor should the payment serve as an
inducement for a prospective or current studentathlete to select or remain at a particular NCAA
school. Consequently, the NCAA has no intention of
taking any action that is contrary to the position
advocated by the NCAA or accepted by the Ninth
Circuit with respect to the types of NIL payments that
were at issue in the O’Bannon case decided a few
years ago.
Need for National Uniformity
Just as the NCAA has done in the past on issues
involving student fairness, we believe that the
modernization efforts currently underway with
respect to NILs will address the concerns about
equity. But given the current legislative landscape,
uniformity will not be achieved without federal
support for our mission.
The Subcommittee is aware of the dozens of proposals
on NILs in state legislatures that, in our view, risk
converting college sports into professional sports.
While we understand the desire to assist studentathletes, we believe many of these ideas would be
harmful to intercollegiate athletics and its many
stakeholders, including the student-athletes. For
instance, one state has passed legislation that
effectively eliminates the distinction between college
and professional sports. It allows payments for NILs
to serve as pay for play and thus turns college athletes
into employees. This law in particular, and others like
it, threaten to undermine the mission of college sports

89a
within the context of higher education—that studentathletes are students first and choose to play a sport
they love while earning a degree.
In the short term, such legislation is creating
confusion for current and future student-athletes,
coaches, administrators, and campuses. Some of these
laws would take effect as early as July 2020. If
implemented, these laws would give some schools an
unfair recruiting advantage and open the door to
sponsorship arrangements being used as recruiting
inducements. This would create a huge imbalance
among schools and could lead to corruption in the
recruiting process.
As more states consider their own NIL legislation, it
is clear that a patchwork of different laws from
different states will make unattainable the goal of
providing a fair and level playing field—let alone the
essential requirement of a common playing field—for
our schools and nearly half a million student-athletes
nationwide. It is thus critical that the administration
of college sports be supported at a national level. We
believe that, given its role, the NCAA—informed by
its schools and conferences—is best positioned to
provide a uniform and fair NIL approach for all
student-athletes on a national scale. But we cannot
effectively achieve our goals if we are pulled in various
and potentially inconsistent directions by state
legislatures that may be focused on serving one set of
constituents rather than serving the entire array of
participants that the NCAA’s own rulemaking
processes are designed to serve.
Conclusion
At the NCAA, we are proud of the role that
intercollegiate athletics have played in creating

90a
opportunities for our nation’s student-athletes,
especially those who might not otherwise have had
the opportunity to pursue higher education. Over the
last ten years, we have actively worked to drive muchneeded change and address many of the concerns that
surround intercollegiate athletics. Our membership is
large and diverse with an equally large and diverse
range of viewpoints. While this diversity can, at times,
slow the pace of reform in our democratically governed
association, we have made significant strides across a
variety of areas and are actively working to modernize
in the area of NIL opportunities. But that process
takes time, and we may need Congress’s support in
helping maintain uniform standards in college sports.
I appreciate the Subcommittee’s attention to this
issue and look forward to collaborating with this body
to achieve these important goals. Thank you again
and I look forward to your questions.

91a
MINNEAPOLIS -- NCAA president Mark Emmert
says a judge’s recent ruling in a federal antitrust
lawsuit reinforced that college athletes should be
treated as students, not employees.
Emmert spoke to The Associated Press on Wednesday
at U.S. Bank Stadium, the site of the men’s basketball
Final Four, and made his first public comments since
last month’s decision in the so-called Alston case.
Judge Claudia Wilken ruled that the NCAA did
violate antitrust laws and cannot prohibit schools
from providing more benefits to athletes as long as
they are tethered to education.
“There were also components of that ruling that
reinforced what a number of judges and
administrative court proceedings have reinforced, and
that is that college sports is about student-athletes
playing student-athletes, not employees playing
employees,” Emmert said. “And the fact that, once
again, another federal decision has come down
reinforcing the fundamentals of what college sport is
about, we’re very pleased with that. And the way that
she wrote what could and could not be prohibited by
the NCAA is not in any way fundamentally
inconsistent with what we’ve been doing for about a
decade now.”
In recent years, NCAA member schools have passed
legislation permitting an increase in the value of an
athletic scholarship by as much as several thousand
dollars to include the federal cost of attendance. Also,
schools are now allowed to provide athletes with
unlimited
meals
and
guaranteed
four-year
scholarships.
The plaintiffs argued in the Alston case that
implementation of cost-of-attendance stipends and

92a
other rewards to players for participation such as bowl
gifts and championship rings prove that paying
athletes even more would not hurt college sports.
Plaintiffs in the Alston case sought to have all NCAA
rules capping compensation struck down. They
wanted conferences to set standards for compensation
in the hope of creating a market in which schools
compete for talent at the highest levels of football and
men’s and women’s basketball.
Even though Wilken’s ruling fell well short of that,
plaintiffs’ attorneys have celebrated it. They called it
another step toward unraveling the NCAA’s definition
of amateurism, which they consider unjust and
arbitrary. In 2014, Wilken ruled against the NCAA in
an antitrust lawsuit brought by former UCLA
basketball star Ed O’Bannon. He claimed the NCAA
and conferences inappropriately used the names,
images and likenesses of college athletes without
compensation.
Much like with the Alston case, the NCAA came away
from O’Bannon with its model of amateurism
basically intact.
As it did in O’Bannon, the NCAA is appealing
Wilken’s latest ruling to the Ninth Circuit Court.
“We don’t like the notion that we’re in violation of
antitrust laws,” Emmert said.
Emmert added that the association does not believe
the courts should decide what qualifies as a benefit
tethered to education.
“We just find that an unworkable proposal that
anytime you want to have a discussion over whether
or not something is or isn’t tethered [to] education, we
have to go back to a judge and have that debate and
discussion. That just seems inherently inappropriate

93a
and not an appropriate role for the judiciary, but one
that does fit the role of the NCAA,” Emmert said.
Wilken cited things such as computers, scientific
equipment and musical instrument as benefits
tethered to education. Emmert said it is already
within NCAA rules for schools to provide the “vast
majority” of the items to college athletes.
“We provide around $100 million a year to schools to
support student-athletes through student-support
fund programs for precisely that purpose,” he said.
Wilken also cited postgraduate scholarships as
benefits that should be permissible.
As with the introduction of any new benefit, there is
concern among NCAA membership for potential
corruption.
“You know, we have schools competing now on who
can do the best gold-plated locker room? You know,
who can do the best recreational facilities?” Emmert
said. “Having them compete over who can provide the
best educational experience ... is an inherently good
thing, not a bad thing from my point of view.”

94a
California LEGISLATIVE INFORMATION BILL
ANALYSIS
SB-206 Collegiate athletics: student athlete
compensation and representation. (2019-2020)
Bill Analysis
09/09/19- Senate Floor Analyses
09/04/19- Assembly Floor Analysis
08/12/19- Assembly Appropriations
07/08/19- Assembly Higher Education
06/24/19- Assembly Arts, Entertainment, Sports,
Tourism, And Internet Media
05/20/19- Senate Floor Analyses
05/16/19- Senate Appropriations
05/06/19- Senate Appropriations
04/02/19- Senate Education

95a
SENATE THIRD READING
SB 206 (Skinner and Bradford)
As Amended September 3, 2019
Majority vote
SUMMARY:
Allows, commencing on January 1, 2023, college
student athletes to earn compensation for the use of
their own name, image, or likeness and also obtain
professional representation such as a sports agent, in
relation to their college athletics.
Major Provisions
1)

Specify that a postsecondary educational
institution will not uphold any rule, requirement,
standard, or other limitation that prevents a
student of that institution participating in
intercollegiate
athletics
from
earning
compensation as a result of the use of the
student’s name, image, or likeness.

2)

Further specify that earning compensation from
the use of a student’s name, image, or likeness
will not affect the student’s scholarship
eligibility.

3)

Provide that an athletic association, conference,
or other group or organization with authority
over intercollegiate athletics, including, but not
limited to, the National Collegiate Athletic
Association (NCAA), will not prevent a student of
a
postsecondary
educational
institution
participating in intercollegiate athletics from
earning compensation as a result of the use of the
student’s name, image, or likeness.

96a
4)

Additionally provide that an athletic association,
conference, or other group or organization with
authority
over
intercollegiate
athletics,
including, but not limited to, the NCAA, will not
prevent a postsecondary educational institution
from participating in intercollegiate athletics as
a result of the compensation of a student athlete
for the use of the student’s name, image, or
likeness. Also, explicitly specified is that:
a)

A postsecondary educational institution,
athletic association, conference, or other
group or organization with authority over
intercollegiate athletics will not provide a
prospective
student
athlete
with
compensation in relation to the athlete’s
name, image, or likeness;

b)

Professional representation obtained by
student athletes will be from persons
licensed
by
the
state.
Professional
representation provided by athlete agents
will be by persons licensed, as specified; and,

c)

Athlete agents representing student athletes
shall comply with the federal Sports Agent
Responsibility and Trust Act, as specified, in
their relationships with student athletes.

d)

A scholarship from the postsecondary
educational institution in which a student is
enrolled that provides the student with the
cost of attendance at that institution is not
compensation for purposes of this section,
and a scholarship will not be revoked as a
result of earning compensation or obtaining
legal representation.

97a
5)

Specify that a student athlete’s individual
contracts or sponsorships shall not contain any
provision in conflict with any provision of an
existing contractual obligation of the student
athlete’s team contracts or sponsorships.

6)

Require a student athlete to disclose to their
university any contracts for compensation based
on the use of the student’s name, image, or
likeness.

7)

Require the university asserting a conflict
between the student’s contract and the teams’
contract or sponsorship to disclose to the student
the relevant conflicting contract provisions.

8)

Declare that a team contract of a postsecondary
educational institution’s athletic program
entered into on, or after, January 1, 2023, shall
not prevent a student athlete from using the
athlete’s name, image, or likeness for a
commercial purpose when the athlete is not
engaged in official team activities.

9)

Define,
for
purposes
of
this
section,
“postsecondary educational institution” to mean
any campus of the University of California (UC),
the California State University (CSU), or an
independent institution of higher education, as
defined in Education Code Section 66010, or a
private postsecondary educational institution, as
defined in Education Code Section 94858.

10) Establish a name, image, and likeness working
group that will be charged with reviewing
California
Community
College
Athletic
Association (CCC AA) bylaws and making
recommendations to CCCAA and the Legislature,
as provided, no later than July 1, 2021.

98a
11) Declare the intent of the Legislature to monitor
the NCAA working group created in May 2019 to
examine issues relating to the use of a student’s
name, image, and likeness and revisit this issue
to
implement
significant
findings
and
recommendations of the NCAA working group in
furtherance of the statutory changes proposed by
this act.
12) Declare the intent of the Legislature to continue
to develop policies to ensure appropriate
protections are in place to avoid exploitation of
student athletes, colleges, and universities.
COMMENTS:
Please see the policy committee analysis for a full
discussion of the measure.
According to the Author:
“...Inside Higher Education and Drexel University
revealed that over 80% of full-scholarship athletes live
at or below the federal poverty level. Meanwhile, the
NCAA and universities use these athletes to generate
billions in profits, through ads, TV deals and ticket
sales. Athletes face severe repercussions if they
receive compensation from sponsorship deals or use
their own image for financial gain. For many athletes,
college is the only time that their name, image, and
likeness is profitable. Athletes have lost eligibility to
participate in their sport for things such as accepting
groceries and assistance with rent. Meanwhile they
generate millions [of dollars] for universities and
billions [of dollars] for the NCAA. The NCAA
president Mark Emertt made over 3 million dollars in
salary just last year, while any athletes who put their
bodies on the line struggle to make ends meet. SB 206
will prevent any student in California from losing

99a
their scholarship due to compensation on their own
name, image, and likeness.”
Arguments in Support:
The bill’s cosponsor, The Alliance for Boys and Men of
Color, writes in support to say, “Many collegiate
athletes are participating without a guaranteed
scholarship or no scholarship at all. Scholarships may
be revoked for poor performance in their respective
sport or failure to participate in ‘voluntary’ workouts.
University studies have found that athletes are
spending 32 to 44 hours a week on their respective
sports. The time commitment athletes dedicate make
it practically impossible for athletes to obtain outside
employment to provide for themselves or families.”
They add that, “SB 206 will give young athletes the
dignity of a fair wage.”
The American Federation of State, County and
Municipal Employees (AFSCME), AFL-CIO, adds in
support, “In addition, (under SB 206) athletes cannot
be prohibited from consulting with an agent. This is
important for allowing college athletes to prepare for
their future in professional athletics.”
Finally, Teamsters write to share their belief that,
“athletes should have a financial avenue to provide for
their families without facing loss of their athletic
scholarship.”
Arguments in Opposition:
Opposition to this bill spans public and private
institutions, and includes both four-year and
community colleges. Opposition wrote to express
concern in several key areas:
Inconsistency with prior court rulings. Stanford
University wrote that, “...SB 206 is inconsistent with
recent court rulings, first in O’Bannon v. NCAA, and

100a
more recently in Alston v. NCAA that determined that
all student-athlete benefits must be tied directly to
education purposes only.”
NCAA Bylaws Violation. N CAA-member institutions
wrote concerning violations of NCAA bylaw 12.1.2,
which dictates ways in which a student can lose their
amateur status, and NCAA bylaw 12.5.2.1, which
makes a student ineligible for participation if they
accept compensation for name, image, and likeness or
for the endorsement of commercial products. The
University of Southern California states, “This bill
would put the student-athlete, their teammates, and
the athletics programs at risk of losing NCAA and
conference eligibility, which would result in the loss of
educational
benefits
and
other
competitive
opportunities for UC student-athletes.”
Current NCAA working group. The Association of
Independent California Colleges and Universities
(AICCU) wrote that “Last month the NCAA
announced the creation of a working group that will
review the NCAA’s policies around name, image, and
likeness. ...We believe SB 206 should be held, in order
for this work to conclude and for policymakers to then
assess what changes to state law are appropriate
without putting athletic programs and student
athletes at risk.”
Request by NCAA and PAC-12 Conference for delay in
legislation. The President of the NCAA has reached
out to request delay in hearing SB 206, asking “On
behalf of the nearly 1,300 NCAA member colleges,
universities and conferences, I write to request
respectfully that the Assembly (Committees on Arts,
Entertainment, Sports, Tourism and Internet Media
and
Higher
Education)
postpone
further

101a
consideration of Senate Bill 206, the Fair Pay to Play
Act, while we review our rules.”
FISCAL COMMENTS:
According
to
Committee:

the

Assembly

Appropriations

1) One-time General Fund costs to the CCCCO of
about $500,000.
2) Ongoing General Fund cost pressures to the
University of California (UC), likely in the
hundreds of thousands of dollars, for staff to
ensure compliance and to manage procedures
related to the bill's conflict of interest provisions.
3) Ongoing General Fund cost pressures to the
California State University (CSU), likely in the
low millions of dollars annually, for staff to ensure
compliance and to manage procedures related to
the bill's conflict of interest provisions.
4) Unknown, ongoing General Fund cost pressures to
UC and CSU to pay fines resulting from violations
of NCAA bylaws, to the extent this bill results in
NCAA fines.
5) Unknown, ongoing systemwide revenue losses to
UC and CSU to the extent they lose NCAA and
conference eligibility as a result of this bill.
VOTES:
SENATE FLOOR: 31-5-2
YES: Allen, Archuleta, Atkins, Beall, Bradford,
Caballero, Chang, Dodd, Durazo, Galgiani, Glazer,
Hertzberg, Hill, Hueso, Hurtado, Jackson, Leyva,
McGuire,
Mitchell,
Monning,
Morrell,
Pan,
Portantino, Roth, Rubio, Skinner, Stern, Umberg,
Wieckowski, Wiener, Wilk

102a
NO: Bates, Grove, Jones, Nielsen, Stone
ABS, ABST OR NV: Borgeas, Moorlach
ASM ARTS, ENTERTAINMENT, SPORTS,
TOURISM, AND INTERNET MEDIA: 5-0-2
YES: Chu,
Nazarian

Chiu,

Friedman,

Kamlager-Dove,

ABS, ABST OR NV: Diep, Choi
ASM HIGHER EDUCATION: 11-0-1
YES: Medina, Choi, Arambula, Bloom, Gabriel, Irwin,
Kiley, Levine, Low, Santiago, Weber
ABS, ABST OR NV: Patterson
ASM APPROPRIATIONS: 15-1-2
YES: Gonzalez, Bigelow, Bloom, Bonta, Calderon,
Carrillo, Chau, Eggman, Gabriel, Eduardo Garcia,
Maienschein, Obernolte, Petrie-Norris, Quirk, Robert
Rivas
NO: Brough
ABS, ABST OR NV: Diep, Fong
UPDATED:
VERSION: September 3, 2019
CONSULTANT: Dana Mitchell / A.,E.,S.,T., & I.M. /
(916) 319-3450
FN: 0001736

103a

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN
DISTRICT OF CALIFORNIA
IN RE: NATIONAL COLLEGIATE
ATHLETIC ASSOCIATION
ATHLETIC GRANT-IN-AID CAP
ANTITRUST LITIGATION

No. 14-md-02541
CW
FINDINGS OF
FACT AND
CONCLUSIONS OF
LAW

INTRODUCTION
Plaintiffs are current and former student-athletes
who played men’s Division I Football Bowl
Subdivision (FBS) football and men’s and women’s
Division I basketball during the relevant period.
Defendants are the National Collegiate Athletic
Association (NCAA) and eleven of its conferences20
that participate in FBS football and Division I
basketball.
Plaintiffs challenge the current, interconnected
set of NCAA rules that limit the compensation they
may receive in exchange for their athletic services.
Plaintiffs contend that these limits on compensation,
Conference Defendants are: Pac-12 Conference (Pac-12), The
Big Ten Conference, Inc. (Big Ten), The Big 12 Conference, Inc.
(Big 12), Southeastern Conference (SEC), and The Atlantic Coast
Conference (ACC) (collectively, the Power Five Conferences);
American Athletic Conference (AAC), Conference USA, Inc.,
Mid-American Conference (MAC), Mountain West Conference,
Sun Belt Conference, and Western Athletic Conference (WAC).
20

104a

which are set and enforced by agreement of
Defendants, violate federal antitrust law, because
Plaintiffs would receive greater compensation in
exchange for their athletic services in the absence of
these artificial limits.
Defendants respond that the limits are
procompetitive for two reasons. First, the limits help
preserve the demand for college sports because
consumers value amateurism as Defendants define it.
Second, the rules promote integration of studentathletes into their academic communities, which in
turn improves the college education they receive in
exchange for their services.
The Court resolved certain of the issues relevant
to Plaintiffs’ claims on summary judgment, and
presided over a non-jury trial on the remaining issues.
The Court finds and concludes that Defendants
agreed to and did restrain trade in the relevant
market, affecting interstate commerce, and that the
challenged limits on student-athlete compensation
produce significant anticompetitive effects. The Court
further finds that the only procompetitive effect that
Defendants established, namely preventing unlimited
cash payments, unrelated to education, similar to
those observed in professional sports, can be achieved
through less restrictive means. Specifically, the Court
finds that an alternative compensation scheme that
would allow limits on the grant-in-aid scholarships at
not less than the cost of attendance and limits on
compensation and benefits unrelated to education,
but that would generally prohibit the NCAA from
limiting education-related benefits, would be virtually
as effective as the challenged rules in achieving the
only procompetitive effect that Defendants have
shown here. The only education-related compensation

105a

that the NCAA could limit under this alternative
would be academic or graduation awards or
incentives, provided in cash or cash-equivalent. The
limit imposed by the NCAA could not be less than its
current or future caps on athletics participation
awards.
Based on the findings of fact and conclusions of
law set forth below, the Court will enter separately a
permanent injunction barring the restraints that the
Court finds to be overly and unnecessarily restrictive.
FINDINGS OF FACT21
II. Background
The NCAA, then known as the Intercollegiate
Athletic Association (IAA), was founded in 1905 to
regulate college football. Today, the NCAA and its
members collectively issue rules that govern many
aspects of athletic competitions among NCAA
member schools. Joint Stipulation of Facts (Stip.
Facts) ¶ 1, Docket No. 1098.
The NCAA comprises three Divisions. Id. 91 2. Of
the NCAA’s eleven hundred schools, approximately
three hundred and fifty schools compete in Division I.
Id. ¶ 5. Division I itself is divided, for the purposes of
football competition, into two subdivisions, one of
which is the FBS. Id. ¶ 6. There are thirty-two
conferences in Division I. Id. ¶ 7. Conferences may

Defendants moved to strike portions of Plaintiffs' closing brief,
Docket No. 1125, on the ground that they improperly rely on
expert testimony to support substantive assertions of fact. The
Court will resolve this motion by way of a separate order. The
findings of fact in this order do not rely on evidence that is
inadmissible.
21

106a

enact and enforce conference-specific rules, but these
must be consistent with the NCAA’s own rules. Id.
The NCAA rules governing participation in
Division I generally are enacted by the Division I
Board of Directors. Id. 191 11, 12. The rules that
Plaintiffs challenge here govern a small subset of the
conduct that the NCAA regulates.
The NCAA generates approximately one billion
dollars in revenues each year. See Defs.’ Ex. 0532
(D0532); Pls.’ Ex. 0030 (P0030). Its revenues have
increased consistently over the years. See P0030.
Most of the NCAA’s revenues are derived from the
Division I men’s basketball post-season tournament
known as March Madness, and the media and
marketing rights relating to it. Trial Transcript (Tr.)
(McNeely) at 2134; D0532 at 0006. The total value of
the current multi-year media contracts for March
Madness, which extend to 2032, is $19.6 billion. See
P0045 at 0001-02 Each year, the NCAA distributes
about half of its revenues to the conferences. Joint Ex.
0021 (J0021); P0030.
Division I conferences negotiate their own
contracts and generate their own revenues from
regular-season basketball and regular- and postseason FBS football. See, e.g., Dr. Daniel Rascher
Direct Testimony Declaration ¶¶ 169-172, Docket No.
865-3. The FBS conferences have a multi-year media
contract with ESPN for the College Football Playoff,
the total value of which is $5.64 billion. See P0045 at
0006-07. The five conferences with the largest
revenues, known as the Power Five Conferences, each
generate hundreds of millions of dollars in revenues
per year, in addition to the money that the NCAA
distributes to them. See P0031;P0032; P0033; P0036;
see also P0037 (showing that SEC made more than

107a

$409 million in revenues from television contracts
alone in 2017, with its total conference revenues
exceeding $650 million that year). The revenues of the
Power Five have increased over time and are
projected to continue to increase. See P0031; P0032;
P0033; P0036; P0037. Conferences distribute most of
their revenues to their member schools.
Among the areas that the NCAA regulates are the
compensation and benefits that can be afforded to
student-athletes. The 1906 bylaws of the IAA, as the
NCAA was originally known, expressly prohibited
student-athletes from receiving any compensation
whatsoever, even athletics scholarships, in exchange
for their participation in college sports. In 1956, the
NCAA enacted a new set of rules permitting schools
to award athletics scholarships, known as “grants-inaid,” to student-athletes. Stip. Facts ¶ 25, Docket No.
1098. These rules imposed a limit on the size of the
grant-in-aid that schools were permitted to offer. Id.
The limit precluded student-athletes from receiving
any financial aid beyond that needed for commonly
accepted educational expenses, which were tuition,
fees, room and board, books, and cash for incidental
expenses such as laundry.
In 1976, the cash for incidental expenses was
disallowed by way of an amendment to the definition
of the grant-in-aid that limited the scope of commonly
accepted educational expenses to include only “tuition
and fees, room and board and required course-related
books.” Stip. Facts ¶ 26, Docket No. 1098. Cash for
incidental expenses related to school attendance, such
as laundry, supplies, and transportation, was not
included in the grant-in-aid limit. This definition of a
grant-in-aid remained in place until August 2015. See
Stip. Facts ¶ 10, Docket No. 1093.

108a

On August 7, 2014, the NCAA adopted a new
legislative process for the Power Five, which is
referred to as the Autonomy structure.22 It allows
those five conferences collectively to adopt legislation
in specific areas, which include limits on grants-inaid. Soon afterward, in January 2015, the Power Five
voted to increase the overall limit on grants-in-aid,
from the limit then in place, to a higher limit based on
the cost of attendance at each school. See O’Bannon v.
Nat’l Collegiate Athletic Ass’n, 802 F.3d 1049, 105455 (9th Cir. 2015) (O’Bannon II), cert. denied, 137 S.
Ct. 277 (2016). This became effective on August 1,
2015. The revised “full grant-in-aid” comprises
“tuition and fees, room and board, books and other
expenses related to attendance at the institution up to
the cost of attendance[.]” Division I Bylaw 15.02.6;
Stip. Facts ¶ 10, Docket No. 1093. Cost of attendance
is calculated by each school in accordance with federal
regulations. J1517 at 0002; Stip. Facts ¶¶ 3-6, Docket
No. 1093. It is generally several thousand dollars
higher than the prior grant-in-aid limit because it
includes cash for incidental expenses related to the
cost of attendance. See Stip. Facts ¶ 5, Docket No.
1093.
Compensation and benefits in addition to the full
grant-in-aid, some related and some unrelated to
education, are also allowed and regulated by the
NCAA. These include benefits the NCAA denominates
“incidental to athletics participation,” as well as
money from the NCAA’s Student Assistance Fund and
Academic Enhancement Fund, government grants,

See NCAA Constitution, Article 5.3.2.1.2; Stip. Facts ¶ 17,
Docket No. 1098.
22

109a

and payments from outside entities.
compensation is generally prohibited.

Other

In 2009, a group of Division I male basketball and
FBS football student-athletes brought an antitrust
class action against the NCAA and its licensees to
challenge the association’s rules preventing them
from being paid by schools or other entities for the sale
of licenses to use their names, images, and/or
likenesses (NIL) in videogames, live game telecasts,
and other footage.23 See O’Bannon v. Nat’l Collegiate
Athletic Ass’n, 7 F Supp. 3d 955, 962-63 (N.D. Cal.
2014) (O’Bannon I), aff’d in part, vacated in part, 802
F.3d 1049 (9th Cir. 2015). The rules challenged by the
O’Bannon plaintiffs related to the release, use, and
licensing of NIL. The then-applicable maximum limit
on the grant-in-aid was discussed and implicated in
the relief ordered by the Court, but the plaintiffs did
not specifically challenge it in O’Bannon I. Some of the
rules challenged in the present case were challenged
in O’Bannon; others were not.
This Court held in O’Bannon I that the NCAA
rules challenged there violated Section 1 of the
Sherman Act, 15 U.S.C. § 1. Id. at 963. The Court
found that the plaintiffs met their burden to show that
The class in O’Bannon was defined as including “[a]ll current
and former student-athletes residing in the United States who
compete on, or competed on, an NCAA Division I (formerly
known as `University Division’ before 1973) college or university
men’s basketball team or on an NCAA Football Bowl Subdivision
(formerly known as Division I-A until 2006) men’s football team
and whose images, likenesses and/or names may be, or have
been, included or could have been included (by virtue of their
appearance in a team roster) in game footage or in videogames
licensed or sold by Defendants, their co-conspirators, or their
licensees.” O’Bannon II, 802 F.3d at 1055-56.
23

110a

the NCAA had fixed the price of the student-athletes’
NIL rights, which had significant anticompetitive
effects in the relevant market. Id. at 971-73, 988-93.
On the question of procompetitive justifications of the
restraints, the Court found that the NCAA’s
challenged
restrictions
on
student-athlete
compensation played “a limited role in driving
consumer demand for FBS football and Division I
basketball-related products.” Id. at 1001. The Court
also found that the challenged rules might facilitate
the integration of student-athletes with their
academic communities. Id. at 1003.
The O’Bannon plaintiffs proposed alternatives
they asserted were less restrictive than the NCAA
rules they challenged. This Court found that two of
these proposed alternatives, which relied specifically
on the use of revenue derived from NIL licensing,
constituted “less restrictive means of achieving” the
challenged rules’ limited procompetitive effects. Id. at
982-84; 1004-07.
Accordingly, this Court issued an injunction
barring the NCAA from enforcing any rules that
would prohibit its member schools and conferences
from offering their FBS football and men’s Division I
basketball recruits compensation for the use of their
NIL in addition to a full grant-in-aid as then defined.
The Court permitted the NCAA to implement rules
capping the amount of compensation that could be
paid to student-athletes while they are enrolled in
school as long as the amount of the cap was not lower
than the cost of attendance for students at that school.
Id. at 1007-08. The Court also required the NCAA to
allow member schools to deposit a limited share of
NIL licensing revenue in trust for their studentathletes. Id. at 1008. The Ninth Circuit affirmed the

111a

liability finding and the remedy prohibiting the NCAA
from limiting payment of a share of NIL revenues to
less than the cost of attendance. It vacated the remedy
allowing a trust fund payment. O’Bannon II, 802 F.3d
at 1074-79. By the time the O’Bannon injunction went
into effect, the NCAA had already increased, through
the Autonomy structure, the grant-in-aid limit to the
cost-of-attendance amount for all Division I studentathletes, regardless of NIL use or revenue.
Plaintiffs in the present case are student-athletes
who played Division I FBS football and men’s and
women’s basketball between March 5, 2014, and the
present.24 Order Granting Motion for Rule 23(b)(2)
Class Certification (Class Cert. Order) at 1, Docket
No. 305. The Court certified three injunctive relief
classes in the consolidated action under Federal Rule
of Civil Procedure 23(b)(2), each consisting of studentathletes who would be offered or receive a full grantin-aid during the pendency of this action.25 Id. at 4-5,
31.
The first of the actions that became a part of this consolidated
case, Alston v. NCAA, Case No. 14-cv-01011, was filed on March
5, 2014. Additional actions were filed in that year and in 2015.
The United States Judicial Panel on Multidistrict Litigation
transferred actions filed in other districts to this Court pursuant
to 28 U.S.C. § 1407. Plaintiffs in all of the actions, except Jenkins
v. NCAA, Case No. 14-cv-02758, filed a consolidated amended
complaint. Docket No. 60.
24

The Division I FBS Football Class is defined as “[a]ny and all
NCAA Division I Football Bowl Subdivision (‘FBS’) football
players who, at any time from the date of the Complaint through
the date of the final judgment, or the date of the resolution of any
appeals therefrom, whichever is later, received or will receive a
written offer for a full grant-in-aid as defined in NCAA Bylaw
15.02.5, or who received or will receive such a full grant-in-aid.”
Class Cert. Order at 5, Docket No. 305. The Division I Men’s
25

112a

III. Agreement in Restraint of Trade Affecting
Interstate Commerce
On summary judgment, the Court found that the
existence of an agreement (i.e., a contract,
combination, or conspiracy) restraining trade and
affecting interstate commerce was undisputed.
Defendants did not contest evidence showing that (1)
the compensation limits that Plaintiffs challenge are
enacted by agreement of Defendants and other NCAA
members through the NCAA’s legislative process and
are embodied in NCAA rules published in the NCAA
Division I Manual; (2) Defendants enforce these rules
by requiring all NCAA members to comply with them,
and by punishing violations; (3) the challenged rules
affect interstate commerce, because they regulate
transactions between Plaintiffs and their schools in
multiple states nation-wide; and (4) these
transactions are commercial because they regulate an
essential component of Division I basketball and FBS
football. Order Granting in Part and Denying in Part
Cross-Motions for Summary Judgment (Summary
Judgment Order) at 15, Docket No. 804.
The Court also found on summary judgment that
the challenged NCAA rules restrain trade in that they
limit the compensation that student-athletes may
receive for their athletic services. These limits cap
athletics-based grants-in-aid at the cost of
attendance, but they also allow and fix the prices of
numerous and varied additional benefits and
compensation on top of a grant-in-aid that have a
Basketball Class and the Division I Women’s Basketball Class
are defined similarly. Id. In the Jenkins action, the Court
certified the men’s football and basketball classes; women’s
basketball class certification was not sought in that case. Id.

113a

monetary value above the cost of attendance.26 Some
of these rules regulate compensation that relates to
education; others regulate compensation incidental to
athletics participation and unrelated to education,
including monetary awards that reward performance
in athletics. The compensation limits are artificially
set through an exercise of Defendants’ monopsony
power, and Plaintiffs would receive more
compensation in exchange for their athletic services
in the absence of the challenged limits. This Court had
made similar findings in O’Bannon I, which were
affirmed on appeal in O’Bannon II. O’Bannon I, 7 F.
Supp. 3d at 971-73; O’Bannon II, 802 F.3d at 1064-69.
Horizontal price-fixing among competitors is usually
a per se violation of antitrust law. However, because
“a certain degree of cooperation” is necessary to
market athletics competition, the Court applies the
Rule of Reason. See O’Bannon II, 802 F.3d at 1069
(citation and internal quotation marks omitted).
IV. Rule of Reason: Market Definition
The Court’s first step in applying the Rule of
Reason is to determine the relevant market. On
summary judgment, at the request of both parties and
in the absence of a genuine issue of material fact, the
Court adopted the market definition from the
O’Bannon case.27 The relevant market there was that
The rules that Plaintiffs challenge here are listed and
described in Plaintiffs’ Opening Statement at 13-15 and
Appendices A-C, Docket No. 868-3.
26

After the Court had entered summary judgment on market
definition, Defendants argued that the Court should have
considered or adopted an alternative market definition that their
economics expert, Dr. Kenneth Elzinga, discussed in his report,
namely a “multi-sided market for college education in the United
States” in which colleges operate as multi-sided platforms that
27

114a

for a college education combined with athletics, or,
alternatively, the market for the student-athletes’
athletic services. See Summary Judgment Order at
18, Docket No. 804. In O’Bannon I, the Court had
found that the plaintiffs’ antitrust claims could be
analyzed as a monopoly or, alternatively, as a
monopsony. 7 F. Supp. 3d at 991. Under the theory of
monopsony, sometimes referred to as a buyers’ cartel,
schools were characterized as buyers and studentathletes as sellers in a market for recruits’ athletic
services and licensing rights. Id. The NCAA did not
challenge the market definitions on appeal and the
Ninth Circuit adopted them. O’Bannon II, 802 F.3d at
1070.
At trial in this case, Plaintiffs based their claims
on a theory of monopsony only. Dr. Rascher, Plaintiffs’
economics expert, defined the relevant market here as
comprising national markets for Plaintiffs’ labor in
the form of athletic services in men’s and women’s
Division I basketball and FBS football, wherein each
class member participates in his or her sport-specific
market. See Rascher Report II 30-130, 148-85. In
these markets, the class-member recruits sell their
athletic services to the schools that participate in
Division I basketball and FBS football in exchange for
grants-in-aid and other benefits and compensation
balance their pricing to numerous constituencies. Elzinga Report
at 26-28; see also Order Reaffirming Exclusion of Certain Expert
Testimony by Dr. Elzinga at 9, Docket No. 1018. The Court
rejected this argument on the ground that it was untimely,
because Defendants did not offer any alternative definition of the
relevant market or point to any admissible evidence to raise a
genuine issue of material fact with respect to market definition
during summary judgment proceedings; and on the ground that
Dr. Elzinga’s expert opinions about a multi-sided relevant
market were unreliable and inadmissible. See generally id.

115a

permitted by NCAA rules. Dr. Rascher found that
Defendants have monopsony power in all of these
markets and exercise that power to cap artificially the
compensation offered to recruits. Id. ¶ 37.
Dr. Rascher’s definition of these markets is based
on economic analyses similar to those performed in
the O’Bannon case. His analyses here are predicated
on updated data and take into account women’s
Division I basketball, which was not at issue in
O’Bannon. Id. ¶¶ 148-53. Dr. Rascher’s economic
analyses show that the most talented athletes are
concentrated in the respective markets for Division I
basketball and FBS football; possible alternatives,
such as the National Association of Intercollegiate
Athletics (NAIA) or the National Christian College
Athletic Association (NCCAA), have not proved to be
viable substitutes; none of the major professional
sports leagues in class members’ sports provide
competitive options for most college-aged talent; high
barriers to entry into the market preclude any viable
alternatives emerging for class members’ athletic
services; and the geographic scope of the markets is
nationwide. Id. ¶¶ 154-85. In sum, class members
cannot obtain the same combination of a college
education, high-level television exposure, and
opportunities to enter professional sports other than
from Division I schools.
//
V. Rule of Reason: Anticompetitive Effects
On summary judgment, the Court found that the
challenged
restraints
produce
significant
anticompetitive effects in the relevant market. The
absence of a genuine dispute with respect to the
existence of an agreement among Defendants that is

116a

intended to, and does, limit student-athlete
compensation in the relevant market, is in and of
itself sufficient to find that this agreement has a
strong potential for significant anticompetitive
effects. Plaintiffs offered evidence of significant
anticompetitive effects, however, which Defendants
did not meaningfully dispute. The Court had also
found significant anticompetitive effects with respect
to the rules challenged in O’Bannon I, which the
Ninth Circuit affirmed in O’Bannon II. O’Bannon I, 7
F. Supp. at 973, 993; O’Bannon II,802 F.3d at 105758, 1070-72.
The economic analyses of Plaintiffs’ experts
established that the challenged rules have the effect
of artificially compressing and capping studentathlete compensation and reducing competition for
student-athlete recruits by limiting the compensation
offered in exchange for their athletic services. The
compensation that student-athletes receive under the
challenged rules does not correlate meaningfully with
the value of their athletic services, based on indicators
of their talent.28 This is consistent with the absence of
rigorous competition among schools with respect to
student-athlete compensation. In a market free of the
challenged restraints, competition among schools
would increase in terms of the compensation they
would offer to recruits, and student-athlete
compensation would be higher as a result. Studentathletes would receive offers that would more closely
match the value of their athletic services. See Lazear
Report ¶¶ 11-50.

Dr. Edward Lazear, Plaintiffs’ economics expert on summary
judgment, relied on ratings of talent based on a system for rating
athletes by 247sports.com. Lazear Report ¶ 29.
28

117a

Plaintiffs’ experts’ analyses also show that
Defendants are able to artificially compress and limit
student-athlete compensation as described above
because they possess monopsony power in the
relevant market. See Rascher Report ¶¶ 30-130, 14885; id. ¶ 37 (“Defendants and their co-conspirators
have monopsony power in all three markets - that is,
they have the power to collectively depress input
prices without fear of loss of revenue in excess of the
immediate cost savings”). Because of the absence of
viable alternatives to Division I basketball and FBS
football, and because of reduced competition among
conferences due to the challenged compensation
limits, the market for recruits in these sports is highly
or perfectly concentrated under the current NCAA
compensation limits. By contrast, if each conference
were free to set its own compensation limits in
competition with other conferences, the market
concentration would decrease from highly or perfectly
concentrated, to “moderately concentrated” for FBS
football and “unconcentrated” for Division I
basketball. Rascher Report ¶¶ 155-57.
This evidence shows that student-athletes are
harmed by the challenged compensation limits,
because these rules deprive them of compensation
they would receive in the absence of the restraints.
At trial, Plaintiffs offered additional proof of the
anticompetitive effects of the NCAA’s limits on
compensation. It shows that changes had been made,
starting in August 2014, to the amounts and types of
permissible student-athlete compensation. The
changes were caused, in part, by the desire of the
Power Five, those conferences with the highest
revenues in Division I, to divert some of their
relatively
significant
resources
away
from

118a

expenditures that only indirectly benefit studentathletes (such as expenditures on opulent athletic
facilities and multi-million dollar coaches’ salaries)
and toward student-athlete compensation. See, e.g.,
P0056 at 0001-02; Rascher Direct Testimony
Declaration ¶ 212. Dr. Harvey Perlman, chancellor of
the University of Nebraska, agreed with the
statement that, “[i]n short, we recruit by shifting
funds from regulated benefits for student athletes to
unregulated frills[.]” Perlman Deposition Transcript
(Dep. Tr.) at 60-61.
In a presentation in 2013, the presidents and
chancellors of the Power Five had asked the Division
I Board of Directors for autonomy in a variety of
subject areas, for the following reasons: (1) the
recognition of criticisms and accusations “of exploiting
student athletes for our own financial gain”; (2) the
desire to avoid “unintended consequences” if “illadvised reforms are imposed” as a result of these
criticisms; (3) a wish to move away from efforts to
“create `a level playing field,’“ because “[t]oo often, our
efforts to improve the lives of student athletes have
been deflected because of cost implications that are
manageable by our institutions but not by institutions
with less resources”; and (4) a sense that efforts to
“‘level the playing field’“ led the Power Five to “spend
these resources in almost any way we want EXCEPT
to improve support for student athletes.” P0056 at
0001-02. This is evidence that these conferences were
prevented from making the increases in studentathlete compensation that they would have made
absent the anticompetitive effects of the challenged
restraints.
After the new Autonomy structure became
effective on August 7, 2014, in January 2015, the

119a

Power Five voted to increase the overall limit on
grant-in-aid athletics scholarships from the limit in
place at the time of the O’Bannon I trial to the higher,
cost-of-attendance limit, effective on August 1, 2015.29
The Power Five also created new forms of permissible
compensation for student-athletes, and expanded the
scope of previously permissible benefits or
compensation. These changes permitted studentathletes to borrow against their future professional
earnings to purchase loss-of-value insurance (Division
I Bylaw 12.1.2.4.4); expanded reimbursement or
payment of travel expenses for certain family
members to attend certain events (Division I Bylaw
16.6.1.1); provided unlimited food (Division I Bylaw
16.5.2.5); and required schools to pay for medical care

10 This Court issued its O’Bannon I injunction on August 8,
2014, to take effect on August 1, 2015. Case No. 09-cv-3329,
Docket Nos. 292, 298. On July 31, 2015, the Ninth Circuit stayed
the injunction. Case No. 09-cv-3329, Docket No. 418. On
September 30, 2015, while the injunction was stayed, the Ninth
Circuit issued its opinion affirming in part this Court’s decision;
the judgment became effective on December 28, 2015, when the
Ninth Circuit issued its mandate. See O’Bannon II, 802 F.3d at
1079; Case No. 09-cv-3329, Docket Nos. 437, 463. Thus, the
Autonomy structure change to the full grant-in-aid limit became
effective before the injunctive relief ordered by this Court in
O’Bannon I ever went into effect. The Autonomy structure
change differs from the relief ordered in O’Bannon; it permits
grants-in-aid up to the cost of attendance for any Division I
athlete (in any sport) and is not limited to compensation for the
use or licensing of NIL. By contrast, the relief ordered in
O’Bannon I, in relevant part, prohibited the NCAA from
precluding its members from compensating Division I men’s
basketball and FBS football student-athletes for the licensing or
use of their NIL, at an amount lower than the cost of attendance.
Compare Division I Bylaw 15.02.6 “Full Grant-in-Aid” with Case
No. 09-cv-3329, Docket No. 292 (injunction).
29

120a

for athletics-related injuries for at least two years
after graduation (Division I Bylaw 16.4.1).
Although the Power Five’s Autonomy legislative
enactments have resulted in greater compensation for
student-athletes, such compensation is still capped by
overarching NCAA limits that prevent the Power Five
and
all
NCAA
members
from
expanding
compensation beyond a point determined by the
NCAA through its traditional rulemaking process.30
In light of the foregoing, the Court finds that
Defendants, through the NCAA, have monopsony
power to restrain student-athlete compensation in
any way and at any time they wish, without any
meaningful risk of diminishing their market
dominance. This is because the NCAA’s Division I
essentially is the relevant market for elite college
football and basketball. And, because elite studentathletes lack any viable alternatives to Division I,
they are forced to accept, to the extent they want to
attend college and play sports at an elite level after
high school, whatever compensation is offered to them
by Division I schools, regardless of whether any such
compensation is an accurate reflection of the
competitive value of their athletic services. Moreover,
the compensation that class members receive under
the challenged rules is not commensurate with the
value that they create for Division I basketball and
FBS football; this value is reflected in the

See, e.g., Trial Tr. (Lennon) at 1618 (the Power Five’s ability
to modify athletics financial aid caps is limited by NCAA Bylaw
15.01.6); id. at 1620 (the Power Five’s ability to award expenses
and benefits is limited by NCAA Bylaw 12.1.2.1.4); id. at 1629
(the NCAA Board of Directors has the authority to override
Autonomy legislation).
30

121a

extraordinary revenues that Defendants derive from
these sports.
The challenged rules thus have severe
anticompetitive effects and student-athlete are
harmed as a result of the challenged rules, because
the rules deprive them of compensation that they
would otherwise receive for their athletic services.
VI. Rule of Reason: Asserted Justifications for
the Challenged Restraints31
A. Consumer Demand for Amateurism
Defendants
argue
that
the
challenged
compensation limits are procompetitive because
“amateurism is a key part of demand for college
sports” and “consumers value amateurism.” Defs.’
Closing Brief at 7, 10, Docket No. 1128. The corollary
is that if consumers did not believe that studentathletes were amateurs, they would watch fewer
games and revenues would decrease as a result.
Defendants rely on the notion that it is the “principle”
of amateurism that drives consumer demand, and
that the challenged restraints are procompetitive
because they “implement” or “effectuate” that
principle. Id. at 37. They did not offer evidence to
establish that the challenged compensation rules, in
Two additional pro-competitive justifications had been offered
previously: increased output and competitive balance. These
were rejected by the Court on summary judgment. They also
were rejected in O’Bannon I and the NCAA did not address them
on appeal, so the rejection was accepted in O’Bannon II. See
Summary Judgment Order at 23 n.7, Docket No. 804; see also
O’Bannon II, 802 F.3d at 1072. Some testimony offered by
Defendants at this trial seemed aimed at resurrecting these
justifications. The Court will not consider these arguments
again.
31

122a

and of themselves, have any direct connection to
consumer demand.
Defendants nowhere define the nature of the amateurism they claim consumers insist upon. Defendants offer no stand-alone definition of amateurism either in the NCAA rules or in argument. The "Principle of Amateurism," as described in the current version of the NCAA's constitution, uses the word "amateurs" to describe the amateurism principle, and is
thus circular. It does not mention compensation or
payment. The constitution says, "Student-athletes
shall be amateurs in an intercollegiate sport, and
their participation should be motivated primarily by
education and by the physical, mental and social benefits to be derived. Student participation in intercollegiate athletics is an avocation, and student-athletes
should be protected from exploitation by professional
and commercial enterprises." NCAA Constitution Article 2.9. No connection between the "Principle of Amateurism" and the challenged compensation limits is
evident. Mike Slive, who served as commissioner of
the SEC, one of the Power Five, from 2002 to 2015,
testified that amateurism is "just a concept that I
don't even know what it means. I really don't." Slive
Dep. Tr. at 23, 45. He repeated, "You know, the term
amateur I've never been clear on what is meant either by in your question or otherwise, what is really
meant by amateurism[.]" Id. at 43.
The definition of amateurism that Defendants
point to is one that cannot be found in the Division I
manual. Defendants and their witnesses often
describe amateurism by reference to what they say it
is not: namely, amateurism is not “pay for play.” See,
e.g., Defs.’ Closing Brief at 36 n.214, Docket No. 1128
(“Amateurism is, by definition, `not paying’ the

123a

participants.”); Trial Tr. (Lennon) at 1275-77
(justifying challenged compensation limits on the
ground that they prevent “pay for play”). Defendants
do not explain the origin or meaning of the term “pay
for play.” The NCAA constitution and the Division I
Bylaws do not define, or even mention, “pay for play.”
The concept of “pay” is addressed only in certain
bylaws that govern student-athlete compensation and
eligibility. In these bylaws, “pay” is defined only
indirectly; it is defined by listing a variety of forms of
compensation that could be considered pay, and
indicating that each form of compensation constitutes
prohibited “pay,” unless it falls within one of many
exceptions or is otherwise permitted by the NCAA.
Thus, whether any form of compensation constitutes
“pay” in violation of NCAA rules cannot be determined
except by studying all of the relevant bylaws and all
of their exceptions and cross-references. Erik Price,
the Pac 12’s Rule 30(b) (6) witness, testified, “Well, I
think the NCAA, the way Bylaw 12 is written is a
series of things that you cannot do, and by then still
remain an amateur. It doesn’t exactly have a beautiful
definition of [amateurism].” Pac 12 Rule 30(b) (6)
witness (Erik Price) Dep. Tr. at 60; see Division I
Bylaw 12.1.2 (listing items that would cause a
student-athlete to lose “amateur status” and
eligibility for intercollegiate competition); Division I
Bylaw 12.1.2(a) (prohibiting a student-athlete from
using his or her athletic skills “for pay in any form” in
his or her sport); but see Division I Bylaw 12.1.2.4
(“Exceptions to Amateurism Rule”).
“Pay” under NCAA rules does not necessarily
track the plain meaning of the word, whereby
something of monetary value is provided in exchange
for something else. Indeed, a review of the bylaws

124a

shows that many forms of payment, often in
unrestricted cash, from schools and other sources, are
allowed by the NCAA as “not pay,” and thus as not
inconsistent with amateurism. Much of this
permissible compensation appears on its face to be
akin to “pay” under the plain meaning of the word. In
some instances it is provided to student-athletes in
exchange for their athletic performance, making it
similar to what a reasonable person could consider to
be “pay for play.”
As noted, the NCAA allows grants-in-aid up to the
cost of attendance, which are intended to pay for the
student-athletes’ education-related expenses. It also
allows monetary awards it describes as “incidental to
athletics participation” on top of a grant-in-aid, which
reward participation or achievement in athletics, such
as qualifying for a bowl game in FBS football. See
Division I Bylaw 16.1.4.1 and Figures 16-1, 16-2, 163; Trial Tr. (Lennon) at 1275. These performance
awards, which are not related to education and can be
provided on top of a full cost-of-attendance grant-inaid, are allowed at several hundred dollars for each
award, but the rules permit student-athletes to
qualify for multiple of these awards, meaning that
they could receive several thousand dollars in cashequivalent compensation if they perform well enough
in their sport. See Rascher Direct Testimony
Declaration ¶¶ 72, 205; Dr. Kenneth Elzinga Direct
Testimony Declaration ¶¶ 95-96, Docket No. 883-1 (a
student-athlete on a team that won a national
championship could receive $5,600 total in athletics
participation awards when combined); Hostetter Dep.
Tr. at 207. These awards can be provided to studentathletes in the form of Visa gift cards that can be used

125a

like cash.32 See Hostetter Dep. Tr. at 224-27. Robert
Bowlsby, the Big 12 Conference’s Rule 30(b)(6)
witness, explained that “these things [gift cards] were
all previously geared towards being mementos of the .
. . games” and “it’s . . . taken . . . another turn, and the
gift cards are representative of that.” Big 12
Conference Rule 30(b)(6) witness (Robert Bowlsby)
Dep. Tr. at 160. On their face, athletics participation
awards seem to violate other Division I bylaws,
including those that prohibit cash or cash-equivalent
payment or compensation that incentivizes athletic
performance (Division I Bylaws 12.1.2.1.4.1 and
12.1.2.1.5); nevertheless, these awards do not
constitute a prohibited form of payment or
compensation only because the NCAA has chosen to
permit them.
Without affecting their status as amateurs,
Division I student-athletes can also receive money
from their schools, from monies provided by the NCAA
each year through the conferences, by way of the
Student Assistance Fund (SAF) and the Academic
Enhancement Fund (AEF), on top of a full cost-ofAt the time of O’Bannon I, student-athletes could receive
performance awards in the form of store-specific gift cards but
can now receive these awards in the form of Visa gift cards. See
Hostetter Dep. Tr. at 224-27. Performance awards also can be
provided in the form of “gift suites,” which involve allowing
student-athletes access to a location where they can select from
a variety of gifts. See Elzinga Direct Testimony Declaration ¶ 95.
Gifts available through gift suites include prepaid debit cards
from stores such as Best Buy, iPad minis, speakers, watches, and
headphones. See, e.g., James Dep. Tr. at 168 (received a watch
and a $452 Best Buy gift card at gift suite, which he used to buy
his mother a television); Jemerigbe Dep. Tr. at 206 (received iPad
mini, iTunes gift card, headphones, and speaker through gift
suites).
32

126a

attendance grant-in-aid.33 In 2018, the NCAA made
available for distribution more than $84 million in
SAF money, and more than $48 million in AEF
money. This money is disbursed by schools to assist
student-athletes in meeting financial needs, improve
their welfare or academic support, or recognize
academic achievement.34 Division I Revenue
Division I Bylaw 16.11.1.8 (“A student-athlete may receive
money from the NCAA Student Assistance Fund.”); Division I
Bylaw 15.01.6.1 (“The receipt of money from the NCAA Student
Assistance Fund for student-athletes is not included in
determining the permissible amount of financial aid that a
member institution may award to a student-athlete.”).
33

The Division I Bylaws address only the uses of SAF monies
that are impermissible. Neither schools nor conferences report to
the NCAA detailed information (i.e., by student-athlete or by
expense) to show how SAF funds were allocated; conferences
report to the NCAA only amounts and types of uses of SAF
monies in the aggregate. Trial Tr. (Lennon) at 1634-35. SAF
monies have been used for expenses related to education,
including postgraduate scholarships; fees for internship
programs; international student fees, taxes, and insurance;
school supplies and electronics (such as laptops, cameras,
tablets); graduate school application fees; graduate school exam
fees; tutoring; and academic achievement or graduation awards.
J0002 at 0010; J0020 at 0001; P0043 at 0001; J0019 at 0001. SAF
monies also have been used for benefits that are not related to
education, such as loss-of-value insurance premiums, Trial Tr.
(Lennon) at 1340; medical expenses; professional program
testing; career assessments; travel expenses for both the
student-athlete and family members; clothing; magazine
subscriptions; and grocery reimbursement. J0002 at 0010; J0020
at 0001. AEF monies have been used for education-related
benefits, such as academic achievement or graduation awards;
summer school; fifth- or sixth-year aid; tutoring; academic
support services; international student fees and taxes;
professional program testing; and supplies (expendable or
educational). J0021 at 0004-05. They have also been used for
benefits that are not related to education, such as insurance
34

127a

Distribution Plan, J0021 at 0004, 0014. It can be
provided in cash or as a benefit, and it is not limited
to education-related expenses. The schools are not
constrained in the amount of these funds they can
disburse to an individual student-athlete; they are
limited only in the aggregate by the amount that the
NCAA distributes through these funds each year.
Since 2015, SAF disbursements to individual studentathletes has reached to the tens of thousands of
dollars above a full cost-of-attendance grant-in-aid,35
and in some cases, $50,000 for premiums for loss-ofvalue insurance against the loss of future professional
earnings, Trial Tr. (Lennon) at 1340.
Schools can also make thirty-dollar per diem
payments to student-athletes for un-itemized
incidental expenses while they are travelling for
certain events. Division I Bylaw 16.8.1.1 Schools can
pay travel expenses for certain family members to
attend certain events. Division I Bylaw 16.6.1. In
January 2015, without changing any bylaws, the
NCAA began to pay up to $3,000 for family members
of student-athletes who reach the Final Four but do
not advance to the basketball championships, and up
premiums; medical, dental, or vision expenses (not covered by
another insurance program); clothing; travel; and capital
improvements/equipment. Id.; Stip. Facts ¶ 15, Docket No. 1094.
See P0104 (showing SAF payments above the cost of
attendance (COA) provided to in-state students at Ohio State
University, with the highest above-COA payment being
$14,740); P0105 (showing SAF payments above COA provided to
out-of-state students at Ohio State University, with the highest
above-COA payment being $49,015); P0106 (showing SAF
payments above COA at nineteen schools, with the highest
above-COA payment being $61,000); Rascher Direct Testimony
Declaration ¶¶ 75, 78-81; Trial Tr. (Lennon) at 1338-40; Trial Tr.
(Rascher) at 111.
35

128a

to $4,000 to attend the basketball championships. See
P0148. Also in January 2015, the College Football
Playoff committee began to pay up to $3,000 for each
competing athlete’s family members to travel to that
event. Id.
Cost-of-attendance
grants-in-aid
themselves
provide cash for expenses, as well as providing tuition,
room, board, and books at no cost to the studentathlete. Any athletics aid in excess of the fixed
expenses of tuition, room, board and books is provided
to the student-athlete in the form of a cash stipend.
The cash stipend can total several thousand dollars
for some students. Defendants do not monitor how
student-athletes spend their stipend. NCAA Rule
30(b)(6) witness (Kevin Lennon) Dep. Tr. at 35, 37;
Hostetter Dep. Tr. at 85-86. Schools may provide full
cost-of-attendance grants-in-aid to student-athletes
who have already received federal Pell grants, which
also are calculated to cover the cost of attendance. Any
athletics aid in excess of tuition, room, board, and
books, therefore, pays student-athletes a second time
for the same cost-of-attendance expenses that the Pell
grant is intended to cover.36

Division I Bylaw 15.1.1. Pell grants are awarded by the
government based on financial need measured by the difference
between a student’s ability to pay and the cost of attendance. The
maximum amount of a Pell grant is $6,000. Noll Direct
Testimony Declaration ¶¶ 78-79. When a student-athlete
receives athletics aid permitted by the NCAA in addition to a Pell
grant, the athletics aid may exceed the student’s need as
determined by federal regulations. See J1518 at 0001-02. This is
an exception to the general practice that requires schools to
adjust non-federal aid awards to ensure that the total aid does
not exceed a student’s financial need. Id.
36

129a

Each school may award two post-eligibility
graduate school scholarships per year of $10,000 each
that can be used at any institution (Senior Scholar
Awards). Division I Bylaw 16.1.4.1.1. This is an
exception to the NCAA’s prohibition on post-eligibility
financial aid to attend graduate school at a different
institution. Defendants have not provided any cogent
explanation for why the NCAA generally prohibits
financial aid for graduate school at another
institution, or for why the Senior Scholar Awards are
limited in quantity and amount. The record suggests
that these limitations are arbitrary. For example,
when asked whether increasing the current limit on
Senior Scholar Awards from two students per school
to five students per school would render the awards
inconsistent with amateurism, the NCAA’s Rule
30(b)(6) witness, Kevin Lennon, provided no
meaningful response other than to justify the current
limit on the basis that the membership decided that
limiting the awards to two students per school
constituted a “reasonable cap.” Trial Tr. (Lennon) at
1551-53. Lennon agreed that if the membership
wanted to increase the awards “from two to three . . .
they’d certainly be permitted to raise that[.]” Lennon
Rule 30(b)(6) Dep. Tr. at 179.
In addition to the payments in excess of cost of
attendance allowed from schools to student-athletes
described above, the NCAA has allowed, and in recent
years increased, payments that student-athletes may
receive from outside entities without being found
ineligible to play. For example, since 2015,
international student-athletes have been allowed to
receive unlimited payment from their national
Olympic governing body in exchange for their
performance at certain international competitions.
And student-athletes continue to receive unlimited

130a

funds from the U.S. Olympic Committee for their
performance in the Olympics; this also is not “pay.”
NCAA Rule 30(b)(6) witness (Mark Lewis) Dep. Tr. at
50-51 (a swimmer received $115,000 for participating
in the Olympics, permissible under NCAA rules).
A given student-athlete is permitted to receive, in
combination, all of the foregoing compensation and
benefits for which he or she qualifies, on top of a full
cost-of-attendance grant-in-aid, regardless of what
the total amount of such compensation may turn out
to be. Yet this compensation, some of which is
unrelated to education and some of which is provided
in cash or a cash-equivalent, is not considered to be
“pay” and student-athletes who receive it remain
amateurs.
These payments and benefits are, without a
doubt, justifiable and well-deserved. They are
relevant to the analysis of Defendants’ consumerdemand procompetitive justification for two reasons.
First, the rules that permit, limit, or forbid studentathlete compensation and benefits do not follow any
coherent definition of amateurism, including
Defendants’ proffered definition of no “pay for play,”
or even “pay.” The only common thread underlying all
forms and amounts of currently permissible
compensation is that the NCAA has decided to allow
it.
Second, whatever understanding consumers have
of amateurism, they enjoy watching sports played by
student-athletes who receive compensation and
benefits such as these, because this compensation has
been paid and increased while college athletics has
become and remains exceedingly popular and
revenue-producing. This belies Defendants’ position
that the challenged current restrictions on student-

131a

athlete compensation are necessary to preserve
consumer demand. Indeed, as discussed in more detail
below, increases in compensation since 2015 have not
reduced consumer demand, suggesting that all of the
current limits on student-athlete compensation are
not necessary to preserve consumer demand.
Defendants’ only economics expert on the issue of
consumer demand, Dr. Elzinga, failed to show that the
challenged compensation limits are necessary to
preserve consumer demand. First, Dr. Elzinga’s
opinions on consumer demand are unreliable. He did
not study any standard measures of consumer
demand, such as revenues, ticket sales, or ratings. See
Trial Tr. (Noll) at 285–287. The “narrative” evidence
that formed the primary basis of his demand analysis
was not representative. Trial Tr. (Elzinga) at 477-78,
445-47 (acknowledging that his economic analysis did
not include interviews of fans, coaches, studentathletes, broadcasters, or conference commissioners).
Instead, he interviewed people connected with the
NCAA and its schools, who were chosen for him by
defense counsel. Id. at 446-47.
Second, Dr. Elzinga’s analysis of consumer
demand is not relevant because he failed to study the
effect of changes to student-athlete compensation on
consumer demand. Dr. Elzinga explained his failure
to study this issue by opining that “no test of the effect
of amateurism” is possible “because there is no period
during which the NCAA did not have and enforce
amateurism standards.” See Elzinga Direct
Testimony Declaration ¶ 20. Dr. Elzinga also posits
that studying the effects on consumer demand of
changes to compensation would be unnecessary in any
event because the principle of amateurism has been
“materially consistent over the years.” Id. ¶ 23. He

132a

explains that “[t]he central tenet of amateurism is not
a specific dollar amount (as in $X = amateur, but $X
+ε = professional),” rather, it is whether studentathletes are “being paid to play.” Id. ¶¶ 14, 34-35; see
also id. ¶ 14 (“[T]he difference between amateurism
and professionalism isn’t captured in some wooden
and mechanical way by the number of dollars a
student-athlete receives. True student-athletes are
amateurs in the sense that they are not being paid to
play.”) (emphasis omitted).
The record directly undercuts the premises of Dr.
Elzinga’s analysis. Dr. Elzinga’s assertion that there
is “no period” during which the NCAA did not “have
and enforce amateurism standards” is contradicted by
undisputed facts, which show that “NCAA did not
have any rule-making or enforcement authority over
its members until the 1950s.” Stip. Facts ¶ 23, Docket
No. 1098. And, as discussed above in the Background
section, the NCAA’s implementation of amateurism
has changed materially on multiple occasions
throughout its history.37 Further, Dr. Elzinga’s
contention that amateurism does not depend on a
specific dollar amount is contradicted by the NCAA.
The NCAA’s Rule 30(b)(6) witness, Kevin Lennon,
testified that specific dollar limits on student-athlete
compensation incidental to athletics participation,
such as performance awards, are set precisely for the
purpose of distinguishing between permissible
In addition to the changes described in the Background section
above, the fact that the NCAA currently permits studentathletes to receive the other forms of compensation discussed in
this section in addition to a full grant-in-aid scholarship, such as
compensation “incidental to athletics participation, including
performance awards, also distinguishes today’s concept of the
amateur student-athlete from that in effect in earlier years.
37

133a

compensation and “pay for play.” Trial Tr. (Lennon) at
1275. In other words, the amounts are set for the
purpose of distinguishing between amateurism and
non-amateurism. Dollar amounts (and changes to
such amounts), therefore, cannot be said to be
irrelevant to the analysis of this procompetitive
justification. As described above, such amounts can
reach the hundreds and thousands of dollars.
For these reasons, the Court is not convinced by
Dr. Elzinga’s testimony.
The only economic analysis in the record that
specifically speaks to the effects of compensation
amounts on consumer demand is that by Dr. Rascher.
Dr. Rascher analyzed two natural experiments to
determine whether increases in student-athlete
compensation would have an impact on consumer
demand. He concluded that increased student-athlete
compensation does not negatively affect consumer
demand for Division I basketball and FBS football.
The Court finds Dr. Rascher’s analysis and opinions
to be reliable and persuasive.
The first natural experiment involved comparing
consumer demand before and after the increase to the
grant-in-aid limit to the cost of attendance, which was
voted on in January 2015 and implemented in August
2015. As explained earlier, this change to the grantin-aid limit, on its own, resulted in a significant
increase in permissible compensation per studentathlete, because it allowed grants-in-aid to provide
cash for expenses that previously could not be covered,
such as supplies and transportation. Rascher Direct
Testimony Declaration ¶¶ 52, 54; Noll Direct
Testimony Declaration ¶ 12. Some schools adjusted
their cost-of-attendance calculations so that the value
of a full cost-of-attendance grant-in-aid would be

134a

greater. See, e.g., Trial Tr. (Lennon) at 1365 (“some”
schools’ financial aid offices “revisited their
calculation[s]” regarding the cost of attendance after
the increase of the grant-in-aid limit to cost of
attendance). Moreover, because the NCAA rule that
permits schools to award full grants-in-aid to studentathletes in addition to a Pell grant was not adjusted
after the change to the grant-in-aid limit in 2015, the
amount of cash provided above the cost of attendance
increased even more for student-athletes who are
awarded both a Pell grant and a full grant-in-aid
scholarship. See Noll Direct Testimony Declaration
¶¶ 78-79.
Dr. Rascher’s conclusions are also supported by
the fact that the NCAA has increased its SAF and
AEF distributions since 2015. See P0039 at 0001;
D0695 at 0001. As noted, a student-athlete can receive
unlimited money through the school, from the NCAA’s
SAF and AEF, on top of a full cost-of-attendance
grant-in-aid. Since 2015, SAF cash to individual
students has reached to the tens of thousands of
dollars above a full cost-of-attendance grant-in-aid.
See P0104; P0105; P0106; Rascher Direct Testimony
Declaration ¶¶ 75, 78-81. The schools are not
constrained in terms of the amount of these funds they
can disburse to an individual student-athlete. Stip.
Facts ¶¶ 3-12, Docket No. 1094.
Thus, Dr. Rascher found that total permissible
student-athlete compensation has increased since
August 2015, resulting in thousands of class members
receiving significant benefits and compensation on top
of full cost-of-attendance grants-in-aid since
O’Bannon I was decided. Rascher Direct Testimony

135a

Declaration ¶ 52.38 This has had no negative impact
on consumer demand; to the contrary, Dr. Rascher
found that NCAA, conference, and school revenues
from Division I basketball and FBS football have
increased since 2015. Rascher Direct Testimony
Declaration ¶¶ 45, 47, 52, 54-55; P0139, P0030,
P0032-P0039; P0048, P0049; P0137. The revenues of
the schools in the Power Five alone for basketball and
FBS football increased from a very large amount in
2014-2015 disclosed under seal, to an even larger
amount in 2015-16. Rascher Direct Testimony
Declaration ¶ 47; see also P0045; J0017 at 0012-13
(showing that generated revenues have increased
since 2014 for schools in the Power Five and other
schools not in the Power Five). Revenues are one of
the best economic measures of consumer demand.
Rascher Direct Testimony Declaration ¶ 51.
Dr. Rascher acknowledged that some of the media
revenues he examined are derived from multi-year
contracts that were executed before 2015 and have
escalating clauses (i.e., the payments under the
contracts will increase each year for their duration
without the need to renegotiate). Trial Tr. (Rascher)
at 32. Nonetheless, some of the most valuable and
longest-term contracts were executed after 2015.39
Again, this is not intended to suggest that student-athletes
should not receive these payments, but that the increases in
compensation described above have not negatively affected
consumer demand.
38

For example, in 2016, the NCAA extended its agreement with
CBS/Turner for the March Madness tournament; the previous
contract was to run through 2024. The 2016 extension increased
substantially the average annual fees owed to the NCAA relative
to the prior iteration of the contract. D0532 at 0023; Rascher
Direct ¶ 47; P0045 at 0001-02. The total value of the 2016
extension, which covers eight years, from 2024 to 2032, is $8.8
39

136a

This supports the finding that consumer demand was
not negatively affected after more student-athlete
compensation became permissible in 2015. Dr.
Rascher also testified that multi-year contracts that
were executed before 2015 show that the increase in
student-athlete compensation in 2015 did not
negatively impact consumer demand given that these
contracts were not renegotiated after the
compensation change in 2015.40 Trial Tr. (Rascher) at
32.

billion. P0045 at 0002. The prior iteration, which covers fourteen
years, from 2010 to 2024, is valued at $10.8 billion. P0045 at
0001. Additionally, the 2016 extension is through 2032;
witnesses who have experience negotiating media contracts in
the context of college sports have described this as a major
extension on the ground that contracts of greater potential value
to broadcasters are typically executed for a longer timeframe. See
Trial Tr. (Aresco) at 1009 (characterizing the 2016 extension as
a “major extension”); id. at 998 (in the context of media contracts
in college sports, “[t]he more attractive the product, the longer
[the networks would] want to go” with the length of a contract).
Some defense witnesses speculated that networks or sponsors
could choose to renegotiate broadcast rights fees under
provisions for “changed circumstances” if they believed that
Division I basketball and FBS football changed from amateur to
professional. See, e.g., NCAA Rule 30(b)(6) witness (Mark Lewis)
Dep. Tr. at 247. This testimony, however, is not supported.
Defendants have not pointed to any instance in which networks
or sponsors have chosen to renegotiate licensing rights fees as a
result of changes in student-athlete compensation or otherwise,
and the record shows no renegotiations or fees adjustments after
the grant-in-aid limit was increased to cost of attendance on
August 1, 2015. See, e.g., Big 12 Rule 30(b)(6) witness (Robert
Bowlsby) Dep. Tr. at 121, 125-28. No evidence was presented
that student-athlete compensation or amateurism have even
been discussed with media partners in this context, suggesting
that these issues are not of concern to media partners and that
renegotiation based on these issues is unlikely. See, e.g.,
40

137a

The second natural experiment is based on the
University of Nebraska Post-Eligibility Opportunities
(PEO) program, which was created after the
O’Bannon I trial and allows post-eligibility aid from
the university, on top of a grant-in-aid, of up to $7,500
for education-related endeavors, including graduate
school, as well as study abroad, or an internship.
Perlman Dep. Tr. 127-28. This natural experiment
shows two things. First, at least one school has the
desire to offer post-eligibility benefits such as these
provided on top of a grant-in-aid. Second, there is no
evidence that the creation of this program has reduced
consumer demand for Nebraska sports or Division I
basketball or FBS football in general. The evidence is
to the contrary: Nebraska’s chancellor testified that
this program is consistent with amateurism because
it advances “the kinds of activities that higher
education are involved with” and that Nebraska’s
“Athletic Director talks about it at every opportunity,
public and private[.]” Perlman Dep. Tr. at 127-28; see
also Trial Tr. (Rascher) 19-20; Rascher Direct
Testimony Declaration ¶¶ 206-07; Trial Tr. (Elzinga)
at 434-37.
Dr. Rascher’s analysis and opinions, therefore,
support a finding that, because the described
increases to student-athlete compensation did not
lead to a decrease in consumer demand, similar future
increases in compensation would not reduce demand.
Some defense witnesses corroborated Dr.
Rascher’s conclusions. See, e.g., NCAA Rule 30(b)(6)
witness (Mark Lewis) Dep. Tr. at 112 (negotiated
Conference USA Rule 30(b)(6) witness (Judy McLeod) Dep. Tr.
149-50; Big 12 Rule 30(b)(6) witness (Robert Bowlsby) Dep. Tr.
125-28.

138a

media contracts for NCAA, testified that increase of
grant-in-aid limit to cost of attendance did not affect
consumer demand for FBS football and Division I
basketball); Big 12 Rule 30(b)(6) witness (Robert
Bowlsby) Dep. Tr. at 67-68 (he is not aware of “any
impact on revenue” based on “greater meals and
snacks,” and “with respect to Big 12 members’ ability
to provide cost of attendance scholarships”).
Defendants try to show that consumer demand is
dependent on maintaining current restrictions on
student-athlete compensation by presenting the
opinions of a survey expert, Dr. Bruce Isaacson, who
concluded that “amateurism” is an “important” factor
in consumers’ decision to watch or attend college
sports, and is an “important reason for the popularity
of college sports.” Dr. Bruce Isaacson Direct
Testimony Declaration ¶¶ 24, 26, 160, 13, Docket No.
883-3. Dr. Isaacson surveyed 1,086 consumers of
college football and basketball, id. ¶¶ 111, 114, on-line
to determine the reasons why they watch college
sports. One of the reasons that respondents could
select was that student-athletes are “amateurs and/or
not paid.” He also asked whether consumers would
favor or oppose certain compensation scenarios.
Dr. Isaacson’s survey results and the inferences
he draws from them do not establish or reliably
indicate that a relationship exists between the
challenged compensation limits and consumer
demand for Division I basketball and FBS football.
First, the Court is not persuaded that the
selection by some respondents of the “amateurs and/or
not paid” option as a reason for viewing college sports
sheds any light on the question of whether the
challenged compensation limits, or increases in them,
would cause those respondents to view fewer college

139a

sports events. Dr. Isaacson did not define “amateurs”
or “not paid” in his survey, or determine what either
of those terms meant to respondents. Trial Tr.
(Isaacson) at 1907-09. Worse, the use of the phrase
“amateurs and/or not paid” renders the responses
hopelessly ambiguous. (emphasis added). The phrase
includes the response “amateurs or not paid,”
implying that a respondent could believe that an
athlete could be an amateur though not unpaid. Dr.
Isaacson “intend[ed] [the terms] to be synonymous”
but admits that he provided no indication to
respondents in his survey that they were so intended
Id. at 1908-09.
Even so, Dr. Isaacson’s conclusion that
“amateurism” is an “important” factor in consumers’
decision to watch or attend college sports is an
overstatement, because only 31.7% selected the
“amateur and/or not paid” option as a reason why they
watch or attend college sports, meaning that the great
majority of respondents, 68.3%, gave other reasons.
Isaacson Direct Testimony Declaration ¶¶ 153, 24, 26;
Trial Tr. (Isaacson) at 1903-04. More respondents
selected the options “I like it when certain colleges win
or lose” and “my friends or family watch games, or
attend games in person” than the “amateurs and/or
not paid” option (which was the third most common
selection). This suggests that these more-frequently
selected reasons are more “important” factors for
viewing college sports than “amateurism and/or not
paid.” Moreover, the respondents who selected the
“amateurs and/or not paid” option selected an average
of more than four other reasons they watch college
sports. Trial Tr. (Isaacson) at 1902.
or

Second, Dr. Isaacson did not show that opposition
support for the hypothetical compensation

140a

scenarios he asked about would serve as a reliable
indicator of how consumers would actually behave if
the scenarios were implemented. Trial Tr. (Isaacson)
at 1893; Dr. Hal Poret Direct Testimony Declaration
¶ 28. Dr. Isaacson tested four compensation scenarios:
(1) academic incentive payment; (2) graduation
incentive payment; (3) off-season expenses; and (4)
unlimited payments. Isaacson Direct Testimony
Declaration ¶ 126. He also tested a fifth “control”
scenario that was not related to compensation. Id. ¶
130. Dr. Isaacson’s survey did not ask whether
respondents would view fewer or more Division I
basketball and FBS football events if additional
compensation were provided to student-athletes. Dr.
Isaacson acknowledged that measuring consumer
preferences is “not the same thing” as measuring
future consumer behavior, and that he did not do any
work to measure any relationship between the two.41
See Trial Tr. (Isaacson) at 1894-96; see also id.
(testified at his deposition that his “survey does not
attempt to measure future behavior”); see also Poret
Direct Testimony Declaration ¶ 28 and Poret Rebuttal
Testimony ¶ 2-3 (opposition to a scenario does not
translate to a change in behavior if the scenario were
implemented).42
By contrast, Plaintiffs’ survey expert, Dr. Hal
Poret, did attempt to measure the potential impact on
The NCAA offered in O’Bannon a survey by Dr. J. Michael
Dennis that did ask respondents about their future behaviors.
This survey suffered from other defects. See O’Bannon I, 7 F.
Supp. 3d at 975-76; O’Bannon II, 802 F.3d at 1059.
41

Moreover, Dr. Isaacson acknowledged that he was “not
providing an opinion on whether or not opposition to a particular
benefit relates to amateurism. I’m going to leave that to you and
the NCAA and the conferences.” See Trial Tr. (Isaacson) at 1912.
42

141a

future consumer behavior of providing additional
compensation.43 He conducted a survey of 2,696
people who watch or attend college basketball or
football to assess the extent to which certain scenarios
involving increased compensation, if permitted by
conferences and schools, would cause them to watch
or attend these sports events more or less often. Poret
Direct Testimony Declaration ¶¶ 4, 17 and n.2, 18.
Unlike Dr. Isaacson, Dr. Poret specifically asked
respondents to indicate whether scenarios whereby
compensation provided by conferences or schools
would include some compensation that is not
currently permitted or is currently limited would
affect their viewership or attendance and, if so, to
indicate the extent. Id. ¶¶ 44-47. Dr. Poret tested
scenarios involving (1) a healthcare fund; (2) an
academic incentive payment of up to $10,000 per
school year; (3) a one-time graduation incentive
payment of up to $10,000; (4) a post-eligibility
undergraduate scholarship; (5) a work-study
payment; (6) off-season expenses; (7) a graduate
school scholarship for the cost of attendance; and (8) a
post-eligibility study abroad scholarship. Poret Direct
Testimony Declaration ¶ 24. Dr. Poret concluded,
based on the survey responses, that viewership and
attendance would not be negatively impacted if the
scenarios he tested were implemented individually.
The Court finds that Dr. Poret’s survey results and the
conclusions he draws therefrom regarding future consumption of
Division I basketball and FBS football are based on a
methodology that is sufficiently reliable. Dr. Poret showed that
his use of controls and other aspects of his survey’s design
allowed him to assess reliably the potential impact on future
consumer behavior of implementing the scenarios he tested.
Poret Rebuttal Testimony ¶¶ 12-26; Trial Tr. (Poret) at 1713-16;
1725-26; 1729; 1781-82; 1784.
43

142a

Id. ¶ 59; Trial Tr. (Poret) at 1792, 1795. Dr. Poret’s
survey, therefore, supports the finding that the
current limits on student-athlete compensation, to the
extent they relate to the scenarios that he tested, are
not necessary to preserve consumer demand.
Defendants presented no evidence that NCAA
bylaws limiting compensation are enacted based on
any analysis of consumer demand.44 Limits on
student-athlete compensation and benefits are set
through “a deliberative process” of NCAA members,
Trial Tr. (Lennon) at 1309, and are based on the
“delicate balancing that the membership . . . engage[s]
in,” Trial Tr. (Lennon) at 1552. That deliberative
process and delicate balancing do not appear to
include considering any possible effects on consumer
demand. Indeed, Lennon, who has worked for the
NCAA for more than thirty years, testified that he
does not recall any instance in which any study on
consumer demand was considered by the NCAA
membership when making rules about compensation.
Trial Tr. (Lennon) at 1550¬51. Lennon did not offer
much insight as to what the NCAA membership does
consider when it decides where to set a compensation

Some witnesses referred to studies conducted by third parties
at the request and for the use of conferences. See Trial Tr. (Scott)
at 1167, 1153-57; D0541 (third-party study commissioned by the
Pac-12, dated January 2014); Trial Tr. (Scott) 1149-53, 1172;
D0683 (third-party study commissioned by the Big Ten, dated
September 21, 2009); Trial Tr. (Smith) at 1412-18; D0239 (thirdparty study commissioned by the Big Ten, dated June 3, 2008).
There is no evidence that these or any other studies were
considered by the NCAA when enacting any bylaws limiting
compensation. These studies were admitted for a limited purpose
and not for the truth of the matter asserted therein because their
contents constitute hearsay within hearsay.
44

143a

cap, and the explanations that he did provide suggest
that the caps are set arbitrarily.
Defendants also rely on the testimony of lay
witnesses to try to establish a connection between the
compensation limits and consumer demand. These lay
witnesses presented their own personal opinions and
those of unidentified other people with whom they
have spoken. This testimony posits that consumers
oppose increasing compensation to student-athletes
and support what the witnesses described as
amateurism. The witnesses imply that these
consumers would watch fewer games if they did not
believe that student-athletes were amateurs. But
there is no way to know what that concept means to
the consumers these witnesses reported on.
Some lay defense witnesses testified that, absent
the challenged NCAA limits in their current form,
conferences would set limits, or not, based upon
different values and resources, and that could
diminish the consumer appeal of national
tournaments or rivalries or lead to conference
realignment. See, e.g., Trial Tr. (Scott) at 1141-1143.
But, at present, there is wide variation among
conferences and their members in Division I in terms
of the compensation they permit their studentathletes to receive within the current NCAA limits.45

For example, the Ivy League does not offer any athletics-based
scholarships. Military academies offer no athletics scholarships
but pay their students as salaried employees. Some conferences,
like the Big 12, require their members to offer athletics
scholarships up to the maximum allowed by the NCAA. Some
schools in other conferences cap athletics-related compensation
at the cost of attendance (in other words, these schools do not
permit students to, for example, receive a full cost-of-attendance
45

144a

Further,
resources,
budgets,
revenues,
and
performance among schools and conferences that
continue to play each other in Division I already vary
significantly, and the disparities that exist are
longstanding.46 There is no evidence that this lack of
uniformity detracted from the popularity of national
tournaments or rivalries. Rascher Direct Testimony
Declaration ¶¶ 97-98. The variety in compensation
models and resources across schools and conferences
may, in fact, promote the popularity of national
tournaments. See Trial Tr. (Elzinga) at 546 (agreeing
that a “david/goliath story” is appealing to consumers
in the national NCAA men’s basketball tournament,
March Madness, because it provides “differentiation”
due to the schools’ varying economic models and
strengths); id. at 483.47 Moreover, this testimony is
further undermined by the fact that other rules that
grant-in-aid on top of a Pell grant). Rascher Direct Testimony
Declaration ¶¶ 41, 96; Big 12 Handbook J0005 at 0017.
See e.g., Trial Tr. (Aresco) at 1054-55 (disparities in revenue
and branding opportunities currently exist between conferences,
and schools with fewer resources still play schools with greater
resources); Bowlsby Dep. Tr. at 38-39 (agreeing that the concept
of “competitive equity is largely a mirage” because “in reality,
there hadn’t been much balance in the past”); Slive Dep. Tr. at
39 (“the effort to ensure a level playing field was an unattainable
concept”).
46

See also Lynn Holzman Dep. Tr. 129-30 (NCAA Vice President
for Women’s Basketball, testifying that under current NCAA
rules for March Madness, “institutions with different resources,
institutions that provide athletic scholarships and some that
don’t end up being matched up and play against one another. So
if there’s an institution that permissibly is providing a benefit or
something to student-athletes, under the current construct of the
championship, an institution that does not provide the same
thing, in my opinion, would be okay for them to play one
another”).
47

145a

assist in promoting equity among conferences, such as
the limits on total scholarships, are not being
challenged in this litigation and would not be modified
through any of the proposed alternatives.48
Further, even if modifications to the NCAA’s
current compensation scheme resulted in some
conferences realigning their membership because of
differences in values, the argument that this would
harm college sports as a product is unconvincing.
Changes in conference membership have happened
frequently in the last two decades. See Trial Tr.
(Elzinga) at 485-87 (it is a “well-established fact” that
“dozens and dozens of teams have” changed
conferences over the years and conference changes
“have increased in the past two decades”); Stip. Facts
¶ 10, Docket No. 1098.
The record does not support a finding that media
or other commercial agreements would be
renegotiated or terminated if conferences realigned.
Some of the conference media agreements in the
record contain clauses that permit the networks to
renegotiate fees or terminate the agreement in the
event that certain schools leave the conference. There
is no evidence that any agreement was renegotiated
or terminated in the past as a result of realignment.
Instead, when the Big East experienced a significant
realignment and ultimately became the AAC in July
2013, ESPN did not terminate its contract with the
Big East/AAC; in fact, the existence of this contract
was described as one of the reasons why the Big
See Trial Tr. (Aresco) at 1025-26 (the “larger schools” cannot
“take 200 of the best student athletes” because “there are
scholarship limits, 85 per school. And that was imposed in 1992.
And it was to enhance the competition in college football”).
48

146a

East/AAC was able to “recover” from the realignment.
Trial Tr. (Aresco) at 1023, 1048; J1509 at 0003-05.
Defense lay witnesses also testified that consumer
demand for Division I basketball and FBS football is
driven by consumers’ perception that student-athletes
are, in fact, students. See, e.g., Bowlsby Dep. Tr. at 1213 (“This really isn’t about amateurs or not amateurs.
This is . . . about the concept of student athlete.”);
NCAA Rule 30(b)(6) witness (Mark Lewis) Dep. Tr. at
166 (he would draw the line to limit pay in the context
of consumer demand as follows: “the line is if it’s now
not about . . . going to school, but now it’s about paying
somebody to play a sport”); Trial Tr. (Blank) at 954,
869 (fans of college sports “love seeing their fellow
students out there playing”); Trial Tr. (Blank) at 94950 (viewership of college sports is based on studentathletes being “students at the university”); Trial Tr.
(Smith) at 1411-12 (same); Trial Tr. (Smith) at 139495, 1407-08 (the “collegiate fan is more aligned to the
educational experience that college sports provide”).
Michael Aresco, the commissioner of the AAC who
previously worked for CBS and ESPN, noted that the
programming of televised college sports focuses on
“the college experience,” which includes the campus,
academics, and community service. See Trial Tr.
(Aresco) at 1032. This testimony does not establish
that the challenged rules have a connection to
consumer demand, however, because student-athletes
would continue to be students in the absence of the
challenged rules. Fellow students, alumni, and
neighbors of the schools would continue to identify
with them.
The Court does credit the importance to consumer
demand of maintaining a distinction between college
sports and professional sports. In addition to the fact

147a

that college sports are played by students actually
attending the college, student-athletes are not paid
the very large salaries that characterize the
professional sports leagues that many studentathletes aspire to, the National Basketball
Association and the National Football League.
Some lay witnesses, particularly those who have
professional experience with third-party networks
such as CBS or ESPN, testified that the value of
media rights contracts has a relationship to the
popularity of college sports as being distinguishable
from professional sports. Trial Tr. (Aresco) at 1004,
1032-35; see also NCAA Rule 30(b)(6) witness (Mark
Lewis) Dep. Tr. at 65-66 (“the people that are our fans
who create that consumer demand would feel
differently if college sports looked like professional
sports”); id. at 99 (“if the college game looks to be
professional sports, less people will watch it” and
“there won’t be the same demand” and “revenue will
decline”).
The Court credits this testimony and finds that
some of the challenged compensation limits may have
some effect in preserving consumer demand to the
extent that they serve to support the distinction
between college sports and professional sports. That
distinction cannot be based on student-athletes not
receiving any compensation and benefits on top of a
grant-in-aid; this is because student-athletes
currently can receive thousands or tens of thousands
of dollars in such compensation, related and unrelated
to education, while remaining NCAA amateurs.
Accordingly, it follows that the distinction between
college and professional sports arises because
student-athletes do not receive unlimited payments

148a

unrelated to education, akin to salaries seen in
professional sports leagues.
Rules that prevent unlimited payments such as
those observed in professional sports leagues,
therefore, are procompetitive when compared to
having no such restrictions. Such rules include those
challenged that are necessary to limit compensation
and benefits unrelated to education. The same is true
with respect to the challenged limit on grants-in-aid;
because the difference between the fixed costs of
tuition, room, board, and books and the cost of
attendance is paid to student-athletes in cash,
removing the limit on the grant-in-aid could result in
unlimited cash payments.
However, rules that limit or prohibit non-cash
education-related benefits do not serve to foster
consumer demand by maintaining a distinction
between college and professional sports. The value of
such benefits, like a scholarship for post-eligibility
graduate school tuition, is inherently limited to its
actual value, and could not be confused with a
professional
athlete’s
salary.
Further,
the
relationship of the benefits to education would serve
to emphasize that the recipients are students, and not
professional athletes. A subset of these educationrelated rules, namely those that limit cash or cashequivalent benefits, such as academic or graduation
awards or incentives, have a procompetitive effect to
the extent that they prevent unlimited cash payments
similar to those observed in professional sports. As
will be discussed in more detail below in the section
on less restrictive alternatives, the current challenged
rules that limit education-related benefits and
compensation are more restrictive than necessary to
accomplish this procompetitive effect.

149a

B. Integration
Defendants’ second remaining procompetitive
justification is that the challenged limits promote the
integration of student-athletes with their academic
communities, which improves the college education
student-athletes receive.49 Within this rubric,
Defendants present evidence that student-athletes
benefit from receiving a college education, that the
challenged limits help to incentivize academics and
that the limits help integrate student-athletes into
their academic communities where otherwise a
“wedge” might be created.
Defendants have not shown that the challenged
rules have an effect on improving or promoting
integration. While the evidence shows that studentathletes benefit from receiving a college education, it
does not support the notion that any such benefits
arise out of, or are caused by, the challenged
compensation limits.
Defendants rely on the expert testimony of Dr.
James Heckman to support the proposition that
student-athletes benefit from their college education.
Plaintiffs quarrel with Dr. Heckman’s methodology,50
In this context, Defendants also argue that academic
integration itself plays a role in preserving consumer demand for
college sports. This is merely a restatement of the argument that
the challenged limits preserve consumer demand because
consumers value amateurism. Indeed, the evidence that
Defendants offer to support both of these arguments overlaps.
The Court considers this argument to be part of the consumer
demand justification.
49

Dr. Heckman’s analysis was based on data whose temporal
scope did not capture the class period in this litigation, and did
not include any information about whether the student-athletes
actually received an athletics scholarship (and if so, the amount
50

150a

but accepting his opinion that student-athletes
benefit from attending college, this opinion says
nothing about whether the challenged compensation
rules cause the benefits that he observed. Indeed, Dr.
Heckman conceded as much at trial. See Trial Tr.
(Heckman) at 564-66. Dr. Heckman also conceded
that additional compensation could improve outcomes
for student-athletes, which contradicts the notion that
the challenged compensation limits have a positive
effect on student-athlete outcomes. Trial Tr.
(Heckman) at 597 (if a student-athlete received
“another $10,000” then the “student is clearly better
off. No question about it”).
Defendants also proffer lay witness testimony on
the benefits of college education. None of this shows a
connection between the challenged compensation
limits and the benefits of the education. Some
student-athletes testified that they gained skills and
learning opportunities, but they did not attribute
these benefits to the caps on their grant-in-aid athletic
scholarships. See, e.g., Trial Tr. (Hartman) at 825-27.
Dr. Heckman’s opinion that student-athletes
would be incentivized to spend time on athletics to the
detriment of academics if they received additional
compensation is undermined by evidence suggesting
that additional compensation can have a positive
impact on academic achievement. See, e.g., NCAA
Research: Trends in Graduation Success Rates and
Federal Graduation Rates at NCAA Division I
Institutions (Nov. 2017), J0018 at 0026-29; see also
Trial Tr. (Petr) 1884-85 (showing that graduation
rates for student-athletes in Division I basketball and
of such scholarship) or any of the other types of compensation
that are at issue in this case.

151a

FBS football have increased since 2015, when
permissible
athletics-related
compensation
increased).
Defendants point to policies that assist with
student-athletes’ involvement in academics and other
aspects of university life, but these policies are not
related to the challenged compensation limits. See,
e.g., Trial Tr. (Blank) at 887-89 (student-athletes at
Wisconsin are not limited in their selection of major
or to athlete-only dorms, and are permitted to miss
only a certain number of classes in a season); Trial Tr.
(Smith) at 1398-99 (Ohio State requires studentathletes to live on campus for two years); Trial Tr.
(Hatch) at 1997 (same at Notre Dame); Division I
Bylaw 17.1 (governing required time off); Emmert
Dep. Tr. at 209-15 (proposals to reduce athletics time
demands).
Defendants next contend that the challenged
rules help prevent a “wedge” between studentathletes and other students that could result if
student-athletes received compensation that was not
available to ordinary students. Defendants again rely
on Dr. Heckman, who opined that academic
achievement incentives would isolate studentathletes “from the rest of the student body” and affect
the “camaraderie in these various institutions.” Trial
Tr. (Heckman) at 631-33. Defendants also point to
testimony, by university administrators and former
student-athletes, that additional compensation for
student-athletes would create tensions and
resentment between student-athletes and nonathletes, as well as among student-athletes to the
extent that any additional compensation is not
provided equally. See, e.g., Trial Tr. (Hatch) at 2000-

152a

01; Trial Tr. (Smith) at 1409-10; Jemerigbe Dep. Tr.
at 294-95.
This testimony is outweighed by the fact that
income disparities inevitably exist as a result of
family background or wealth derived from other
sources. See e.g., Trial Tr. (Blank) at 920-21
(Wisconsin
students
come
from
different
socioeconomic backgrounds). Moreover, levels of
student-athlete compensation vary already. The
amount of a cost-of-attendance grant-in-aid is
calculated by each school with the discretion to adjust
it on an individual-student basis. J1517 at 0002; Stip.
Facts ¶¶ 3-6, Docket No. 1093; NCAA Rule 30(b)(6)
witness (Mark Lewis) Dep. Tr. at 164. Another reason
why compensation can vary among student-athletes is
that the NCAA permits them to receive their grant-inaid on top of federal Pell grants, which the
government awards to some but not all studentathletes. Also variable is the payment of SAF and AEF
benefits, which are not limited on an individualstudent basis, and the awards incidental to athletics
participation, including performance awards paid in
Visa gift cards. Athletes who perform well in the
Olympics can receive unlimited compensation for
their performance; such compensation has reached six
figures. NCAA Rule 30(b)(6) witness (Mark Lewis)
Dep. Tr. at 50-51. And athletes in certain sports, such
as tennis, can receive up to $10,000 in prize money per
year prior to enrolling in college and still compete as
amateurs. See Division I Bylaw 12.1.2.4.2.1. At least
for some, these disparities are not problematic. See,
e.g., Trial Tr. (Jenkins) at 735-736 (he did not resent
a football teammate who received more than a million
dollars from a baseball professional league as a
recruitment bonus).

153a

In O’Bannon I, the Court found that the
challenged limits may help integrate student-athletes
with their academic communities by preventing a
wedge, which may improve their college education.
See 7 F. Supp. 3d at 980-81. The Ninth Circuit
affirmed that finding, although it noted that on appeal
the NCAA focused its argument regarding
procompetitive justifications entirely on the
amateurism justification. O’Bannon II, 802 F.3d at
1072. Nonetheless, support for the Court’s finding
with respect to integration in O’Bannon I was weak,
and it is weaker now. Evidence was presented at this
trial that did not exist at the time of the O’Bannon
trial showing that the challenged rules are not
necessary to prevent a wedge between studentathletes and other students. This is the natural
experiment resulting from the increase to the cost of
attendance for grants-in-aid. As discussed above,
since 2015, student-athletes have been allowed to
receive thousands of dollars in increased
compensation and benefits from full cost-ofattendance grants-in-aid and other payments.
Rascher Direct Testimony Declaration ¶¶ 52, 54, 75,
78-81; Noll Direct Testimony Declaration ¶ 12; P0104;
P0105; P0106. Yet, there is no evidence that, since
2015, student-athletes have experienced more
separation. The NCAA’s Rule 30(b)(6) witness, Kevin
Lennon, has acknowledged that there is no evidence
that the recent increase in student-athlete
compensation has created a wedge. Trial Tr. (Lennon)
at 1355-58 (agreeing that there is no evidence that
increased compensation that student-athletes have
received because of the increase of the grant-in-aid
limit to cost of attendance and because of benefits that
became permissible or expanded recently, such as
premiums for loss-of-value insurance against loss of

154a

future professional wages, unlimited food, and travel
expenses for family members for certain events, has
created a wedge).
In fact, the challenged limits may serve to
increase separation among students, not decrease or
prevent it. According to Dr. Perlman, the University
of Nebraska chancellor, the challenged compensation
limits result in schools spending their recruitment
resources on “unregulated frills” in facilities that
benefit student-athletes exclusively, which promotes
separation. See, e.g., Perlman Dep. Tr. at 60-61; see
also Bilas Dep. Tr. At 105-06 (Kentucky’s “opulent”
facility for basketball players “functions to segregate
them from the normal student population”); Emmert
Dep. Tr. at 24-29 (expenditures on training facilities,
stadiums, and student-athlete living quarters are not
limited by NCAA). Limits on compensation may
constrain student-athletes’ financial ability to engage
in social activities with other students. See, e.g., Trial
Tr. (Alston) at 680 (additional compensation would
have permitted him to “mingle” more with nonathletes). Accordingly, the evidence here does not
support the notion that the challenged rules promote
integration by preventing a wedge.
Finally, Defendants proffer Dr. Heckman’s
opinion that a “substantial change” to what he terms
the “Collegiate Model” would alter the incentives of
“participants/stakeholders in the college sports
world,” and would result in a “new equilibrium.”
Heckman Direct Testimony Declaration ¶ 14. This
opinion does not appear to be related to the
integration theory. Further, Dr. Heckman did not
conduct any empirical, econometric, or quantitative
analysis to distinguish “substantial” changes from
those that are not; when asked at trial to describe

155a

exactly what would qualify as a “large” or
“substantial” change, he referred to dollar amounts
that “have been put out in the literature” or that
others had mentioned during trial, but he declined to
adopt any such numbers as what he believes, based on
his own work, is “large” or “substantial.” Trial Tr.
(Heckman) at 607-11.
Because Defendants have not met their burden to
show that the challenged limits are procompetitive
due to an effect on promoting integration, by
preventing a wedge or otherwise, the Court finds that
Defendants have not shown that the challenged rules
are justified based on this theory.
VII. Rule of Reason: Alternatives
Challenged Restraints

to

the

The Court finds that the current rules, read
together, are more restrictive than necessary to
prevent demand-reducing unlimited compensation
indistinguishable from that observed in professional
sports. Plaintiffs propose three alternatives to the
challenged restraints as less restrictive.
First, they propose an alternative that would
prohibit the NCAA from placing any limits on
compensation or benefits, whether or not related to
education, given in exchange for athletic services.
This would permit individual conferences to set limits
on such compensation or benefits.
Second, they propose an alternative that would
allow the NCAA to continue limiting the
compensation or benefits given in exchange for
athletic services except for (1) benefits that are related
to education, and (2) the seventeen benefits incidental
to athletics participation that the NCAA currently
allows and caps. These are listed in Plaintiffs’

156a

Opening Statement, Appendix C, Docket No. 868-3.
While these could no longer be capped by the NCAA,
limits on these two types of compensation and benefits
could nonetheless be maintained or set by individual
conferences.
Third, Plaintiffs propose an alternative that
would allow the NCAA to continue to limit the
compensation or benefits given in exchange for
athletic services, but would not allow NCAA limits on
compensation and benefits related to education.
Again, limits on education-related benefits could be
set by individual conferences.
For all of the proposed alternatives, any
permissible limits could be enforced by the NCAA, the
conferences, or the schools. Schools, of course, could
continue to set their own limits on their offers.
A. First and Second Proposed Alternatives
The Court finds that Plaintiffs’ first proposed
alternative, which would eliminate all NCAA limits
on compensation, would not be as effective as the
current rules in preserving consumer demand for
Division I basketball and FBS football; that
alternative leaves open the possibility that at least
some conferences would allow their schools to offer
student-athletes unlimited cash payments that are
unrelated to education. Such payments could be akin
to those observed in professional sports leagues.
Payments of that nature could diminish the
popularity of college sports as a product distinct from
professional sports. The Court notes that Plaintiffs’
survey expert Dr. Poret did not test a proposed
scenario of cash compensation greater than $10,000 in
value.

157a

Plaintiffs and their experts strenuously argue and
opine, perhaps correctly, that if this alternative were
adopted, conference officials, as rational economic
actors, would not act contrary to their members’
aggregate economic interests, and would not choose to
pay amounts of cash compensation unrelated to
education that would be demand-reducing for Division
I sports. Whether by survey or trial and error, these
actors would eventually discover the level of cash
compensation to student-athletes that would
encourage competition for recruits but would not
reduce the demand for their product. Be that as it
may, the inevitable trial-and-error phase could result
in miscalculations by one or more conferences as to
levels of cash pay that would not reduce demand for
the product, and this could produce unintended
consequences.
It is to be hoped that gradual change will be
instructive. If it were persuaded to do so, the NCAA
could conduct market research and allow gradual
increases in cash compensation to student-athletes to
determine an amount that would not be demandreducing.
Plaintiffs’ second proposed alternative likewise
would not be as effective in achieving the
procompetitive effect of the challenged rules to the
extent that it would remove the NCAA caps on
athletics
participation
awards
and
other
compensation and benefits that are unrelated to
education. It would prohibit NCAA caps on cash or
cash-equivalent awards or incentives. Without such
limits, conferences could suddenly decide to allow the
award of any sum of cash to some or all studentathletes. This could lead to unlimited cash payments
and the same effect as the first alternative.

158a

B. Third Proposed Alternative as Modified:
Prohibiting Limits on Most EducationRelated Payments
The Court finds that a less restrictive alternative
to the current set of challenged NCAA limits would be
to (1) allow the NCAA to continue to limit grants-inaid at not less than the cost of attendance; (2) allow
the association to continue to limit compensation and
benefits unrelated to education; (3) enjoin NCAA
limits on most compensation and benefits that are
related to education, but allow it to limit educationrelated academic or graduation awards and
incentives, as long as the limits are not lower than its
limits on athletic performance awards now or in the
future. This is Plaintiffs’ third proposed alternative,
as modified by the Court. It would be less restrictive
than the current compensation rules, allowing for
additional compensation and benefits related to
education. It would therefore be less harmful to
competition in the relevant market, but would not
provide a vehicle for unlimited cash payments,
unrelated to education.
The types of education-related benefits that could
not be capped by the NCAA would include those that
it currently prohibits or limits in some fashion. These
include computers, science equipment, musical
instruments and other items not currently included in
the cost of attendance calculation but nonetheless
related to the pursuit of various academic studies.
Also included would be post-eligibility scholarships to
complete undergraduate or graduate degrees at any
school; scholarships to attend vocational school;
expenses for pre- and post-eligibility tutoring;
expenses related to studying abroad that are not
covered by the cost of attendance; and paid post-

159a

eligibility internships. See Trial Tr. (Lennon) at 15591565, 1571-72; NCAA Rule 30(b)(6) witness (Kevin
Lennon) Dep. Tr. 195-213; Division I Bylaw
13.2.1.1(k). There may be other education-related
benefits that the NCAA, in an exercise of its good faith
judgment, would allow. Payment for these benefits
would be limited to their actual value and could be
provided in kind. For that reason, they would not be a
vehicle for potentially unlimited cash payments.
A subset of education-related benefits, namely,
cash academic or graduation awards and incentives, if
not capped by the NCAA, could potentially be
unlimited and allow for payments indistinguishable
from those received in professional sports.
Accordingly, limits on these awards or incentives may
have the procompetitive effect of preventing
professional-style unlimited cash payments. This
alternative would allow the NCAA to place a limit on
such awards, as long as the limit is not less than the
maximum amount of compensation that an individual
student-athlete could receive in an academic school
year in participation, championship, or special
achievement awards (combined) under Division I
Bylaw, Article 16, and listed in Figures 16-1, 16-2, and
16-3 of the Division I Manual, J0024 at 0249-50.
(These figures list the current caps.) If the NCAA
increased the current athletics participation awards
limit just described, any limits on academic or
graduation awards and incentives must be increased
so that they are never less than the new athletics
participation awards limit. Allowing the NCAA to cap
education-related awards and incentives at the
athletics participation awards limit, which is an
amount that has been shown not to decrease
consumer demand and not to be inconsistent with the
NCAA’s understanding of amateurism, would enable

160a

the NCAA to prevent unlimited cash, demandreducing payments. On the other hand, the NCAA
could decide to set higher limits, or no limits at all, for
academic or graduation awards and incentives.
Individual conferences could vote to set or
maintain limits on education-related benefits that the
NCAA will not be allowed to cap. Conferences could
also set limits on academic and graduation awards
and incentives. This would not have an
anticompetitive effect because no individual
conference dominates nearly the entire market, like
the NCAA does. Rascher Direct Testimony
Declaration II 160-61. Market concentration would be
reduced in the absence of NCAA caps limiting
education-related
compensation
and
benefits
described above. Thus, the third alternative would be
less restrictive than maintaining the current NCAA
compensation scheme. Id. ¶¶ 162, 175.
NCAA’s latitude to superintend college sports
would not be greatly impacted. This alternative would
affect only a small fraction of the NCAA’s rulemaking
jurisdiction, namely rules that limit education-related
compensation and benefits.
The third alternative as modified would be
virtually as effective as the current rules in achieving
the effect on the preservation of consumer demand for
Division I basketball and FBS football that the Court
found here, and its implementation would not require
significant increased costs.
1. Virtually as Effective
As discussed above, according to Defendants’ own
witnesses, consumer demand for Division I basketball
and FBS football is driven largely by consumers’
perception that student-athletes are, in fact, students.

161a

Providing additional, even uncapped, educationrelated compensation and benefits to student-athletes
would not affect student-athletes’ status as students.
These benefits are, by definition, related to education
and thus would be consistent with the values
propounded by the NCAA. The Principle of
Amateurism in its constitution, quoted above, holds
that amateur student-athletes should be motivated
primarily
by
education.
Education-related
compensation and benefits would enhance the
student-athletes’ connection to academics. See, e.g.,
Perlman Dep. Tr. at 126-27 (“I think if you’re paying
them to play athletics, I think it is inconsistent with
the idea of what a student athlete is. I don’t think it’s
inconsistent to provide them with benefits that relate
to the educational enterprise”); MAC Rule 30(b)(6)
witness (Jon Steinbrecher) Dep. Tr. at 189
(compensation above cost of attendance is not
problematic because “the key point” is “linking what
we’re doing to the pursuit of the educational
opportunities of the individual involved”); Renfro Dep.
Tr. at 84 (“I personally don’t see the offer of a post
graduate grant in aid as something that violates the
concept of amateurism[.]”); Bowlsby Dep. Tr. at 13-14
(an inducement to stay in school an extra year or to
graduate “is worthy of consideration”).
Other evidence shows that providing additional
education-related compensation would not negatively
impact consumer demand. See, e.g., NCAA Rule
30(b)(6) witness (Mark Lewis) Dep. Tr. at 269-70
(changes to the NCAA rules regarding compensation
and benefits that have occurred in the last five years
have not had “any adverse impact on consumer
demand” because “they’re all tied to education”).
Prohibitions or limitations on such benefits have not
been shown to be necessary to preserve the distinction

162a

between college and professional sports in that the
benefits are inherently limited in value and nature
and can be provided in kind, not cash; accordingly,
they could not be confused with professional-style
unlimited cash payments. The natural experiments,
discussed above, show that recent increases in
student-athlete compensation, related and even
unrelated to education, have not decreased consumer
demand for Division I basketball or FBS football. Dr.
Hal Poret’s survey also supports this finding. One of
the scenarios he tested was offering scholarships to
complete an undergraduate or graduate degree at any
institution, which he found would not negatively
impact consumer demand. Poret Direct Testimony
Declaration 9191 17, 19-24, 26, 59, 131. Dr. Isaacson’s
survey does not speak to the possible effects of
implementing this alternative, because he did not test
any analogous scenarios.
The academic and graduation awards and
incentives that would be allowed with a cap in the
same amount as current caps on athletic performance
awards likewise will be virtually as effective as the
current compensation scheme. The amount will not be
demand-reducing because it will be in the same
amount that is allowed for athletic performance
awards, which are deemed to be consistent with
amateurism and the preservation of the distinction
between college and professional sports. And because
they are education-related, they will further the
perception of the student-athletes as students.
Thus, this alternative set of rules will be as
effective as the current set of challenged rules in
preserving consumer demand. It will also allow the
NCAA to maintain the distinction between college
student-athletes playing for educational benefits and

163a

professional athletes playing for large cash salaries
unrelated to education. The education-related
amounts that could be expended under this
alternative would be either inherently limited by the
actual value of the benefit, or limited by the NCAA at
a level that has been shown not to be demandreducing or inconsistent with amateurism. The NCAA
will be permitted to continue to cap grants-in-aid at
not less than the cost of attendance. The association
will remain free to bar or limit compensation and
benefits that are unrelated to education, including
cash or cash-equivalent awards for athletic
performance. Conferences individually will be free to
limit any benefits that the NCAA could not.
2. No Significant Increased Costs
The Court finds that the implementation of this
third alternative as modified would not result in
significant increased costs. To the contrary, because
this alternative would result in the elimination of
NCAA caps on most education-related benefits, it
would eliminate the need to expend resources on
compliance and enforcement in connection with such
caps. The NCAA engages in rule-making,
interpretation, investigations, and enforcement of its
rules.51 It could employ its systems and resources to
Starting in August 2019, as a result of the findings and
recommendations of the Commission on College Basketball
chaired by Dr. Condoleezza Rice, see P0060, the NCAA will add
a body composed of “both external investigators with no school or
conference affiliations and select NCAA enforcement staff” to
adjudicate independently cases involving potential violations of
NCAA rules that are deemed “complex.” Stip. Facts ¶ 9, Docket
No. 1098 (internal quotation marks omitted). Examples of
complex cases include alleged violations of core NCAA values
such as prioritizing academics and the well-being of college
athletes. Id. The perceived need for this new enforcement
51

164a

the extent it chooses to limit cash or cash-equivalent
academic or graduation awards and incentives.
Individual conferences would not be required to
enact their own rules to limit any education-related
benefits that the NCAA would not be able to cap. Even
so, the Court finds no evidence that the costs that
could be incurred to do so, if any, would be significant
Conferences are required to be “legislative bod[ies],”
Division I Constitution Article 3.3.1.1, and thus, they
already can and do enact their own rules. The scope of
the benefits that could not be capped by the NCAA
under this alternative would be those related to
education, which is a small fraction of the conduct
that the NCAA currently regulates and enforces. Any
new rulemaking activities by the conferences would
be correspondingly limited.
Conferences are also required by the NCAA to
have compliance programs and are involved in
ensuring compliance with both NCAA and conference
rules by their members. The changes contemplated
here would not add to their enforcement burden.
Conferences also may require their members to
enforce both conference and NCAA rules. See, e.g.,
The Big 10 Handbook at J0006 at 0013 (providing that
it “shall be the responsibility of each member
university” to “adhere to and enforce all Conference
Rules and Agreements, and the NCAA Constitution,
Bylaws and Regulations and their respective
interpretations”). Thus, schools currently engage in
compliance efforts, including investigations, and
enforcement of NCAA and conference rules relating to

mechanism is unrelated to the changes mandated here, but this
mechanism could certainly be used to police them.

165a

student-athlete compensation and eligibility.52
Schools also currently interpret NCAA rules. P0146 at
0002. Implementing this alternative will impose little
or no additional burden on the schools.
Some defense witnesses testified that eliminating
all of the challenged NCAA limits would result in new
costs to the conferences and schools. See, e.g., Trial Tr.
(Scott) 1180; Trial Tr. (Smith) at 1520-23. The Court
finds that this testimony lacks specificity or support
and thus is speculative. Other evidence also
outweighs or undermines it.53 Additionally, this
testimony hypothesized the removal of all NCAA
compensation limits, which diminishes its relevance
in the context of implementing the third alternative
as modified, whereby only a subset of the challenged
rules will be affected.54
The NCAA requires all of its members to comply with and
enforce its rules. See, e.g., Division I Constitution Article 1.3.2
(requiring member institutions to “apply and enforce” NCAA
legislation about eligibility, financial aid, and recruiting, among
other matters); Division I Constitution Article 2.1 (requiring
member schools to maintain “institutional control”).
52

For example, Larry Scott testified that in the absence of NCAA
compensation limits, there would be “significant additional
infrastructure and expense” at the Pac-12 relating to “rule
development.” Trial Tr. (Scott) at 1136-37. But other evidence
shows that the Pac-12 already has a system in place for passing
and amending bylaws relating to student-athlete financial aid
and otherwise. See Pac-12 Handbook, J0010 at 0008, 0014, 0015,
0017-18.
53

Defendants contend in their opening statement that adopting
any of Plaintiffs’ proposed alternatives would result in
conference realignment, which would entail increased costs. As
discussed above, conference realignment is common and the
evidence does not support a finding that adopting the third
alternative would result in conference realignment.
54

166a

Finally, to the extent that new enforcement costs
at the conference or school levels are incurred, the
NCAA could shift to its members some of the
resources it now spends on enforcement, so there
would be no net new costs. Trial Tr. (Scott) at 1240
(suggesting that any new costs at the conference and
school levels could be offset by such distributions). In
sum, the Court finds that any new costs of
implementing this alternative would not rise to the
level of “significant.”
The Court notes that it asked Defendants several
times, during the closing argument hearing held on
December 18, 2018, and previously, to propose, based
on their superior knowledge of the NCAA and its
members and their functions, adjustments to the
challenged rules or to Plaintiffs’ proposed less
restrictive alternatives that would be more workable
from their perspective. They offered none.
CONCLUSIONS OF LAW
I.

Legal Standard under Section 1 of the
Sherman Act

Section 1 of the Sherman Act makes it unlawful to
form a “contract, combination in the form of trust or
otherwise, or conspiracy, in restraint of trade or
commerce among the several States[.]” 15 U.S.C. § 1.
“To establish a claim under Section 1 of the Sherman
Act, Plaintiffs must show 1) that there was a contract,
combination, or conspiracy; 2) that the agreement
unreasonably restrained trade under either a per se
rule of illegality or a rule of reason analysis; and 3)
that the restraint affected interstate commerce.”
Cnty. of Tuolumne v. Sonora Cmty. Hosp., 236 F.3d
1148, 1155 (9th Cir. 2001) (citation and internal
quotation marks omitted).

167a

Here, Plaintiffs challenge the NCAA rules that
generally (1) cap at the cost of attendance grants-inaid they may receive for their athletic services, and (2)
limit the additional compensation and benefits that
they can receive in addition to a grant-in-aid athletic
scholarship, which have a monetary value above the
cost of attendance. Plaintiffs contend that Defendants
enact these limits by exercising their monopsony
power by way of price-fixing agreements that are
made and enforced through the NCAA’s bylaws.
Plaintiffs contend that they would receive more
compensation in exchange for their athletic services
in the absence of these limits.
As discussed in the findings of fact above, on
summary judgment the Court found no genuine
dispute of material fact as to the existence of an
agreement among Defendants in restraint of trade
that affects interstate commerce, which satisfies the
first and third elements of a Section 1 claim.
Specifically, Defendants did not meaningfully dispute
evidence showing that (1) the compensation limits
that Plaintiffs challenge are enacted by agreement of
Defendants through the NCAA’s legislative process
and are embodied in NCAA rules published in the
NCAA Division I Manual; (2) Defendants enforce
these rules by requiring all NCAA members to comply
with them, and by punishing violations; (3) these rules
affect interstate commerce, because they regulate
transactions between Plaintiffs and their schools with
respect to Plaintiffs’ athletic services in multiple
states nation-wide; and (4) these transactions are
commercial because they regulate an essential
component of Division I basketball and FBS football.
Summary Judgment Order at 15, Docket No. 804; see
also O’Bannon II, 802 F.3d at 1065-66 (holding that

168a

the NCAA’s compensation rules are restraints of trade
that regulate “commercial transaction[s]”).
As to the remaining element of a Section 1 claim,
which requires a showing that the challenged
restraints are unreasonable under either the per se
rule or the Rule of Reason, the Court held on summary
judgment that the NCAA’s regulations “must be
tested under a rule-of-reason analysis” as opposed to
under the per se rule. Summary Judgment Order at
15, Docket No. 804; see also O’Bannon II, 802 F.3d at
1053 (holding that “the NCAA’s amateurism rules . . .
must be analyzed under the Rule of Reason”).
Horizontal price-fixing agreements, those among
competitors, like the challenged rules in this case, “are
ordinarily condemned as a matter of law under an
`illegal per se’ approach because the probability that
these practices are anticompetitive is so high . . . . In
such circumstances a restraint is presumed
unreasonable without inquiry into the particular
market context in which it is found.” Nat’l Collegiate
Athletic Ass’n v. Bd. of Regents of Univ. of Okla., 468
U.S. 85, 100 (1984) (Board of Regents) (citation
omitted). But where, as here, a “certain degree of
cooperation” is necessary to market college sports, the
Rule of Reason is appropriate. O’Bannon II, 802 F.3d
at 1069 (quoting Board of Regents, 468 U.S. at 117)
(internal quotation marks omitted).
II. Issue or Claim Preclusion
As a threshold matter, Defendants argue that
Plaintiffs have not shown that this case is not
precluded by the Ninth Circuit’s ruling in O’Bannon
II. The Court denied Defendants’ motion for summary
judgment that this action is barred by O’Bannon II

169a

under the doctrines of res judicata55 and collateral
estoppel.56 See Summary Judgment Order at 9-15,
Docket No. 804. Defendants invite the Court to revisit
these issues, arguing that Plaintiffs must, but have
failed to, show that a new antitrust violation occurred
since O’Bannon I or that there has been any material
change in the factual basis for O’Bannon II.
It is not Plaintiffs’ burden to show that this action
is not precluded; instead, the burden of proving
preclusion is on Defendants. See Karim-Panahi v Los
Angeles Police Dep’t, 839 F.2d 621, 627 n.4 (9th Cir.
1988) (res judicata); Kendall v. Visa U.S.A., Inc., 518
F.3d 1042, 1050-51 (9th Cir. 2008) (collateral
estoppel). Defendants failed to satisfy this burden on
summary judgment, and they have offered nothing
new to warrant altering the Court’s summary
judgment holding on this issue.
In its Summary Judgment Order, the Court found
that material differences between this action and the
O’Bannon case prevent a finding that this action is
Res judicata prohibits the re-litigation of any claims that were
raised or could have been raised in a prior action. Tahoe-Sierra
Pres. Council, Inc. v. Tahoe Reg’l Planning Agency, 322 F.3d
1064, 1077-78 (9th Cir. 2003). Three elements must be present
for res judicata to apply: (1) an identity of claims; (2) a final
judgment on the merits; and (3) the same parties or their privies.
Id. at 1077.
55

Collateral estoppel “prevents a party from relitigating an issue
decided in a previous action if four requirements are met: `(1)
there was a full and fair opportunity to litigate the issue in the
previous action; (2) the issue was actually litigated in that action;
(3) the issue was lost as a result of a final judgment in that action;
and (4) the person against whom collateral estoppel is asserted
in the present action was a party or in privity with a party in the
previous action.’“ Kendall v. Visa U.S.A., Inc., 518 F.3d 1042,
1050 (9th Cir. 2008) (citation omitted).
56

170a

precluded by that case. These include (1) that class
members in the two actions are not in complete
privity; and (2) that the conduct and rules challenged,
the rights implicated, and the evidence presented and
available were not the same in both actions.57
The class in O’Bannon did not include, as does one
of the classes here, female student-athletes. The class
in O’Bannon was not limited to student-athletes in
receipt of an offer for a full grant-in-aid athletic
scholarship; it included male Division I basketball
and FBS football student-athletes whose NIL were
used or could have been used in game footage or
videogames licensed or sold by the NCAA and its
licensees, regardless of whether they received any
scholarship money. O’Bannon II, 802 F.3d at 1055-56.
By contrast, the classes in this case include studentathletes who were offered or received a full grant-inaid athletic scholarship. No use of their NIL was
necessary; therefore, these classes are not limited to
student-athletes whose NIL were used or licensed.
Additionally, the classes in this case are limited to
student-athletes who received an offer for a full grantin-aid from March 5, 2014, to the date of final
judgment in this action; few of the male class
members in this case would have been O’Bannon class
members because most would have been recruited
See Costantini v. Trans World Airlines, 681 F.2d 1199, 120102 (9th Cir. 1982) (citation omitted) (holding that a single cause
of action for the purpose of applying res judicata exists in
successive lawsuits, if, among other things, both actions “involve
infringement of the same right,” and “substantially the same
evidence” was presented in both actions); Cent. Delta Water
Agency v. United States, 306 F.3d 938, 953 (9th Cir. 2002)
(holding that collateral estoppel cannot be applied where the
facts of the prior action are merely “similar” to the ones in the
second case) (citation and internal quotation marks omitted).
57

171a

after the O’Bannon I trial, which ended in August
2014.
The crux of the O’Bannon case was the right to
student-athletes’ NIL. The plaintiffs sought relief as a
result of price-fixing conduct by the NCAA and its
licensing partners that prevented them from
benefiting financially, through compensation from
their schools or from outside sources, from the use and
licensing of their NIL. The class members in
O’Bannon were required to release the rights to their
NIL, the use and licensing of which had monetary
value, to the NCAA as a condition of eligibility to play
in Division I basketball and FBS football; this was the
case regardless of whether they received a grant-inaid. The rules challenged in O’Bannon related to NIL
rights and their commercialization by the NCAA and
its licensees, to the exclusion of student-athletes.58
See O’Bannon II, 802 F.3d at 1055 (“The gravamen of
O’Bannon’s complaint was that the NCAA’s
amateurism rules, insofar as they prevented studentathletes from being compensated for the use of their
NIL, were an illegal restraint of trade under Section 1
of the Sherman Act, 15 U.S.C. § 1.”); id. at 1072
(concluding that “the NCAA’s compensation rules fix
the price of one component (NIL rights) of the bundle
that schools provide to recruits”). The plaintiffs in
O’Bannon did not challenge the limit on a full grantin-aid athletic scholarship, although the limit was
implicated in the less restrictive alternative that the
plaintiffs proposed and that this Court adopted.

See O’Bannon I, Case No. 09-cv-3329, Pls.’ Trial Brief at 4,
Docket No. 172 (listing challenged rules); Case No. 09-cv-1967,
Third Am. Consolidated Complaint 1 359, Docket No. 832 (same).
58

172a

In this case, by contrast, Plaintiffs seek relief from
price-fixing conduct by the NCAA, Conference
Defendants, and other NCAA members that prevents
them from receiving compensation and benefits from
their schools in excess of certain limits in exchange for
their athletic services. The conduct at issue here is not
connected to NIL rights. The rules challenged in this
case, in addition to the limit on a grant-in-aid, include
those that limit other compensation and benefits that
student-athletes can receive on top of a full cost-ofattendance grant-in-aid. See Pls.’ Opening Statement
at 13-15 and Appendices A-C, Docket No. 868-3, for a
list of the challenged rules. They include those that
limit compensation and benefits related to education,
such as scholarships for undergraduate or graduate
study at other institutions. They also include rules
that limit compensation and benefits incidental to
athletics participation but are unrelated to education,
such as performance awards and travel expenses for
student-athletes’ family members. These rules were
not challenged in O’Bannon. Accordingly, neither
these rules nor the compensation and benefits that
can be provided pursuant to them were
comprehensively addressed in that case.
Some of the rules challenged in this case did not
exist or have materially changed since the O’Bannon
trial, those relating to reimbursement for travel
expenses for family members, student-athletes
borrowing against their future earnings to purchase
loss-of-value
insurance,
and
payments
to
international student-athletes from their home
countries.
While some NCAA rules were challenged in both
cases, these are core rules that address eligibility and

173a

compensation in general terms.59 This overlap is a
consequence of the interconnected nature of NCAA
bylaws, and does not indicate that the two actions
overlap in terms of the specific and distinct conduct
being challenged, or the rights affected. The fact that
the limit on the grant-in-aid is addressed in both cases
also does not preclude this action. The NCAA changed
this limit before the Court’s injunction in O’Bannon
went into effect, and the NCAA’s changed rule differs
from the less restrictive alternative that the Court
found in O’Bannon I with respect to the studentathletes who would receive the relief and the source
and type of the compensation that would cover the
difference between the prior grant-in-aid limit and the
cost of attendance.
Moreover, since O’Bannon, there have been
material increases in permissible compensation above
the cost of attendance that is not related to education.
These increases are relevant to the question of
whether restrictions on student-athlete compensation
are necessary to preserve consumer demand for
college sports as distinct from professional sports.
These include the payment by schools from SAF
monies of $50,000 premiums for loss-of-value
insurance against the loss of future professional
earnings in case of injury in college. In January 2015,
the NCAA began to pay up to $3,000 for family
For example, challenged rules that are common to both cases
include Division I Bylaw 13.2.1 (prohibiting benefits and
financial aid not permitted by the NCAA); Division I Bylaw
16.02.5 (prohibiting funds, awards, or benefits not permitted by
the NCAA); and Division I Bylaw 12.1.2.1 (listing prohibited
forms of “pay”). These rules must be read in conjunction with
rules that address compensation and benefits in more specific
terms and in more specific contexts.
59

174a

members of student-athletes to attend the Final Four
games and up to $4,000 to attend basketball
championships; the College Football Playoff
committee began to pay up to $3,000 for each
competing athlete’s family members to travel to that
event. Student-athletes previously could receive
performance awards in the form of store-specific gift
cards but can now receive these awards, in capped
amounts, in the form of Visa gift cards that can be
used anywhere that accepts Visa. Schools can now
provide unlimited food to student-athletes.
Defendants note that some of the forms of
compensation and benefits addressed in this case,
such as Pell grants, benefits from the SAF, and storespecific gift cards, were mentioned or can be found in
the record in O’Bannon. This fact is not sufficient to
support Defendants’ claim preclusion argument.
Because student-athlete compensation has
expanded since O’Bannon, Defendants also argue that
no new actionable conduct or material change in the
factual basis of O’Bannon has occurred since
O’Bannon I to justify a conclusion that this action is
not precluded. This argument misses the point. It is
the fact that the prices of student-athlete
compensation are fixed, as opposed to the amount at
which these prices are fixed, that renders the
agreements at issue anticompetitive. See O’Bannon
II, 802 F.3d at 1071 (“It is no excuse that the prices
fixed are themselves reasonable.”) (quoting Catalano,
Inc. v. Target Sales, Inc., 446 U.S. 643, 647 (1980))
(internal quotation marks omitted). Defendants do
not dispute that the challenged rules embody
agreements among competitors that fix the prices of
student-athlete compensation. Accordingly, the Court
cannot dismiss Defendants’ “anticompetitive price-

175a

fixing agreement as benign,” see id., simply because
they contend that the fixed prices are more reasonable
than they used to be. See Associated Press v. United
States, 326 U.S. 1, 16 n.15 (1945) (“[T]he Sherman Act
cannot be evaded by good motives.”) (citation and
internal quotation marks omitted).
The material factual differences discussed above
defeat Defendants’ preclusion arguments and warrant
examining the conduct challenged in this case under
the Rule of Reason. See Oltz v. St. Peter’s Cmty.
Hosp., 861 F.2d 1440, 1449 (9th Cir. 1988) (“The rule
of reason requires an evaluation of each challenged
restraint in light of the special circumstances
involved. That the analysis will differ from case to
case is the essence of the rule.”) (citation omitted).
Whether the challenged price-fixing conduct here is
justified by a procompetitive effect must be proved,
and not presumed. See O’Bannon II, 802 F.3d at 106364
In sum, because Plaintiffs raise new antitrust
challenges to conduct affecting a different class, in a
different time period, relating to rules and forms of
compensation that are not the same as those
challenged in O’Bannon, the claims in this case are
not precluded by O’Bannon II.
III. The Rule of Reason
The Rule of Reason is intended for the analysis of
“agreements whose competitive effect can only be
evaluated by analyzing the facts peculiar to the
business, the history of the restraint, and the reasons
why it was imposed.” Nat’l Soc. of Prof’l Eng’s v.
United States, 435 U.S. 679, 692 (1978). “[T]he
purpose of the analysis is to form a judgment about
the competitive significance of the restraint; it is not

176a

to decide whether a policy favoring competition is in
the public interest, or in the interest of the members
of an industry.” Id.; see also Cont’l T. V., Inc. v. GTE
Sylvania Inc., 433 U.S. 36, 49 (1977) (“Under this rule,
the factfinder weighs all of the circumstances of a case
in deciding whether a restrictive practice should be
prohibited as imposing an unreasonable restraint on
competition.”).
Several Ninth Circuit opinions have articulated
burden-shifting schemes to apply the Rule of Reason.
“Under the rule of reason burden-shifting scheme,
plaintiffs first must `delineate a relevant market and
show that the defendant plays enough of a role in that
market to impair competition significantly.’“ Cnty. of
Tuolumne, 236 F.3d at 1150 (citation omitted).
Second, if the plaintiffs make that showing, the
burden then shifts to the defendants to offer evidence
that a legitimate procompetitive effect is produced by
the challenged behavior. Id. Third, if the defendants
do so, the burden then shifts back to the plaintiffs to
demonstrate that there are less restrictive
alternatives to the challenged conduct. Id. Finally, if
the plaintiffs fail “to meet their burden of advancing
viable less restrictive alternatives,” the court then will
“reach the balancing stage,” wherein the court “must
balance the harms and benefits” of the challenged
conduct to determine whether it is “reasonable.” Id. at
1160 (citing Phillip E. Areeda and Herbert
Hovenkamp, Antitrust Law: An Analysis of Antitrust
Principles and Their Application ¶ 1507b).
//
IV. Rule of Reason: Market Definition
Plaintiffs first must show that the challenged
conduct has significant anticompetitive effects in the

177a

relevant market. “Proof that defendant’s activities
had an impact upon competition in the relevant
market is `an absolutely essential element of the rule
of reason case.’“ Supermarket of Homes, Inc. v. San
Fernando Valley Bd. of Realtors, 786 F.2d 1400, 1405
(9th Cir. 1986) (citation omitted). The term “relevant
market” in this context “encompasses notions of
geography as well as product use, quality, and
description. The geographic market extends to the
area of effective competition . . . where buyers can turn
for alternative sources of supply. The product market
includes the pool of goods or services that enjoy
reasonable interchangeability of use and crosselasticity of demand.” Tanaka v. Univ. of S. Cal., 252
F.3d 1059, 1063 (9th Cir. 2001) (citation and internal
quotation marks omitted).
As discussed in the findings of fact, Plaintiffs
produced sufficient evidence on summary judgment to
establish the existence of a relevant market
comprising national markets for Plaintiffs’ labor in
the form of athletic services in men’s and women’s
Division I basketball and FBS football, wherein each
class member participates in his or her sport-specific
market. In these markets, the class members sell
their athletic services to the schools that participate
in Division I basketball and FBS football in exchange
for grants-in-aid and other compensation and benefits
permitted by NCAA rules on top of grants-in-aid.
Because of the absence of any viable substitutes for
Division I basketball and FBS football, Defendants
hold monopsony power in all of these markets and
exercise that power to cap artificially the
compensation offered to recruits. This is reflected in
the high degree of concentration found in the relevant
market. Class members cannot obtain the same
combination of a college education, high-level

178a

television exposure, and opportunities to enter
professional sports other than from Division I schools.
See O’Bannon I, 7 F. Supp. 3d at 965-68, 991-93
(finding relevant market wherein Division I
basketball and FBS football schools compete to recruit
elite football and basketball players); O’Bannon II,
802 F.3d at 1056-57, 1070 (affirming relevant market
found in O’Bannon I on the ground that the NCAA did
not “take issue with the way that the district court
defined” the relevant market).
During
summary
judgment
proceedings,
Defendants did not request that the Court adopt an
alternative market definition, or point to any
admissible evidence to create a genuine issue of
material of fact with respect to market definition.
Although Defendants argued later that this Court
should have considered or adopted a multi-sided
market definition, the Court rejected these arguments
on the ground that they were untimely, and on the
ground that the only evidence to support the belated
multi-sided market definition was inadmissible in any
event. See generally Order Reaffirming Exclusion of
Certain Expert Testimony by Dr. Elzinga, Docket No.
1018.
V. Rule of Reason: Anticompetitive Effects
The
requisite
showing
of
significant
anticompetitive effects calls for evidence that “the
activity is the type that restrains trade and that the
restraint is likely to be of significant magnitude.”
Bhan v. NME Hosps., Inc., 929 F.2d 1404, 1413 (9th
Cir. 1991). This can be done by showing that “the
defendant plays enough of a role” in the relevant
market “to impair competition significantly,” or by
showing that the challenged restraint “has actually
produced significant anti-competitive effects,” such as

179a

by restricting output or fixing a price. Id.; Board of
Regents, 468 U.S. at 109 (“[W]hen there is an
agreement not to compete in terms of price or output,
‘no elaborate industry analysis is required to
demonstrate the anticompetitive character of such an
agreement.”) (citation omitted).
Because Defendants have near complete
dominance of, and exercise monopsony power in, the
relevant market, and because it is undisputed that the
challenged restraints suppress competition and fix
the price of student-athletes’ services, the Court has
found that the anticompetitive effects of the
challenged rules are severe. On summary judgment,
the Court found no genuine issue of material fact that
the challenged rules cause significant anticompetitive
effects in the relevant market. Plaintiffs produced
sufficient evidence on summary judgment and at trial
to show that the challenged rules amount to overt
horizontal price-fixing among competitors, because
they essentially eliminate price competition as to one
key aspect of the recruitment of student-athletes in
Division I basketball and FBS football, namely the
price of the services of student-athletes. See Board of
Regents, 468 U.S. at 100 (noting that horizontal pricefixing agreements have a “high” probability of
resulting in anticompetitive effects and are
“ordinarily condemned as a matter of law” under an
illegal per se approach).
This evidence also established that the challenged
rules harm class members, because the rules deprive
them of compensation they would receive in the
absence of the restraints. See O’Bannon II, 802 F.3d
at 1071 (holding that NCAA compensation rules have
anticompetitive effects because they “extinguish” one
form of competition among schools seeking to land

180a

recruits and deprive student-athletes of compensation
they would receive absent the rules) (citation and
internal quotation marks omitted).
VI. Rule of Reason: Asserted Justifications for
the Challenged Restraints
Because Plaintiffs have established that the
challenged rules restrain competition and have severe
anticompetitive effects, the burden shifts to
Defendants to show that the challenged price-fixing
conduct “brings about some procompetitive effect in
order to justify it under the antitrust laws.” O’Bannon
II, 802 F.3d at 1073 (emphasis omitted).
The
only
two
asserted
procompetitive
justifications for the challenged rules that survived
summary judgment60 are (1) that the challenged rules
promote amateurism, which in turn enhances
consumer demand for Division I basketball and FBS
football; and (2) that the challenged rules promote
integration of student-athletes with their academic
communities, which in turn improves the quality of
the college education that student-athletes receive for
their athletic services.
A. Consumer Demand for Amateurism
Defendants first contend that the challenged rules
are procompetitive because they promote the principle
of amateurism, which enhances consumer demand.
The Court will not consider arguments relating to
procompetitive justifications that it rejected on summary
judgment. See Summary Judgment Order at 23 n.7, Docket No.
804; see also O’Bannon II 802 F.3d at 1072 (affirming the district
court’s rejection of competitive balance and increased output
procompetitive justifications because the NCAA “offered no
meaningful argument that those findings were clearly
erroneous”).
60

181a

Defendants argue that consumers value amateurism,
and that consumer demand for Division I basketball
and FBS football would deteriorate if student-athletes
received more compensation. To support their
contentions, Defendants rely on the expert opinions of
Dr. Elzinga and Dr. Isaacson, and lay testimony by
various NCAA, conference, and school administrators
regarding the preferences of viewers of college sports.
As a threshold matter, it is important to recognize
that the challenged limits on compensation cannot be
deemed procompetitive simply because they promote
or are consistent with amateurism. To be
procompetitive, the challenged rules must have some
procompetitive effect on the relevant market.
Although their theory is that the challenged rules
promote amateurism, Defendants did not offer an
affirmative definition of amateurism. While
Defendants place great emphasis on the Principle of
Amateurism, which is described in the Division I
constitution, the principle does not mention or
address compensation; nor does it prohibit or even
discourage compensation. Accordingly, no link
appears between this principle and the challenged
compensation limits.
Defendants argue that amateurism can be defined
based on what it is not, namely, amateurism is not
“pay for play.” But the concept of “pay for play” does
not help define amateurism because this term itself is
undefined.
Defendants have not pointed to any NCAA bylaws
that define amateurism, pay for play, or pay. In the
bylaws, “pay” is defined only indirectly, by way of a
list of forms of compensation that the NCAA permits
and does not permit. A reading of these bylaws

182a

discloses no principled, articulable difference between
amateurism and not amateurism, or “pay for play”
and not “pay for play.” The only thing that can be
inferred is that compensation constitutes “pay for
play” or “pay” if the NCAA has decided to forbid it, and
compensation is not “pay for play” or “pay” if the
NCAA has decided to permit it.
The NCAA permits grants-in-aid up to the cost of
attendance. In addition, student-athletes can receive
cash or cash-equivalent compensation that exceeds
the cost of attendance by thousands of dollars. The
NCAA permits schools and conferences to pay
student-athletes awards for their performance in
their sport, which can be paid in cash-equivalent Visa
cards; student-athletes who reach high levels of
competition can receive up to $5,600 in such awards
in a school year. Because these awards are directly
correlated with athletic performance, they appear, on
their face, to be “pay for play,” and thus, inconsistent
with amateurism as Defendants and their witnesses
describe that term. Yet, they are allowed. Also
permissible are SAF payments in the thousands of
dollars for varying purposes, including for $50,000
premiums for loss-of-value insurance against future
loss of professional wages.
The NCAA permits schools to provide per diem
payments to student-athletes for un-itemized
expenses. It also permits schools to pay for family
members’ travel expenses to attend certain events;
separately, the NCAA and the College Football
Playoff committee have paid thousands of dollars for
family members to travel to the Final Four, as well as
the basketball and FBS championships. The NCAA
allows outside organizations to provide payments to
certain student-athletes for their performance; in the

183a

case of student-athletes who do well in the Olympics
or in international competitions, the payments that
can be provided under current NCAA rules are
unlimited.
Some of the compensation and benefits above the
cost of attendance that the NCAA currently permits
are related to education. For example, the NCAA
permits schools to provide student-athletes with
funding for post-eligibility graduate school at any
institution, although this is capped at $10,000 per
student, two students per school, per year. These are
the Senior Scholar Awards. It also permits schools to
pay, with SAF funds, for education-related items and
expenses, such as laptops and pre-eligibility tutoring,
that are not covered by the cost of attendance.
An individual student-athlete could receive all of
the aforementioned forms of compensation, in
combination, without losing his or her status as an
amateur or eligibility to play in Division I sports.
When combined, this compensation can total
thousands and even tens of thousands of dollars above
a full cost-of-attendance grant-in-aid. Again, the
Court does not mean to imply that these payments
should not be made. The point is that studentathletes’ receipt of this compensation in excess of the
cost of attendance, some of which is related to
education and some of which is not, has not led to a
reduction in consumer demand for college sports as a
distinct product, which continues apace.
Defendants’ only economics expert on consumer
demand, Dr. Elzinga, did not even attempt to examine
whether a relationship exists between compensation
and consumer demand. He opines that this analysis is
not possible because amateurism has always existed
and the NCAA has always enforced it; he also opines

184a

that any such analysis would be unnecessary in any
event because amateurism is not about whether
student-athletes receive specific dollar amounts in
compensation, but is instead about whether they are
paid to play, which is a concept that he does not
define. Dr. Elzinga’s opinions and assumptions are
contrary to the record, which shows that the NCAA
has not always enforced amateurism rules; that
amateurism, and amounts of permissible studentathlete compensation, have changed materially over
time; and that the amounts of compensation that
student-athletes receive are very relevant to the
determination of whether a student-athlete is an
NCAA amateur or not, because the NCAA’s limits on
certain forms of compensation are set based on
specific dollar amounts for that very purpose.
Accordingly, the Court found Dr. Elzinga’s opinions to
be unconvincing.
Defendants attempted to establish a connection
between student-athlete compensation and consumer
demand by way of the opinions of their survey expert,
Dr. Isaacson. His opinions, however, do not establish
or suggest that a relationship exists between the
challenged rules and consumer demand.
The only economic analysis in the record that
addresses the impact of changes to student-athlete
compensation on consumer demand, that of Dr.
Rascher, shows that recent increases in studentathlete compensation, related and unrelated to
education, have not decreased consumer demand. Dr.
Rascher concluded, in fact, that revenues, which are
an indicator of demand, at the NCAA, conference, and
school levels have increased since 2015, when class
members’ permissible compensation increased
significantly as a result of the change to the grant-in-

185a

aid limit that year and the expansion or creation of
other benefits that schools can provide on top of a full
grant-in-aid. Accordingly, Dr. Rascher’s findings
suggest that additional increases in compensation
would not reduce consumer demand.
Dr. Rascher’s conclusions are corroborated by
other evidence, including the opinions of Plaintiffs’
survey expert, Dr. Poret, and some testimony from
defense witnesses.
Dr. Poret specifically tested whether providing
certain forms of additional compensation to studentathletes would affect future viewership or attendance
of basketball and football. He concluded that
viewership and attendance would not be negatively
impacted if the scenarios he tested were implemented
individually.
If limits on student-athlete compensation were
necessary to maintain consumer demand, one would
expect to see increases in compensation leading to
decreases in consumer demand. The evidence
described above shows that actual increases in
compensation have not decreased demand, and it
suggests that future increases in compensation
likewise would not do so.
The challenged compensation limits do not appear
to be set by the NCAA based on considerations of
consumer demand. The NCAA’s Rule 30(b)(6) witness,
Kevin Lennon, testified that he does not recall any
instance in his more than thirty years with the
organization in which a study on consumer demand
was considered by the NCAA membership when
making rules about compensation.
Defendants rely on lay witness testimony to try to
establish a connection between the challenged

186a

compensation rules and consumer demand. Most of
this testimony is predicated on personal opinion and
conversations with unidentified fans of college sports
with whom witnesses have spoken. Some of these
witnesses testified that the challenged rules prevent
conferences from setting different rules on studentathlete compensation based on their different values
and resources; these witnesses posited that changing
the challenged rules could negatively impact the
consumer appeal of national tournaments and
rivalries, or could result in conference realignment, all
of which could negatively affect consumer demand for
college sports. But this testimony is unsupported by
the weight of the evidence, which shows that
significant variance already exists among conferences
in terms of student-athlete compensation schemes,
resources, and performance, and that conference
realignment has been frequent. None of this has
negatively affected consumer demand or revenues.
Some witnesses testified that consumers enjoy
college sports because of the difference between
college sports and professional sports. Much of this
difference is based on the fact that student-athletes
are students playing for their school. But this does not
in itself establish any connection between consumer
demand and the challenged rules. Indeed, studentathletes would remain students even if their
compensation were not limited by the challenged
rules. See O’Bannon II, 802 F.3d at 1073 (concluding
that the opportunity to earn a higher education
“would still be available to student-athletes if they
were paid some compensation in addition to their
athletic scholarships. Nothing in the plaintiffs’ prayer
for compensation would make student-athletes
something other than students and thereby impair
their ability to become student-athletes”).

187a

Other
distinctions
between
college
and
professional sports are the amounts and types of
compensation players receive. The distinction,
currently, cannot be based on student-athletes
receiving no compensation or benefits above the cost
of attendance and professionals receiving large cash
salaries, sometimes in the millions of dollars. This is
because student-athletes already receive moderate
amounts in compensation and benefits on top of a
grant-in-aid without affecting the distinction between
college and professional sports. Instead, the Court
found that a distinction between college and
professional sports arises from the fact that studentathletes do not receive unlimited cash payments,
especially those unrelated to education, like those
seen in professional sports leagues.
Accordingly, the Court found that, when
compared with having no limits on compensation,
some of the challenged compensation rules may have
an effect on preserving consumer demand for college
sports as distinct from professional sports to the
extent that they prevent unlimited cash payments
unrelated to education such as those seen in
professional sports leagues. As will be discussed in
more detail in the next section, however, not all of the
challenged rules in their current form are necessary
to achieve this procompetitive effect, and there is a
less restrictive alternative to the set of current
challenged compensation restrictions.
The challenged compensation limits can be
divided into three categories: (1) the limit on the
grant-in-aid at not less than the cost of attendance; (2)
compensation and benefits unrelated to education
paid on top of a grant-in-aid; (3) compensation and

188a

benefits related to education provided on top of a
grant-in-aid.
The Court found that the challenged limits in the
first and second categories are procompetitive relative
to having no limits, to the extent that they help
maintain consumer demand for college sports as a
distinct product by preventing unlimited cash
payments unrelated to education.
As for the limits in the third category, only some
have been have been shown to be procompetitive,
namely limits on academic or graduation awards and
incentives that are provided in cash or cashequivalents. These could become a vehicle for
unlimited payments. The Court found that limits or
prohibitions on most other benefits related to
education that can be provided on top of a grant-inaid, such as those that limit tutoring, graduate school
tuition, and paid internships, have not been shown to
have an effect on enhancing consumer demand for
college sports as a distinct product, because these
limits are not necessary to prevent unlimited cash
compensation unrelated to education. Educational
benefits limited or prohibited by these rules are
distinct from professional-level compensation because
they have a connection to education, are paid to
students, their value is inherently limited to their
actual cost, and they can be provided in kind, not in
cash. Defendants have offered no cogent explanation
for why limits or prohibitions on these educationrelated benefits are necessary to preserve consumer
demand. Some evidence instead suggests that the
challenged limits on education-related compensation

189a

are
arbitrary.61
Accordingly,
because
no
procompetitive justification for limiting these
education-related benefits has been shown, limits on
these benefits cannot be included in a less restrictive
alternative.
B. Integration
Defendants contend that the challenged rules
have a procompetitive effect because they promote the
integration of student-athletes into their academic
communities. Defendants posit that this integration
improves the college education that student-athletes
receive for their athletic services.
For this proffered justification to be viable,
Defendants would have to establish (1) that the
challenged rules promote integration, and (2) that
integration has a procompetitive effect in the relevant
market. As detailed in the findings of fact, Defendants
did not meet their burden to show that the challenged
rules have an effect on promoting integration. That
alone defeats integration as a procompetitive
justification.
The evidence shows that student-athletes benefit
in various ways from the college education they
receive, but Defendants have not shown that such
benefits arise out of the challenged compensation
For example, when asked whether increasing the current limit
on Senior Scholar Awards from two students per school to five
students per school would render the awards inconsistent with
amateurism, the NCAA’s Rule 30(b)(6) witness, Kevin Lennon,
provided no meaningful response other than to justify the
current limit on the basis that the membership decided that
limiting the awards to two students per school constituted a
reasonable cap. Trial Tr. (Lennon) at 1551-53. It could be raised
from two to three. Lennon Rule 30(b)(6) Dep. Tr. at 179.
61

190a

limits. Most of the benefits that student-athletes can
gain from attending college are caused, instead, by the
education itself and by other rules and policies, such
as those relating to academic eligibility requirements,
tutoring, academic support, living conditions, and the
scheduling of athletic practice and events. None of
these rules and policies, which appear to be the
driving force behind the integration that Defendants
describe, are challenged here. Accordingly, studentathletes would still enjoy the benefits caused by the
latter rules and policies even if the challenged
compensation limits were changed.
Defendants’ expert, Dr. Heckman, conceded that
additional compensation could improve outcomes for
student-athletes, belying the notion that the
challenged compensation limits, as they currently
stand, are necessary to achieve positive studentathlete outcomes. Additionally, other evidence shows
that student-athlete achievement, as measured by
graduation rates, has increased since 2015, when
permissible athletics-related compensation increased.
This also suggests that the challenged compensation
limits are not necessary to improve student-athlete
academic outcomes. This evidence also undermines
Dr. Heckman’s opinion that student-athletes would be
incentivized to spend time on athletics to the
detriment of academics if they received additional
compensation.
Defendants also rely on testimony positing that
additional compensation for student-athletes would
create a “wedge” between student-athletes and nonathletes, and even among student-athletes if any
additional compensation provided were not
distributed equally. The NCAA advanced the same
theory in O’Bannon I. See 7 F. Supp. 3d at 980-81.

191a

There, this Court found that certain limited
restrictions on student-athlete compensation “may
help” prevent a wedge between student-athletes and
others on campus, see id. at 980, and the Ninth Circuit
affirmed that finding, although it noted that, on
appeal, the NCAA focused all of its arguments
regarding a procompetitive justification on its
amateurism theory. O’Bannon II, 802 F.3d at 1059-60,
1072.
Here, the evidence that Defendants cite in support
of their “wedge” theory is even weaker than that
presented in O’Bannon I, and it also is directly
contradicted by evidence that was not available at the
time of O’Bannon I. This shows that student-athlete
compensation increased since 2015 and this greater
compensation, which can reach thousands or tens of
thousands of dollars above a full cost-of-attendance
grant-in-aid, has not resulted in increased separation
between student-athletes and other students. This
evidence distinguishes the factual record here
regarding the “wedge” theory from the record in
O’Bannon I, and it justifies a different conclusion with
respect to the “wedge” theory and integration as a
procompetitive
justification.
Divisions
among
students exist and are inevitable as a result of factors
that are unrelated to the challenged rules. Further,
the challenged rules may create or exacerbate a wedge
because they result in some schools spending money
that would otherwise go to student-athlete
compensation on frills, like extravagant, athletes-only
facilities.
Because Defendants failed to show that the
challenged rules have an effect on promoting
integration, Defendants’ integration justification
fails.

192a

VII. Rule of Reason: Alternatives
Challenged Restraints

to

the

Defendants
have
sufficiently
shown
a
procompetitive effect of some aspects of the challenged
compensation scheme.62 These are the cost-ofattendance limit on the grant-in-aid, the limits on
compensation and benefits unrelated to education,
and the limits on cash or cash-equivalent educationrelated awards and incentives for academic
achievement or graduation. The procompetitive effect
of these caps is preventing unlimited, professionallevel cash payments, unrelated to education, that
could blur the distinction between college sports and
professional sports and thereby negatively affect
consumer demand for Division I basketball and FBS
football. Defendants, however, have not shown a
procompetitive justification for caps on educationrelated benefits that are inherently limited by their
actual cost and that can be provided in kind, not in
cash, such as rules that limit scholarships for
graduate school.
The burden shifts to Plaintiffs to show that there
are substantially less restrictive alternative rules that
would achieve the same procompetitive effect as the
challenged set of rules.
Where a restraint “is patently and inexplicably
stricter than is necessary
to accomplish”
demonstrated procompetitive objectives, “an antitrust
court can and should invalidate it and order it
replaced with a less restrictive alternative.” O’Bannon
Because Defendants have not shown that the challenged rules
can be justified on the ground that they promote integration, the
Court does not consider whether any proffered less restrictive
alternatives would promote integration.
62

193a

II, 802 F.3d at 1075 (emphasis omitted). To be viable,
a less restrictive alternative must be “virtually as
effective” in serving the established procompetitive
effect of the challenged restraints, and its
implementation must be achieved “without
significantly increased cost.” See id. at 1074, 1076
n.19 (citation and internal quotation marks omitted).
In the context of NCAA rules limiting student-athlete
compensation, a court must afford the NCAA “ample
latitude” to superintend college athletics, and may not
“use antitrust law to make marginal adjustments to
broadly reasonable market restraints.” Id. at 1074-75
(citation and internal quotation marks omitted).
As discussed in the findings of fact, there is a less
restrictive alternative to the set of challenged rules
that meets these requirements. Under these
alternative rules, the NCAA can continue to cap the
grant-in-aid at not less than the cost of attendance.
The NCAA can also continue to limit compensation
and benefits, paid in addition to the cost of
attendance, that are unrelated to education. The
association can continue to limit academic or
graduation awards or incentives, provided in cash or
cash-equivalent on top of a grant-in-aid, as long as the
limit is not less than the athletics participation
awards limit.63 A lower cap is not necessary to
preserve consumer demand because athletics
participation awards, at the current caps, have not
As discussed in the findings of fact, the athletics participation
awards limit is the maximum amount of compensation that an
individual student-athlete could receive in an academic school
year in participation, championship, or special achievement
awards (combined) under Division I Bylaw, Article 16, and listed
in Figures 16-1, 16-2, and 16-3 of the 2018-2019 Division I
Manual, J0024.
63

194a

been demand-reducing. In fact, the NCAA considers
these amounts consistent with amateurism. While the
NCAA could reduce the athletics participation awards
limit in the future, it may not reduce academic or
graduation awards or incentives to amounts lower
than the current athletics participation awards limit.
The NCAA may increase athletics participation
awards in the future, but it must increase any limits
on academic or graduation awards and incentives so
that such limits are never lower than the limit on
athletics participation awards.
Defendants have not shown a procompetitive
effect for NCAA rules that restrict inherently limited,
non-cash, education-related benefits provided on top
of a grant-in-aid. Accordingly, such limits are not
included in the less restrictive alternative rules. The
types of inherently limited education-related benefits
that are uncapped as part of this alternative include
those that currently are prohibited or limited in some
fashion by the NCAA. These are listed in the findings
of fact.
As discussed in the findings of fact, this
alternative would be virtually as effective as the
challenged set of rules in preserving the same
contribution to consumer demand for Division I
basketball and FBS football, as a product distinct
from professional sports, that the current NCAA
compensation scheme achieves. This is because this
alternative expands education-related compensation
and benefits only, and it does so in a way that would
not result in unlimited cash payments, untethered to
education, similar to those observed in professional
sports.
This alternative also would not require significant
new costs to implement, because it eliminates NCAA

195a

caps on education-related benefits. This will eliminate
the need to expend resources on compliance and
enforcement in connection with such caps. To the
extent that the NCAA, conferences, or schools choose
to regulate compensation in any way that is
permissible under this alternative, they could employ
existing
rule-making,
interpretation,
and
enforcement structures to do so. The NCAA could
assist conferences and schools in that undertaking, by
reallocating the resources it uses to enforce or
interpret the NCAA caps that this alternative
eliminates, or otherwise.
The alternative adopted here is consistent with
the teachings of O’Bannon II. As noted above, in that
case, the Ninth Circuit affirmed this Court’s
conclusion that the NCAA’s compensation limits
relating to the use or licensing of NIL violated the
Sherman Act, and affirmed its order that the NCAA
could not cap compensation for student-athletes’ NIL
at an amount lower than the cost of attendance. The
circuit court reasoned that (1) the evidence in that
case did not “suggest[] that consumers of college
sports would become less interested in those sports” if
this compensation were provided because it “would be
going to cover [student-athletes’] ‘legitimate costs’ to
attend school”; and (2) the additional compensation
“would have virtually no impact on amateurism” as
the NCAA defined the concept in that case. O’Bannon
II, 802 F.3d at 1074-75. “By the NCAA’s own
standards, student-athletes remain amateurs as long
as any money paid to them goes to cover legitimate
educational expenses.” Id. at 1075. The circuit court,
however, vacated this Court’s order that the NCAA
could not limit the schools’ compensation in trust to
student-athletes for their NIL at an amount lower
than $5,000 per year. The majority found that this

196a

Court erred in allowing student-athletes to be paid
cash untethered to their education expenses, even if
such payment was deferred, because that alternative
would not be “virtually as effective as the NCAA’s
current amateur-status rule.” Id. at 1074.
The non-cash education-related benefits allowed
here, like the compensation approved by the court of
appeal in O’Bannon II, will go to cover legitimate
education-related costs. As in O’Bannon II, there is no
evidence here suggesting that uncapping non-cash
education-related benefits would negatively affect
consumers’ interest in Division I basketball and FBS
football. According to defense witnesses, consumer
demand for Division I basketball and FBS football as
distinct from professional sports is driven by
consumers’ perception that student-athletes are
students. See Board of Regents, 468 U.S. at 101-02
(noting that “[t]he identification of this ‘product’
[college football] with an academic tradition
differentiates [it]” from professional sports).
Additional education-related benefits, if anything,
would serve to enhance student-athletes’ connection
to academics. The natural experiments discussed in
the findings of fact, as well as the testimony of
Plaintiffs’ survey expert, Dr. Poret, and some
testimony by defense witnesses, also show that
increasing education-related compensation and
benefits would not reduce consumer demand for
Division I basketball or FBS football. Defendants and
their witnesses agree that the types and amounts of
compensation that the NCAA currently permits
schools to provide to student-athletes on top of a
grant-in-aid are consistent with what they describe as
amateurism. Some of this currently permissible
compensation on top of a grant-in-aid, which can
reach thousands and even tens of thousands of dollars

197a

above the cost of attendance, is related to education,
and some is not. It follows that allowing limited noncash education-related benefits on top of a grant-inaid is not inconsistent with what Defendants describe
as amateurism.
Nor is there evidence here that allowing limited
academic awards would negatively affect consumers’
interest in Division I basketball or FBS football The
NCAA will be permitted to limit academic and
graduation awards and incentives that are provided
in cash or a cash-equivalent to a level that the record
shows is not demand-reducing or inconsistent with
NCAA amateurism, namely the level at which
athletics participation awards, which are provided in
cash-equivalents, are capped by the NCAA. The
NCAA also will be permitted to continue to limit
grants-in-aid at not less than the cost of attendance
and limit compensation and benefits unrelated to
education.
Defendants rely heavily on the following language
from O’Bannon II: “The Rule of Reason requires that
the NCAA permit its schools to provide up to the cost
of attendance to their student athletes. It does not
require more.” Id. at 1079. But this language from
O’Bannon II cannot be read to preemptively bar any
Rule of Reason challenge to any NCAA rule that
restricts or prohibits student-athlete compensation.
Such a broad reading would be inconsistent with the
circuit court’s statement elsewhere in the opinion
that, under the Rule of Reason, the validity of each
rule “must be proved, not presumed.” Id. at 1064.
Further, this statement was made in the context
of the majority's disapproval of allowing deferred cash
payments above the cost of attendance and "untethered to educational expenses." Id. at 1078. Based on

198a

the evidence in that case, the majority held that paying student-athletes any amount of cash above the
cost of attendance, if unrelated to education, would
"vitiate their amateur status," id. at 1077, whereas
including additional compensation in a grant-in-aid
up to the cost of attendance would not.
New evidence presented in this case shows that
payments above the cost of attendance do not vitiate
student-athletes’ NCAA amateur status, even when
such payments are made in cash-equivalents, are
unrelated to education, and can amount to thousands
and even tens of thousands of dollars. The NCAA
permits student-athletes to receive, above the cost of
attendance, cash-equivalent payments for their
athletic performance directly from their schools and
conferences, the cumulative value of which could
reach $5,600 in an academic school year. This
evidence was not before the Ninth Circuit in
O’Bannon II. Moreover, the NCAA also currently
permits a variety of other payments above the cost of
attendance that have no tether to education, such as
payments of $50,000 premiums for loss-of-value
insurance against loss of future professional wages,
thousands of dollars of SAF and AEF monies that can
be used in a wide variety of ways, and thousands of
dollars of travel expenses for family members.
Defense witnesses have testified that these payments
are not inconsistent with amateurism. The economic
analyses discussed above show that consumer
demand has not been negatively affected.
The concern described in O’Bannon II that, if the
line
of
paying
cash,
non-education-related
compensation were crossed, there would be “no
defined stopping point,” id. at 1078-79, is inapplicable
here. The alternative being adopted would remove

199a

NCAA caps on education-related benefits only. These
benefits are inherently limited to their actual value,
such as graduate school tuition. Cash or cashequivalent academic and graduation awards and
incentives would be limited to the NCAA-approved
amounts of athletics participation awards. Thus, the
alternative rules being adopted here do have a
stopping point, and that stopping point falls within
amateurism as Defendants described it in this case.
Under these less restrictive rules, the NCAA
would retain the right to define these educationrelated benefits and to regulate how schools provide
them to student-athletes. For example, the NCAA
could require schools to pay the cost of such benefits
directly to the educational institution or provider from
which the student-athletes will obtain the benefits. In
the case of education-related supplies, such as
computers and science equipment, the NCAA could
require schools to pay for these items directly or to
reimburse student-athletes for these expenses if
adequate proof of purchase is shown.
The adoption of this alternative set of rules also
would not significantly impact the NCAA’s ability to
superintend college sports, because only a small
fraction of the conduct that the NCAA regulates would
be affected. The NCAA will otherwise remain free to
manage college sports as it wishes.
These alternative rules are less restrictive than
the current compensation rules, and therefore less
harmful to competition in the relevant market. They
will result in increased competition among NCAA
members
and
increased
education-related
compensation for student-athletes.

200a

VIII. Balancing
As discussed above, the Court has found and
concluded that Plaintiffs have shown a less restrictive
alternative to the challenged rules. Accordingly, the
Court can impose its remedy without weighing the
anticompetitive effects of the challenged restraints
against their procompetitive benefits as a final
balancing consideration.
Several Ninth Circuit cases describe the
balancing inquiry as being necessary as a final
consideration only if the court finds no viable less
restrictive alternative. For example, in County of
Tuolumne, the Ninth Circuit explained that where
“plaintiffs have failed to meet their burden of
advancing viable less restrictive alternatives,” a court
then “reach[es] the balancing stage,” where it “must
balance the harms and benefits of the [challenged
restraints] to determine whether they are
reasonable.” 236 F.3d at 1160 (citing Areeda ¶ 1507b
at 397). Similarly, in Bhan, the circuit court described
the Rule-of-Reason inquiry as involving four steps,
and noted that, after the third step in which a plaintiff
must “try to show that any legitimate objectives can
be achieved in a substantially less restrictive
manner,” “[f]inally, the court must weigh the harms
and benefits to determine if the behavior is reasonable
on balance.” 929 F.2d at 1413 (citing Areeda ¶ 1502 at
371-72).
An argument can be made that balancing should
be done at an earlier stage, and in the Ninth Circuit,
the Rule of Reason inquiry has been described in
varying ways. In Tanaka, the circuit court described
it as involving three steps but also noted that a
“restraint violates the rule of reason if the restraint’s
harm to competition outweighs its procompetitive

201a

effects.” 252 F.3d at 1063. In Paladin Assocs., Inc. v.
Mont. Power Co., the circuit court described the Rule
of Reason inquiry as “determin[ing] whether the
anticompetitive aspects of the challenged practice
outweigh its procompetitive effects,” without
mentioning any burden-shifting steps. 328 F.3d 1145,
1156 (9th Cir. 2003). In Am. Ad Mgmt., Inc. v. GTE
Corp., the court ruled, “The fact finder must balance
the restraint and any justifications or pro-competitive
effects of the restraint in order to determine whether
the restraint is unreasonable.” 92 F.3d 781, 791 (9th
Cir. 1996) (citation, internal quotation marks, and
emphasis omitted).
Some Supreme Court cases have described the
Rule of Reason inquiry without mentioning a burdenshifting framework at all. See, e.g., Leegin Creative
Leather Prods., Inc. v. PSKS, Inc., 551 U.S. 877, 885
(2007) (under the rule of reason, “the factfinder
weighs all of the circumstances of a case in deciding
whether a restrictive practice should be prohibited as
imposing an unreasonable restraint on competition”)
(citation and internal quotation marks omitted).
Thus, Supreme Court and Ninth Circuit cases
have used various formulations of the Rule of Reason:
three steps followed by balancing, four steps including
balancing, balancing at the second step, or eschewing
a burden-shifting test with defined steps altogether.
None of these cases has endorsed or required the use
of any particular formulation over any other.
The Court is not persuaded by Defendants’
contention that the mention of a three-step test by the
Supreme Court in Ohio v. American Express Co., 138
S. Ct. 2274, 2284 (2018) (analyzing challenged
restraints under the Rule of Reason using “a threestep, burden-shifting framework”) and by the Ninth

202a

Circuit in O’Bannon II, 802 F.3d at 1060 (referring to
the “third and final” step), means that the Rule of
Reason analysis can end without balancing if a viable
less restrictive alternative is not shown. Neither the
Supreme Court nor the Ninth Circuit has so held. In
O’Bannon II, the Ninth Circuit found a less restrictive
alternative was viable; accordingly, balancing as a
final consideration was not necessary in that case. See
802 F.3d at 1070. The Supreme Court’s rule-of-reason
analysis in American Express did not reach the
balancing stage either, because the plaintiffs had not
satisfied their burden to show that the conduct at
issue had anticompetitive effects.
As can be observed in many citations above, the
Supreme Court and the Ninth Circuit frequently rely
on the treatises and other writings of Phillip E.
Areeda and Herbert Hovenkamp in cases involving
the Sherman Act. See, e.g., American Express, 138 S.
Ct. at 2284 (citing Areeda & Hovenkamp). These
scholars have noted that a three-step burden-shifting
framework and balancing “are hardly the same thing”
because “the sequence of evidentiary steps, with its
shifting burdens, is an attempt to avoid general
balancing.” See Areeda & Hovenkamp ¶ 1507d. Their
view is that balancing is appropriate as a final
consideration where no viable less restrictive
alternative has been established. See id. (“A better
way to view balancing is as a last resort when the
defendant has offered a procompetitive explanation
for a prima facie anticompetitive restraint, but no less
restrictive alternative has been shown . . . . The court
must then determine whether the anticompetitive
effects made in the prima facie case are sufficiently
offset by the proffered defense.”).

203a

If no balancing were required at any point in the
analysis, an egregious restraint with a minor
procompetitive effect would have to be allowed to
continue, merely because a qualifying less restrictive
alternative was not shown. In this case, however, the
Court has found a viable less restrictive alternative
and will enter its injunction accordingly.
IX. Summary of Liability Determinations
For the reasons set forth above, the Court finds
and concludes that the challenged rules, in their
current form, unreasonably restrain trade in violation
of Section 1 of the Sherman Act. The challenged rules
constitute horizontal price-fixing agreements enacted
and enforced with monopsony power. This essentially
eliminates price competition as to one key aspect of
the recruitment of student-athletes in Division I
basketball and FBS football, namely the labor that
goes into these sports. As such, the challenged rules
harm student-athletes by depriving them of
compensation they otherwise would receive for their
athletic services.
Defendants failed to show that the challenged
rules have an effect on promoting integration of
student-athletes and their academic communities.
While Defendants have shown that limiting studentathlete compensation has some effect in preserving
consumer demand for Division I basketball and FBS
football as compared with no limit, Plaintiffs have
shown that not all of the challenged rules are
necessary to achieve this effect and that a less
restrictive alternative set of rules would be virtually
as effective as the set of challenged rules, without
requiring significant costs to implement. The less
restrictive alternative would remove limitations on
most education-related benefits provided on top of a

204a

grant-in-aid, while allowing the NCAA to limit cash or
cash-equivalent awards or incentives for academic
achievement or graduation to the same extent it limits
athletics awards. Limits on compensation and
benefits that are not related to education and a limit
on the grant-in-aid at not less than the cost of
attendance would remain.
X. Remedy
The Sherman Act grants the power to district
courts to “prevent and restrain violations” of Section
1. 15 U.S.C. § 4. In accordance with the viable less
restrictive alternative discussed above, the NCAA
may continue to limit the grant-in-aid at not less than
the cost of attendance, and to limit compensation and
benefits that are unrelated to education provided on
top of a grant-in-aid. The NCAA may also limit
academic or graduation awards or incentives,
provided in cash or cash-equivalent, as long as the
limit imposed by the NCAA is not less than the
athletics participation awards limit.
Current NCAA limits on other education-related
benefits that can be provided on top of a grant-in-aid
are invalidated. The NCAA may not limit these
benefits in the future.
Each conference will continue to be able to limit
any compensation or benefits, including the
education-related benefits that the NCAA will not be
permitted to cap, as long as it does so independently
from other conferences Schools will remain free to set
limits on their own offers to student-athletes.
The NCAA will retain the right to define, in an
exercise of discretion and good faith, educationrelated benefits and to regulate how schools provide
them to student-athletes. The NCAA may also assist

205a

conferences and schools in enforcing any conference
rules limiting educational benefits.
The Court will herewith issue an injunction,
which will take effect in ninety days but will be stayed
pending the issuance of a mandate if a notice of appeal
is timely filed. The Court will retain jurisdiction over
the enforcement and amendment of the injunction.
//
CONCLUSION
There is a great disparity between the
extraordinary revenue that Defendants garner from
Division I basketball and FBS football, and the
modest benefits that class members receive in
exchange for their participation in these sports
relative to the value of their athletic services and the
contributions they make. Class members contribute
their elite talent and time, they limit their educational
options, and they risk their long-term health to create
enormous financial value for Defendants.
Restricting non-cash education-related benefits
and academic awards that can be provided on top of a
grant-in-aid has not been proven to be necessary to
preserving consumer demand for Division I basketball
and FBS football as a product distinct from
professional sports. Allowing each conference and its
member schools to provide additional educationrelated benefits without NCAA caps and prohibitions,
as well as academic awards, will help ameliorate their
anticompetitive effects and may provide some of the
compensation student-athletes would have received
absent Defendants’ agreement to restrain trade.
The clerk shall enter judgment in favor of the
Plaintiff class. Plaintiffs shall recover their costs from

206a

Defendants. The parties shall not file any post-trial
motions based on arguments that have already been
made.
IT IS SO ORDERED.
Dated: March 8, 2019
/s/ Claudia Wilken
Claudia Wilken
United States District Judge

207a

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
CALIFORNIA
IN RE: NATIONAL COLLEGIATE
ATHLETIC ASSOCIATION
ATHLETIC GRANT-IN-AID CAP
ANTITRUST LITIGATION

No. 14-md-02541
CW
PERMANENT
INJUNCTION

The Court, having considered the evidence
presented at the bench trial in this matter and
consistent with its findings of fact and conclusions of
law, hereby orders as follows:
1.
Defendant National Collegiate Athletic
Association, and its officers, agents, servants,
employees, and any person in active concert or
participation with them, including its member schools
and conferences, who receive actual notice of this
Order by personal service or otherwise (hereinafter,
the NCAA), are hereby permanently restrained and
enjoined from agreeing to fix or limit compensation or
benefits related to education that may be made
available from conferences or schools to Division I
women's and men's basketball and FBS football
student-athletes on top of a grant-in-aid.
2.
The compensation and benefits related
to education provided on top of a grant-in-aid that the
NCAA may not agree to fix or limit pursuant to
paragraph 1 of this Order are the following:
computers, science equipment, musical instruments
and other tangible items not included in the cost of

208a

attendance calculation but nonetheless related to the
pursuit of academic studies; post-eligibility
scholarships to complete undergraduate or graduate
degrees at any school; scholarships to attend
vocational school; tutoring; expenses related to
studying abroad that are not included in the cost of
attendance calculation; and paid post-eligibility
internships.
3.
The list of compensation and benefits
related to education listed in paragraph 2 may be
amended, at any time, on motion of any party.
4.
Notwithstanding
the
foregoing
paragraphs, the NCAA may adopt, enact, or agree to,
now or in the future, a definition of compensation and
benefits that are "related to education" for the purpose
of complying with this injunction. If the NCAA
chooses to adopt, enact, or agree to any such
definition, the NCAA may move to amend this
injunction to incorporate that definition. Additionally,
notwithstanding the foregoing paragraphs, the NCAA
may adopt, enact, or agree to, now or in the future,
any constitutional provision, bylaw, rule, regulation,
interpretation, or policy that regulates how
conferences or schools provide education-related
compensation and benefits to Division I women's and
men's basketball and FBS football student-athletes on
top of a grant-in-aid.
5.
Notwithstanding
the
foregoing
paragraphs, the NCAA may agree, now or in the
future, to fix or limit academic or graduation awards
or incentives that may be made available from
conferences or schools to Division I women's and
men's basketball and FBS football student-athletes on
top of a grant-in-aid. Any limit adopted, enacted, or
agreed to by the NCAA under this paragraph shall

209a

not, at any time, be less than the maximum amount
of compensation that an individual student-athlete
could receive in an academic school year in
participation, championship, or special achievement
awards (combined) under Division I Bylaw, Article 16,
and listed in Figures 16-1, 16-2, and 16-3 of the 20182019 Division I Manual (hereinafter, the athletics
participation awards limit). Any limit adopted,
enacted, or agreed to by the NCAA under this
paragraph shall be increased in the event that the
athletics participation awards limit is increased, to
ensure that the limit on academic achievement or
graduation awards or incentives is never less than the
athletics participation awards limit.
6.
Notwithstanding
the
foregoing
paragraphs, any NCAA member conference may,
individually, fix or limit compensation or benefits
related to education that may be made available from
that conference or its member schools to Division I
women's and men's basketball and FBS football
student-athletes on top of a grant-in-aid. No limit set
under this paragraph shall be set pursuant to an
agreement with any other conference.
7.
Notwithstanding
the
foregoing
paragraphs, any NCAA member conference may,
individually, fix or limit academic or graduation
awards or incentives that may be made available from
that conference or its member schools to Division I
women's and men's basketball and FBS football
student-athletes on top of a grant-in-aid. No limit set
under this paragraph shall be set pursuant to an
agreement with any other conference.
8.
Any party may seek modification of this
Order, at any time, by written motion and for good
cause based on changed circumstances or otherwise.

210a

9.
The Court will retain jurisdiction over
the enforcement and amendment of the injunction. If
any part of this Order is violated by any party named
herein or any other person, Plaintiffs may, by motion
with notice to the attorneys for Defendants, apply for
sanctions or other relief that may be appropriate.
10.
The injunction will take effect in ninety
days but will be stayed pending the issuance of a
mandate if a notice of appeal is timely filed.
IT IS SO ORDERED.
Dated: March 8, 2019
/s/ Claudia Wilken
CLAUDIA WILKEN
United States District Judge

